<html>
<title> - IMPROVED MONITORING OF VULNERABLE CHILDREN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
               IMPROVED MONITORING OF VULNERABLE CHILDREN

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2003

                               __________

                           Serial No. 108-29

                               __________

         Printed for the use of the Committee on Ways and Means




                        U.S. GOVERNMENT PRINTING OFFICE

92-985                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001

                             




                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also, published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                            C O N T E N T S

                               __________
                                                                   Page

Advisories announcing the hearing................................     2

                               WITNESSES

U.S. General Accounting Office, Cornelia M. Ashby, Director, 
  Education, Workforce, and Income Security Issues...............    10

                                 ______

Chapin Hall Center for Children, University of Chicago, Fred H. 
  Wulczyn........................................................    61
Child Welfare League of America, Robert McKeagney................    37
Community College Foundation, David R. Springett.................    49
DeLay, Hon. Tom, a Representative in Congress from the State of 
  Texas, and House Majority Leader...............................    58
Florida Department of Children and Families, Michael A. Watkins..    44
Norfolk Department of Human Services, Jill Baker.................    30

                       SUBMISSIONS FOR THE RECORD

Acevedo-Vila, Hon. Anibal, a Representative in Congress from the 
  Commonwealth of Puerto Rico, statement.........................    83
Advocates for Children in Therapy, Loveland, CO, Larry W. Sarner 
  and Jean Mercer, statement.....................................    84
Baff, Mark C., Sandata Technologies, Inc., Port Washington, NY, 
  letter.........................................................    86
Cardoza, Hon. Dennis A., a Representative in Congress from the 
  State of California, statement.................................    87
Covenant House of New Jersey, Newark, NJ, statement..............    88
Family Alliance to Stop Abuse and Neglect, Teaneck, NJ, statement    90
Gladwell, Lisa E., River Edge, NJ, letter........................    92
Hanson, Greg S., and Lisa R. Watkins, Hiawatha, IA, statement....    93
Harris, Barbara, Rocky Ridge, MD, statement......................    98
Helson, Kandy, Racine, WI, statement.............................    99
Indiana Civil Rights Council, Whitestown, IN, Torm L. Howse, 
  letter.........................................................   100
Jones, E. Pamela, In the Spirit of the Children, Inc., New York, 
  NY, statement..................................................   101
Kroll, Joe, North American Council on Adoptable Children, Saint 
  Paul, MN, statement............................................   102
Mercer, Jean, Advocates for Children in Therapy, Loveland, CO, 
  statement......................................................    84
North American Council on Adoptable Children, Saint Paul, MN, Joe 
  Kroll, statement...............................................   102
Sandata Technologies, Inc., Port Washington, NY, Stephen A. 
  Silverstein and Mark C. Baff, letter...........................    86
Sarner, Larry W., Advocates for Children in Therapy, Loveland, 
  CO, statement..................................................    84
Silverstein, Stephen A., Sandata Technologies, Inc., Port 
  Washington, NY, letter.........................................    86
Sowles, Darlene G., Pueblo, CO, statement........................   106
In the Spirit of the Children, Inc., New York, NY, E. Pamela 
  Jones, statement...............................................   101
Wardell, Jody, Enon, OH, statement...............................   107
Watkins, Lisa R., and Greg S. Hanson, Hiawatha, IA, statement....    93


               IMPROVED MONITORING OF VULNERABLE CHILDREN

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2003

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:15 p.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory and the revised advisory announcing the 
hearing follow:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
November 06, 2003
HR-6

 Herger Announces Hearing on Improved Monitoring of Vulnerable Children

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing in an effort to improve the monitoring 
of vulnerable children. The hearing will take place on Thursday, 
November 13, 2003, in room B-318 Rayburn House Office Building, 
beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include Federal, State, and local officials and outside 
experts familiar with ongoing efforts to monitor and collect 
information on children in foster care and adoptive settings. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Federal Government provides approximately $7 billion to the 
States to operate foster care and adoption assistance programs. As a 
condition of receiving these funds, States must collect and report data 
on children in their care. The Subcommittee held a hearing on November 
6, 2003, to receive testimony about a recent New Jersey caseinvolving 
four boys who were apparently starved while in the care of their 
adoptive parents--even as caseworkers made numerous visits to the 
home--and has raised questions about the effectiveness ofcurrent 
monitoring. This case has highlighted gaps in current monitoring and 
data reporting, including for children whose foster and adoptive 
parents received Federal funds or other services and supports.
      
    ``We have learned that, absent basic information on the well being 
of children, horrific situations--like the neglect of the four Jackson 
boys--can occur. It is critical that child welfare agencies are capable 
of gathering and using the necessary information in order to ensure the 
safety of children,'' said Herger. ``This hearing is another step 
towards making sure other children do not suffer similar fates.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on: (1) what data States collect to monitor 
the care and supervision of children in foster care and children for 
whom adoption subsidies are paid; (2) how that data is used today; and 
(3) what additional data or applications of these data might better 
ensure the safety, permanency, and well-being of children.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
hearingc<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff939a8d948cd1889e868c9e919b929a9e918cbf929e9693d197908a8c9ad1989089">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Friday, November 28, 2003. 
Those filing written statements who wish to have their statements 
distributed to the press and interested public at the hearing should 
deliver their 200 copies to the new Congressional Courier Acceptance 
Site at the location of 2nd and D Streets, N.E., at least 48 hours 
prior to the hearing date. Please ensure that you have the address of 
the Subcommittee on Human Resources, room B-317 Rayburn House Office 
Building, on your package, and contact the staff of the Subcommittee at 
(202) 225-1025 of its impending arrival. Due to new House mailing 
procedures, please avoid using mail couriers such as the U.S. Postal 
Service, UPS, and FedEx. When a couriered item arrives at this 
facility, it will be opened, screened and then delivered to the 
Subcommittee office, within one of the following time frames: (1) 
expected or confirmed deliveries will be delivered in approximately 2 
to 3 hours, or (2) unexpected items, or items not approved by the 
Subcommittee office, will be delivered the morning of the next business 
day. The U.S. Capitol Police will refuse all non-governmental courier 
deliveries to all House Office Buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b535e5a4952555c58575e495048154c5a42485a555f565e5a55487b565a52571553544e485e155c544d">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in WordPerfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

                  * * * CHANGE IN DATE AND TIME * * *

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
November 10, 2003
HR-6-Revised

     Change in Date and Time for Hearing on Improved Monitoring of 
                          Vulnerable Children

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee hearing to examine efforts to improve monitoring of 
vulnerable children, previously scheduled for 10:00 a.m. on Thursday, 
November 13, 2003, in room B-318 Rayburn House Office Building, will 
now take place on Wednesday, November 19, 2003, at 2:00 p.m.
      
    Witnesses who are scheduled to appear before the Committee are 
required to deliver their testimony to the to the new Congressional 
Courier Acceptance Site, at the location of 2nd and D Streets, N.E., no 
later than 5:00 p.m., Monday, November 17, 2003. Please ensure the 
address of the Subcommittee office, room B-317 Rayburn House Office 
Building, is included. Refer to the Human Resources Advisory No. HR-6 
for more details.
      

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

      
    Please Note: Due to the change in House mail policy, any person or 
organization that is not scheduled to appear before the Committee and 
wishes to submit a written statement for the printed record of the 
hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5bdb0b4a7bcbbb2b6b9b0a7bea6fba2b4aca6b4bbb1b8b0b4bba695b8b4bcb9fbbdbaa0a6b0fbb2baa3">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Wednesday, December 3, 2003.
      
    All other details for the hearing remain the same. (See Human 
Resources Advisory No. HR-6, dated November 6, 2003.)
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5cdc0c4d7cccbc2c6c9c0d7ced68bd2c4dcd6c4cbc1c8c0c4cbd6e5c8c4ccc98bcdcad0d6c08bc2cad3">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in WordPerfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.

                                 <F-dash>

    Chairman HERGER. Good afternoon. I would like to welcome 
our guests here with us today. Today's hearing follows our 
hearing on November 6th that reviewed the New Jersey child 
welfare tragedy, in which four boys suffered from apparent 
starvation while under the care of their adoptive parents. 
Thankfully, we have received some good news about the health of 
these boys. I am very pleased to report that all four children 
are gaining weight and improving in health due to the care they 
have received since being removed from their adoptive home.
    Aside from this silver lining, the hearing allowed us to 
gain greater insight into the circumstances of that horrific 
situation. We continue to be troubled by the fact that the 
child welfare system failed to notice the boys' conditions for 
so long, despite repeated visits to the home. Our next step is 
to make a more informed assessment of how the system failed to 
protect the four Jackson boys. As we will discuss today, we 
will use this case and others as background when considering 
whether changes are needed to prevent the reoccurrence of such 
awful events.
    Today's hearing will review seemingly routine but critical 
questions about the information available to States regarding 
children in their care. Our questions will be simple but 
critical. What do we know about the safety and well-being of 
children in foster care? What do caseworkers and their 
supervisors do with that information? Should more information 
be collected and used to ensure that children are being 
protected? There are too many cases of children who are lost, 
abused, or sometimes killed while in States' care, and this has 
prompted our review. In too many places, and in too many 
States, we continue to see evidence that these systems, 
designed to monitor the well-being of children, fail to ensure 
that children are in a safe environment. In the case of the 
Jackson boys, thousands of taxpayer dollars were provided for 
the care of youngsters who needed medical attention. Yet, for 
years, such medical attention was not provided; why?
    In other cases, such as in the Rilya Wilson case in 
Florida, a child disappeared--she was more or less lost without 
a trace. Today, sadly, she is now presumed dead. It is 
unfortunate that the post office does a better job tracking 
packages than some States have done monitoring children. As I 
have stated before, our goal is to ask what happened in the New 
Jersey case and to use the answers we get to better protect 
children in the future. Today's hearing marks a continuation of 
that pursuit, which will require more work in the weeks ahead.
    We have received many comments from concerned parents and 
individuals involved in the child welfare system around the 
country--including my district in California. I want to 
encourage people to be in touch with us as we conduct our 
review. The best way is to follow the guidelines for the 
submission of testimony for the record, as outlined in our 
hearing advisory. That way, people's stories will be included 
in the files. These files are kept by the Committee, and also 
will be available to policymakers in the future. We greatly 
appreciate all the interest and feedback that we have gotten 
from so many people. I would also like to thank my Democratic 
colleague, Mr. Cardin, for his outstanding and continued 
support of our efforts. Once again, we come here today with no 
Republican or Democrat witnesses before us. Rather, we are here 
today to review efforts in all States to monitor foster and 
adoptive children.
    Joining us today are representatives of the U.S. General 
Accounting Office (GAO), the State of Florida, national child 
welfare advocates, and experts in child welfare data 
management, the lifeblood of any effective child welfare 
program. We are pleased to have a caseworker with us to provide 
a first-hand perspective on these issues, as well as a witness 
who has piloted technology to help workers better monitor, and 
thus better protect, children's well-being. We are also pleased 
to welcome the distinguished Majority Leader, Mr. DeLay, who 
has a longstanding interest in these issues. Without objection, 
each Member will have the opportunity to submit a written 
statement and have it included in the record at this point. Mr. 
Cardin, would you like to make an opening statement?
    [The opening statement of Chairman Herger follows:]
Opening Statement of the Honorable Wally Herger, Chairman, Subcommittee 
on Human Resources, and a Representative in Congress from the State of 
                               California
    Today's hearing follows our hearing on November 6 that reviewed the 
New Jersey child welfare tragedy in which four boys suffered from 
apparent starvation while under the care of their adoptive parents. 
Thankfully, we've received some good news about the health of these 
boys. I'm very pleased to report all four children are gaining weight 
and improving in health due to the care they have received since being 
removed from their adoptive home.
    Aside from this silver living, the hearing allowed us to gain 
greater insights into the circumstances of that horrific situation. We 
continue to be troubled by the fact that the child welfare system 
failed to notice the boys' conditions for so long despite repeated 
visits to the home. Our next step is to make a more informed assessment 
of how the system failed to protect the four Jackson boys. And as we 
will discuss today, we will use this case and others as background when 
considering whether changes are needed to prevent a recurrence of such 
awful events.
    Today's hearing will review seemingly routine but critical 
questions about the information available to States regarding children 
in their care. Our questions will be simple, but critical. What do we 
know about the safety and well being of children in foster care? What 
do caseworkers and their supervisors do with that information? And 
should more information be collected and used to ensure that children 
are being protected?
    There are too many cases of children who are lost, abused, or 
sometimes killed while in States' care and this has prompted our 
review. In too many places, and in too many States, we continue to see 
evidence that these systems--designed to monitor the well being of 
children--fail to ensure that children are in a safe environment. In 
the case of the Jackson boys, thousands of taxpayer dollars were 
provided for the care of youngsters who needed medical attention. Yet 
for years, such medical attention was not provided. Why?
    In other cases, such as in the Rilya Wilson case in Florida, a 
child disappeared--was more or less lost without a trace. Today, sadly, 
she is now presumed dead. It is unfortunate that the Post Office does a 
better job tracking packages than some States have done monitoring 
children.
    As I have stated before, our goal is to ask what happened in the 
New Jersey case, and to use the answers we get to better protect 
children in the future. Today's hearing marks a continuation of that 
pursuit, which will require more work in the weeks ahead. We have 
received many comments from concerned parents and individuals involved 
in the child welfare system around the country, including my district 
in California. I want to encourage people to be in touch with us as we 
conduct our review. The best way is to follow the guidelines for 
submission of testimony for the record as outlined in our hearing 
advisory. That way, people's stories will be included in the files. 
These files are kept by the committee and also will be available to 
policymakers in the future. We greatly appreciate all the interest and 
feedback that we have gotten from so many people.
    I also would like to thank my Democrat colleague, Mr. Cardin for 
his outstanding and continued support of our efforts. Once again, we 
come here today with no Republican or Democrat witnesses before us. 
Rather, we are here today to review efforts in all States to monitor 
foster and adoptive children.
    Joining us today are representatives of the U.S. General Accounting 
Office, the State of Florida, national child welfare advocates, and 
experts in child welfare data management--the lifeblood of any 
effective child welfare program. We are pleased to have a caseworker 
with us to provide a first-hand perspective on these issues, as well as 
a witness who has piloted technology to help workers better monitor and 
thus protect child well being.
    We also are pleased to welcome the distinguished Majority Leader, 
Mr. DeLay who has a longstanding interest in these issues.

                                 <F-dash>

    Mr. CARDIN. Thank you very much, Mr. Chairman. On behalf of 
the Democratic Members, we accept your leadership here to work 
together as Democrats and Republicans, as Members of Congress, 
to deal with America's most vulnerable children. We agree with 
you that the current monitoring system needs to be improved. We 
look forward to the witnesses' testimony, so that we can 
develop a common strategy to better monitor the children that 
are in our system.
    Let me just make a few observations, if I may. About 10 
years ago, we developed a plan where we gave enhanced Federal 
matching funds to our States to develop a statewide automated 
child welfare information system. In addition to that, whether 
the States had a uniform system or not, they were required to 
make information available to the national Adoption and Foster 
Care Analysis and Reporting System (AFCARS). So, we had a 
system in place, but it has not worked as well as I think most 
of us expected it to work. There are too many examples of 
children literally being lost in the system. There is the 
reported case in Florida where officials are unable to locate a 
Miami girl under the supervision of the State and who was 
missing for 15 months before officials even discovered she was 
missing. It may well be that the caseworker filed false 
reports, but the truth is that there is, somewhere, around 463 
children in Florida's child welfare system that cannot be 
located. That number needs to be explored, and I expect it will 
be challenged. So, let's challenge it and find out why we are 
unable to give the most accurate information about the children 
within the system. I do look forward to listening to the 
recommendations.
    As the Chairman indicated, the GAO has highlighted some 
specific areas of concern, such as insufficient caseworker 
training, accurately recorded data, and the need for more 
technical guidance from the U.S. Department of Health and Human 
Services. I must tell you, though, if we are to effectively 
monitor children in our foster care system, there are still 
problems, and I think we need to take a look at the total 
picture. We must make sure that the children are provided the 
necessary services and assistance to ensure that they find safe 
and permanent homes. Mr. Chairman, you have heard me mention 
many times my concern as to whether we are adequately providing 
the resources necessary to train caseworkers--so we have less 
turnover among caseworkers. That still is a major problem. With 
caseloads three times larger than the recommended number, that 
makes it difficult, even with the best tracking system, to do 
the work to take care of America's children. So, I look forward 
to working with you to develop a strategy that can deal with 
the monitoring issues, and the other issues, so that we can 
have the best possible services for these vulnerable children. 
Thank you very much, Mr. Chairman.
    [The opening statements of Mr. Cardin and Mr. Foley 
follow:]
Opening Statement of the Honorable Benjamin L. Cardin, a Representative 
                 in Congress from the State of Maryland
    Mr. Chairman, I agree with you that we should explore ways to 
improve the monitoring and supervision of children in our foster care 
system. These very vulnerable children need and deserve our constant 
vigilance.
    Congress has taken steps in the past to help States track the 
progress of children in the child welfare system. For example, about 
ten years ago, we provided enhanced Federal matching funds for the 
development of Statewide Automated Child Welfare Information Systems 
(SACWIS).
    These case management systems provide an electronic case file for 
every child served by a State child welfare agency. Even if a State 
does not establish this specific type of monitoring system, they are 
still required to provide information on children under their care to 
the national Adoption and Foster Care Analysis and Reporting System 
(AFCARS).
    Nevertheless, continued reports of children getting lost in the 
system suggest that additional steps are necessary to better protect 
children.
    One recent case raising concern occurred in Florida where officials 
are unable to locate a Miami girl who was under the supervision of the 
State and who has been missing for 15 months. While the caseworker 
apparently filed false reports in this specific case, a recent follow-
up review discovered that 463 children in Florida's child welfare 
system could not be located.
    I look forward to hearing recommendations from our witnesses on how 
to improve our monitoring of children in the child welfare system. I 
understand the GAO has highlighted some specific areas of concern, such 
as insufficient caseworker training on accurately recording data and 
the need for more technical guidance from HHS.
    Mr. Chairman, improving the monitoring of vulnerable children is 
vitally important, but it is only part of a solution that will lead to 
safer outcomes. If we effectively monitor children in foster care, but 
do not provide the necessary services and assistance to ensure they 
find safe and permanent homes, we will not make much progress.
    If we track kids on a computer, but caseworkers on the scene do not 
have the necessary experience or training to make the right judgment 
call, we will have failed to adequately protect children.
    And if we ask caseworkers to spend more time entering data, but 
still leave them grappling with caseloads three times larger than 
recommended, the end result will not improve much for children. 
Therefore, I hope we will look at the whole picture to find a way to 
better way to ensure the safety and well being of our most vulnerable 
children. Thank you.
  Opening Statement of the Honorable Mark Foley, a Representative in 
                   Congress from the State of Florida
    Good Morning Mr. Chairman:
    I want to once again thank you for your efforts to bring the 
troubling issue of examining our nation's child welfare system to 
light. As you know, I have been working on child protection issues 
throughout my career and the story we heard about the four boys in New 
Jersey two weeks ago at your last hearing was the most shocking I have 
ever heard.
    The complete catastrophic failure of New Jersey's system is endemic 
of a nation-wide child protection system in disarray. As you know, the 
Federal Government provides over $7 billion a year to operate foster 
care and adoption assistance programs. However, we heard two weeks ago 
that it wasn't enough. Well, I certainly don't think more money is the 
answer. I will not support a bill giving one more dollar that will go 
to a system putting our children at risk. It is clear that new 
direction, ideas, management, and oversight is what will move us toward 
a program not working against children--but for them.
    Over a year ago in Florida, we were rocked by the horrible news 
that our Department of Children and Families (DCF) could not locate 
several hundred children in its custody. Immediately after this story 
came to light, Governor Bush ordered a Blue Ribbon commission to 
investigate DCF's failures and to recommend ways to improve the system. 
Soon after the report was released DCF, under its new Secretary Jerry 
Regier, made acclaimed changes to his agency--now making it the model 
for all other states to follow.
    After our terrible time a last year, you would think that other 
states would have ``woken up to smell the coffee.'' That states would 
have done a thorough review of their own systems to prevent this 
tragedy from ever happening again. However, we still find ourselves 
with states asleep at the wheel--and children as their passengers.
    Mr. Chairman, the time to act is now before we hear another horror 
story of a child starved to death or found to be missing by state 
authorities. To that end, I intend to introduce shortly a bill that 
will give state social service agencies access to the NCIC criminal 
data base so they can review out-of-state criminal records and 
outstanding warrant information. As those who have worked in this area 
know, this resource will give field staff the ability to quickly get a 
full picture of the possible risks at a certain home.
    Though this is a first step towards strengthening our states 
ability to further protect our children, there is much more work we 
need to do. In 1996, when others criticized us, we had the courage to 
change the Welfare system from one of providing government dependence 
to one that gave people independence.
    Mr. Chairman, the challenge ahead of us is no less daunting, but in 
my opinion even more necessary. These at-risk children, with the 
challenges of facing new environments and new family lives do not need 
the added fear of being placed in a home where their lives are in 
jeopardy. I believe that Congress can wait no longer to change this 
broken system.
    I am very grateful that this issue is being placed on the front-
burner and I look forward to working with you, Chairman Thomas and 
Leader DeLay to ensure--once and for all--that our nation's children 
are safe and sound.
    Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you. Before we move on to our 
testimony, I want to remind our witnesses to limit their oral 
statements to 5 minutes. However, without objection, all of the 
written testimony will be made a part of the permanent hearing 
record. As you will note from the witness list, we were 
expecting Majority Leader DeLay to testify today. 
Unfortunately, it appears he is tied up right now, so we will 
proceed with our second panel at this time.
    Mr. CARDIN. I hope he is not trying to lobby people on the 
Medicare bill (P.L. 108-173). I would rather have Majority 
Leader Tom DeLay here.
    Chairman HERGER. The Majority Leader may very well get here 
at a slightly later point, at which time we will allow him to 
proceed with his testimony. Right now, if our second panel 
would step forward, please. Cornelia Ashby, Director of 
Education, Workforce, and Income Security Issues with the GAO; 
Jill Baker, Program Manager of Child Protective Services for 
the Norfolk Department of Human Services, who I would note is 
accompanied by a former staff member of the Subcommittee, Katie 
Kitchen; Robert McKeagney, Vice President for Program 
Operations, Child Welfare League of America; Mike Watkins, 
Deputy District Administrator for District 2, Florida 
Department of Children and Families; David Springett, President 
of the Community College Foundation; and Fred Wulczyn, Research 
Fellow with the Chapin Hall Center for Children. With that, Ms. 
Ashby, please.

STATEMENT OF CORNELIA M. ASHBY, DIRECTOR, EDUCATION, WORKFORCE, 
   AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Ms. ASHBY. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me here today to discuss the development 
of the statewide Automated Child Welfare Information Systems 
(SACWIS). Since 1994, Federal matching funds have been 
available to States to develop and implement SACWIS, manage 
their child welfare cases, and report child abuse and neglect, 
foster care, and adoption information to the Federal 
Government. As you know, States have the option to implement a 
SACWIS, or develop different information systems without SACWIS 
funds to support their child welfare agencies and collect 
information on their child welfare cases. My testimony today 
will focus on States' experiences in developing SACWIS, the 
Department of Health and Human Services' role in assisting in 
their development, factors affecting the reliability of States' 
welfare data, the Department of Health and Human Services' role 
in assuring their reliability, and the practices of child 
welfare agencies to overcome SACWIS development and reliability 
challenges. My comments are based on our July 2003 report on 
State child welfare information systems. For that report, we 
surveyed all 50 States and the District of Columbia, and 
visited 5 States.
    Forty-seven States are developing or operating a SACWIS. 
Although State officials recognize the benefits of having a 
uniform system that enhances the State's ability to monitor the 
services provided and the outcomes for children in their care, 
many States continue to face challenges developing their 
systems. Thirty-one State agencies lag behind the timeframes 
they set for completion, with 26 States reporting delays 
ranging from 2 months to 8 years, and a median delay of 2.5 
years. Challenges include developing a system that meets the 
child welfare agency's needs statewide, receiving State funding 
approval, reaching internal agreement on system development, 
creating a system that reflects child welfare processes and is 
user friendly, and securing contractors with the knowledge of 
child welfare policies. Forty-four States report in our survey 
that they used approximately $1.3 billion in Federal funds, and 
approximately $1.1 billion in State and local funds for their 
SACWIS. To assist States in developing SACWIS, the Department 
of Health and Human Services monitors States' development 
plans, conducts formal on-site SACWIS assessment reviews--which 
include technical assistance--maintains an automated system 
users' group and electronic mailing list, and holds a monthly 
conference call with State information technology directors 
that allows State and Federal officials to exchange 
information. The Department of Health and Human Services also 
provides technical assistance for SACWIS development through 
the National Resource Center for Information Technology in 
Child Welfare.
    Several factors affect the reliability of States' child 
welfare data. These include insufficient caseworker training, 
inaccurate and incomplete data entry, and technical challenges, 
such as matching State data element definitions to the 
Department of Health and Human Services' data categories, and 
balancing State policy with Federal data reporting 
requirements. Inaccurate and incomplete data entry can result 
from insufficient training as well as other factors, such as 
caseworkers' hesitation to ask families for sensitive 
information, difficulty balancing timely data entry, time spent 
with families and children, and caseworker turnover. The 
Department of Health and Human Services tests State data 
quality and provides the results, as well as the data testing 
software, to States to help them identify and correct 
inaccurate and incomplete data. In addition, the Department of 
Health and Human Services provides technical assistance to 
States through its central office, contractor, and resource 
center staff to help States address abuse and neglect, foster 
care, adoption, and other reporting problems. Despite the 
Department of Health and Human Services' assistance, States 
report ongoing challenges in receiving clear and documented 
guidance, and obtaining timely technical assistance. Further, 
although States were mandated to begin reporting data on foster 
care placements and adoption to the Federal Government in 1995, 
few comprehensive reviews of State information systems' ability 
to collect and report foster care and adoption data have been 
conducted to assist States in resolving some of their reporting 
challenges.
    States are using a variety of practices to address the 
challenges associated with developing SACWIS and improving data 
reliability. For example, States are reviewing their data to 
identify data entry errors; including input from caseworkers, 
supervisors, external public agency users, and representatives 
from other State agencies that serve children; including 
training contractors in child welfare practices; and including 
Federal data reporting requirements and caseworker training. In 
conclusion, challenges in data reliability remain. Without 
better-documented, clearer guidance, and the completion of more 
comprehensive reviews of States' foster care and adoption 
reporting capabilities, States are limited in overcoming the 
challenges that affect data reliability. Since these challenges 
remain, the Department of Health and Human Services may be 
using some questionable data as the foundation for national 
reports, and may not have a clear picture of how States meet 
the needs of children in their care. We recommended in our July 
2003 report that the Secretary of the Department of Health and 
Human Services consider ways to enhance the guidance and 
assistance offered to States. Mr. Chairman, this concludes my 
statement. I would be pleased to answer any questions.
    [The prepared statement of Ms. Ashby follows:]
  Statement of Cornelia M. Ashby, Director, Education, Workforce, and 
         Income Security Issues, U.S. General Accounting Office
    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting me here today to discuss states' development 
of automated child welfare information systems. As you are aware, the 
Congress required that the Department of Health and Human Services 
(HHS) compile information on the children served by state agencies and 
authorized federal funds to match those of states for use in the 
development of state child welfare information systems. Since 1994, 
designated federal matching funds have been available to states to 
develop and implement comprehensive case management systems--statewide 
automated child welfare information systems (SACWIS)--to manage their 
child welfare cases as well as to report child abuse and neglect, 
foster care, and adoption information to the Federal Government. States 
have the option to implement a SACWIS or develop different information 
systems without using SACWIS funds to support their child welfare 
agencies and collect information on their child welfare cases. 
Regardless of the type of system a state develops, child welfare 
caseworkers at the county or local level are the key personnel who 
collect and document information on children and families served by 
child welfare agencies, in addition to performing a wide range of 
services to protect children--such as investigating child abuse or 
neglect reports or providing support services to maintain the children 
in their homes.
    Currently, HHS compiles state-reported child welfare data in two 
databases: the Adoption and Foster Care Analysis and Reporting System 
(AFCARS) and the National Child Abuse and Neglect Data System (NCANDS). 
HHS relies on the information available in its databases to analyze and 
track children's experiences in the child welfare system, to determine 
states' performance on federal child welfare outcome measures, and to 
report to Congress on children's well being and child welfare 
experiences.
    My testimony today will focus on three key issues: (1) states' 
experiences in developing child welfare information systems and HHS's 
role in assisting in their development; (2) factors that affect the 
reliability of data that states collect and report on children served 
by their child welfare agencies, and HHS's role in ensuring the 
reliability of those data; and (3) practices that child welfare 
agencies use to overcome challenges associated with SACWIS development 
and data reliability. My comments are based on the findings from our 
July 2003 report, Child Welfare: Most States Are Developing Statewide 
Information Systems, but the Reliability of Child Welfare Data Could Be 
Improved (GAO-03-809, July 31, 2003). Those findings were based on our 
survey of all 50 states and the District of Columbia regarding their 
experiences in developing and using information systems and their 
ability to report data to HHS. We received responses from 49 states and 
the District of Columbia,<SUP>[1]</SUP> although some states did not 
respond to every question. We also reviewed a variety of HHS documents, 
including the protocol and reports for its reviews of SACWIS systems 
and states' AFCARS reporting capabilities and visited five states--
Colorado, Iowa, New York, North Carolina, and Oklahoma--to obtain 
firsthand information on their experiences developing SACWIS and 
reporting data to HHS. We selected these states to represent geographic 
diversity and different stages of SACWIS implementation. Finally, we 
interviewed HHS officials and child welfare and data experts and 
reviewed relevant literature.
---------------------------------------------------------------------------
    \[1]\ Throughout this testimony, references to state survey 
responses include the District of Columbia. Forty-six of these states 
reported that they are developing or operating a SACWIS. Nevada, which 
HHS reported has an operational SACWIS, did not respond to our survey.
---------------------------------------------------------------------------
    In summary, HHS reported that 47 states were developing or 
operating a SACWIS, but many states continue to face challenges 
developing their systems. Most state officials said they recognize the 
benefit their state will achieve by developing SACWIS, but added that 
they have encountered difficulties in receiving state funding and in 
creating a system that reflected their work processes. Despite the 
availability of federal funds since 1994, states reported a median 
delay of 2\1/2\ years beyond the time frames they set for completion. 
Several factors affect the states' ability to collect and report 
reliable adoption, foster care, and child abuse and neglect data. For 
example, insufficient caseworker training and inaccurate and incomplete 
data entry affect the quality of data reported to HHS. States also 
reported technical challenges reporting data. Despite HHS's assistance, 
many states reported ongoing challenges, such as the lack of clear and 
documented guidance from HHS on how to report child welfare data. In 
addition, although states were mandated to begin reporting data to 
AFCARS in 1995, few reviews of states' AFCARS reporting capabilities 
have been conducted. Some states are using a variety of practices to 
address the challenges they face in developing SACWIS and improving 
data reliability. For example, 28 states reported using approaches to 
help caseworkers identify and better understand the data elements that 
are required for federal reporting. To improve the reliability of 
state-reported child welfare data, we recommended in our July 2003 
report that the Secretary of HHS consider ways to enhance the guidance 
and assistance offered to states to help them overcome the key 
challenges in collecting and reporting child welfare data.
Background
    ACF's Children's Bureau is responsible for the administration and 
oversight of federal funding to states for child welfare services under 
Titles IV-B and IV-E of the Social Security Act. However, the 
monitoring of children served by state child welfare agencies is the 
responsibility of the state agencies that provide the services to these 
children and their families. Child welfare caseworkers at the county or 
local level are the key personnel responsible for documenting the wide 
range of services offered to children and families, such as 
investigations of abuse and neglect, treatment services offered to keep 
families intact and prevent the need for foster care, and arrangements 
made for permanent or adoptive placements when children must be removed 
from their homes. Caseworkers are supported by supervisors, who 
typically assign new cases to workers and monitor caseworkers' progress 
in achieving desired outcomes, analyzing and addressing problems and 
making decisions about cases.
    To qualify for federal funding for SACWIS, states must prepare and 
submit an advance planning document (APD) to the Children's Bureau, in 
which they describe the state's plan for managing the design, 
development, implementation, and operation of a SACWIS that meets 
federal requirements and state needs in an efficient, comprehensive, 
and cost-effective manner. In addition, the state must establish SACWIS 
and program performance goals in terms of projected costs and benefits 
in the APD. States are required to submit separate APDs for the 
planning and development phases, in addition to periodic updates.
    Since the administration and structure of state child welfare 
agencies vary across the nation, states can design their SACWIS to meet 
their state needs, as long as states meet certain federal requirements. 
Federal funding is available to states for SACWIS that

    <bullet>  meet the requirements for reporting AFCARS data to HHS;
    <bullet>  to the extent practicable, are capable of linking with 
the state data collection system that collects information on child 
abuse and neglect;
    <bullet>  to the extent practicable, are capable of linking with, 
and retrieving information from, the state data collection system that 
collects information on the eligibility of individuals under Title IV-
A--Temporary Assistance for Needy Families; and
    <bullet>  provides for more efficient, economical, and effective 
administration of the programs carried out under a state's plans 
approved under Titles IV-B and IV-E of the Social Security Act.

    A SACWIS must operate uniformly as a single system in each state 
and must encompass all entities that administer programs provided under 
Titles IV-B and IV-E. In some cases, HHS will allow the statewide 
system to link to another state system to perform required functions, 
such as linking to financial systems to issue and reconcile payments to 
child welfare service providers. The state's APD must describe how its 
SACWIS will link to other systems to meet the requirements in the 
SACWIS regulations.
    In addition to monitoring the APDs of the states that are 
developing SACWIS, HHS reviews state information systems through formal 
SACWIS assessment reviews and the Child and Family Services Reviews 
(CFSR)--a federal review process to monitor states' compliance with 
child welfare laws and federal outcome measures. The formal SACWIS 
reviews are conducted by the Children's Bureau to determine if a state 
has developed and implemented all components detailed in the state's 
APD and if the system adheres to federal requirements. The CFSR 
assesses statewide information systems, along with other systemic 
factors, to determine if the state is operating a system that can 
readily identify the status, demographic characteristics, location, and 
goals for placement of every child who is in foster care. This systemic 
factor is reviewed in all states, regardless of whether the state is 
developing a SACWIS or the stage of system development. For the 40 CFSR 
reports that are available, HHS found that four states were not in 
substantial conformity on the statewide information system 
indicator.<INF>[2]</INF> These four states must address how they will 
come into conformity with this factor in a program improvement plan. 
HHS has also conducted SACWIS reviews in two of these states.
---------------------------------------------------------------------------
    \[2]\ We are currently conducting an engagement on states' and 
HHS's experiences in conducting the CFSRs.
---------------------------------------------------------------------------
Most States Are Developing SACWIS, But Challenges Remain Despite HHS's 
        Oversight and Technical Assistance
    While 47 states are developing or operating a SACWIS, many 
challenges remain despite HHS's oversight and technical assistance. 
Since 1994, states reported that they have spent approximately $2.4 
billion in federal, state, and local funding on SACWIS. While most 
state officials we interviewed and those responding to our survey said 
that they recognize the benefits their state will achieve by developing 
a statewide system, many states reported that the development of their 
SACWIS is delayed between 2 months and 8 years beyond the time frames 
the states set for completion, with a median delay of 2\1/2\ years. 
Most states responding to our survey faced challenges, such as 
obtaining state funding and developing a system that met the child 
welfare agency's needs statewide. In response to some of these 
challenges, HHS has provided technical assistance to help states 
develop their systems and conducted on-site SACWIS reviews to verify 
that the systems meet all federal requirements.
States Are Using Federal and State Funds and Various Participants to 
        Develop Multicomponent SACWIS
    Currently, 47 states are developing or operating a SACWIS and are 
in various stages of development--ranging from planning to complete. 
The states responding to our survey reported using approximately $1.3 
billion in federal funds <SUP>[3]</SUP> and approximately $1.1 billion 
in state and local funds <SUP>[4]</SUP> for their SACWIS. However, HHS 
estimated that it allocated approximately $821 million between fiscal 
years 1994 and 2001 in SACWIS developmental funds <SUP>[5]</SUP> and 
$173 million between fiscal years 1999 and 2001 in SACWIS operational 
funds.<SUP>[6]</SUP> The total amount of federal funding provided to 
states for SACWIS is unknown because states claimed operational costs 
as a part of their Title IV-E administrative expenses prior to 
1999.<SUP>[7]</SUP> Although the Federal Government matched state 
funding at an enhanced rate of 75 percent beginning in 1994, many 
states did not apply for federal funding or begin SACWIS development 
until 1996 or 1997, when more than $467 million--the bulk of federal 
funds--were allocated. Most states were still developing their SACWIS 
by the time enhanced funding expired in 1997, after which states could 
receive a 50 percent federal financial participation for SACWIS 
development and operation. Although 47 states are currently developing 
or operating a SACWIS, all states except Hawaii received some federal 
SACWIS funds. For example, according to figures provided by HHS, North 
Carolina and North Dakota received some developmental funds but 
encountered difficulties that prevented them from completing their 
systems.
---------------------------------------------------------------------------
    \[3]\ Forty-four states provided information on the total amount of 
federal funds they received to develop and operate SACWIS. Alaska, 
Hawaii, Missouri, North Carolina, Texas, and Vermont did not report 
federal funding information. Nevada did not respond to our survey. 
State-reported figures may include some funding allocated in fiscal 
year 2003, since the survey was issued in October 2002 and completed as 
late as December 2002.
    \[4]\ Forty-four states provided information on the total amount of 
state funds used to develop and operate SACWIS. Arkansas, Hawaii, 
Missouri, North Carolina, Texas, and Vermont did not report state 
funding information. Nevada did not respond to our survey. State-
reported figures may include some funding allocated in fiscal year 2003 
since the survey was issued in October 2002 and completed as late as 
December 2002.
    \[5]\ This figure includes developmental funds allocated by HHS to 
49 states and the District of Columbia. Hawaii did not take any federal 
money for SACWIS development.
    \[6]\ This figure includes operational funds allocated to 35 
states. States begin claiming operational costs when some or all 
components of their SACWIS are operating in local offices. Operational 
activities include routine maintenance, minor enhancements, and other 
changes that do not significantly increase or modify the functionality 
of the system.
    \[7]\ According to HHS officials, prior to fiscal year 2000, states 
reported SACWIS operational expenses as part of their Title IV-E 
administrative expenses because the claims sheet states used for 
reporting did not have a separate column for SACWIS operational 
expenditures. In fiscal year 2000, states were required to use a claims 
sheet that was reformatted to provide space for SACWIS operational 
expenditures. In addition, an HHS official explained that the 
difference between the state-reported figures and the federal figures 
may be due to states claiming some SACWIS expenses under different 
programs, such as Title IV-E administrative funds, rather than 
separately as SACWIS expenses.
---------------------------------------------------------------------------
    In order to track states' SACWIS development, HHS places them in 
six categories that identify their stage of development (see table 1). 
HHS sometimes recategorizes states into a lower stage of development 
when problems are encountered. In addition, while HHS may classify a 
state system as complete following an assessment of the state's SACWIS, 
a state may make additional changes to the system since SACWIS, like 
other computer systems, continually evolve as technology and child 
welfare practices change. States can claim federal funding for these 
changes as operational expenses. An HHS official reported that such 
changes do not need prior approval unless they are in excess of $5 
million.

    Table 1: Number of States in Various Stages of SACWIS Development
------------------------------------------------------------------------
                  Stage                           Number of states
------------------------------------------------------------------------
Complete a                                                            5
------------------------------------------------------------------------
Operational b                                                        24
------------------------------------------------------------------------
Partially operational c                                               9
------------------------------------------------------------------------
Implementation d                                                      2
------------------------------------------------------------------------
Planning e                                                            7
------------------------------------------------------------------------
No SACWIS f                                                           4
------------------------------------------------------------------------
Source: HHS.
Note: Status is as of October 13, 2003.
a The SACWIS assessment process is completed, and all functional
  requirements and specifications set forth in the APD are either
  included in the system or in an accepted corrective action plan.
b All functional requirements and specifications in the APD are included
  in the system, and the system is functional statewide, but state has
  not completed a SACWIS assessment or is working on other issues.
c The state is still rolling out a system to field sites or still adding
  functions to systems that are operational statewide.
d In active design and development, even if delayed while waiting to
  resolve problems such as funding.
e Working through options for a SACWIS.
f Have never pursued SACWIS funding or have abandoned plans to develop a
  system.

      
    States have considerable flexibility in the design of their SACWIS. 
According to HHS officials, a state should be using its SACWIS as a 
case management tool that uses automation to support the various 
aspects of state child welfare programs, such as recording child 
protection, out-of-home care, and foster care and adoption services. To 
further assist child welfare practice, states have designed their 
systems to follow the natural flow of child welfare practice in their 
state and have added design features to help track key events during a 
case. For example, in Iowa child welfare work is divided between child 
abuse and neglect investigations and ongoing case management for 
children brought into the care of the child welfare agency. As a 
result, Iowa designed a SACWIS to reflect this work process by linking 
two databases--one to record child abuse and neglect information and 
one to record ongoing case records--that share information with each 
other.<SUP>[8]</SUP>
---------------------------------------------------------------------------
    \[8]\ Although the Iowa state officials described their SACWIS as 
including the child abuse and neglect system, HHS commented on a draft 
of the July 2003 report that it does not view the child abuse and 
neglect system as part of the state's SACWIS. However, HHS said that 
the state has met the SACWIS requirement in this area by building an 
interface between the two systems.
---------------------------------------------------------------------------
    Since many states are in different phases of SACWIS development, 
their systems currently support to varying degrees a variety of child 
welfare and administrative components (see table 2). According to HHS, 
while the components listed in table 2 are required for a state's 
SACWIS to be considered compliant with federal guidance--either through 
an interface or built within the system--some of the subcomponents, 
such as a function that helps caseworkers manage their caseloads, are 
optional. HHS has encouraged states to automate as many functions as 
possible in the SACWIS in an effort to cut down on the additional 
paperwork or duplicative steps inherent in manual data collection.

                       Table 2: Selected SACWIS Child Welfare and Administrative Services
----------------------------------------------------------------------------------------------------------------
                                                          Fully or partially
                      Service                           operational in SACWIS            Planned for SACWIS
----------------------------------------------------------------------------------------------------------------
Child welfare services
----------------------------------------------------------------------------------------------------------------
Child protection a                                                            38                              5
----------------------------------------------------------------------------------------------------------------
Out-of-home care b                                                            35                              8
----------------------------------------------------------------------------------------------------------------
Adoption                                                                      34                              9
----------------------------------------------------------------------------------------------------------------
Independent living                                                            27                             14
----------------------------------------------------------------------------------------------------------------
Intensive home-based services c                                               27                             13
----------------------------------------------------------------------------------------------------------------
Administrative services
----------------------------------------------------------------------------------------------------------------
Workload management                                                           32                              8
----------------------------------------------------------------------------------------------------------------
IV-E eligibility d                                                            29                             14
----------------------------------------------------------------------------------------------------------------
Foster care maintenance payments                                              28                             14
----------------------------------------------------------------------------------------------------------------
Adoption assistance payments                                                  25                             17
----------------------------------------------------------------------------------------------------------------
Contract provider payment                                                     24                             15
----------------------------------------------------------------------------------------------------------------
Source: GAO survey.
Note: This table is based on responses from 46 states developing or operating a SACWIS. The rows for the columns
  ``fully or partially operational'' and ``planned'' do not add to 46 because the respondents may have answered
  ``not supported,'' ``don't know,'' or ``no answer.''
a Child protection includes services such as intake and screening, investigation, and disposition.
b Out-of-home care includes things such as foster care, group homes, and residential placement.
c Intensive home-based services include efforts to avoid placing a child in foster care.
d IV-E funding is available for foster care, adoption, and independent living services.

      
    To assist with the design of their SACWIS, states relied on a 
number of different participants, including internal users, such as 
caseworkers and managers, information technology (IT) staff, and 
contractors. In Oklahoma, for example, 150 child welfare staff from the 
field worked closely with the contractor in intensive work group 
sessions to design and test the system. To complement the caseworkers' 
knowledge of child welfare practice, 43 states relied on IT staff. 
Finally, 42 states reported that they hired private contractors to 
conduct a large part of SACWIS design and development.
    At the time of our review, HHS reported that four states were not 
pursuing SACWIS development, and most of these states reported various 
reasons in our survey for not developing a system. In Hawaii, for 
example, the child welfare agency chose not to pursue SACWIS because it 
already had a statewide system in place that it believed was adequately 
meeting its needs and which was collecting and reporting federal child 
welfare data.
States Accrue Benefits from Using SACWIS, but Several Issues Create 
        Delays in Completing States' Systems
    While most state child welfare agency officials said they recognize 
the benefits the state will achieve by developing SACWIS, such as 
enhancing their ability to track the whereabouts of foster children, 31 
state agencies lag behind the time frames they set for completion, with 
26 states reporting delays ranging from 2 months to 8 years. According 
to survey results, automated systems provided easier access to data and 
allowed caseworkers to better monitor children in their care, a fact 
that may contribute to additional child welfare and administrative 
benefits, such as decreased incidences of child abuse and neglect, 
shortened length of time to achieve adoption, timeliness of payments to 
foster families, and timeliness of payments to foster facilities. New 
Jersey, which is in the planning stage, reported in our survey that its 
goal in developing a SACWIS is to integrate the more than 40 stand-
alone systems that currently capture information on the children served 
by their child welfare agency.<SUP>[9]</SUP> By pulling all of these 
systems together into a uniform SACWIS, the state hopes to improve the 
recording of casework activities in a timely manner and to develop a 
tool to better target resources and services. Effectively integrating 
these systems will require the state to use a disciplined IT management 
approach that includes (1) detailed analyses of users' needs and 
requirements, (2) a clearly defined strategy for addressing information 
needs, and (3) sufficient technical expertise and resources to support 
the effort.
---------------------------------------------------------------------------
    \[9]\ New Jersey reported in our survey that it had spent 
approximately $9 million in federal funds and $4 million in state and 
local funds on system development. According to HHS, New Jersey first 
received federal funds in 1996.
---------------------------------------------------------------------------
    Despite the benefits that many states have accrued with SACWIS, 31 
states reported in our survey that they have been delayed in system 
completion beyond their initial deadline and identified a number of 
challenges that have led to the delay (see table 3).<SUP>[10]</SUP> 
Some of the common difficulties states reported in developing SACWIS 
included receiving state funding approval, reaching internal agreement 
on system development, and creating a system that reflects child 
welfare work processes and is user-friendly. Vermont officials, for 
example, reported that the state legislature declined to provide the 
matching state funds needed to secure federal funding for SACWIS. As a 
result, the state could not pursue development.
---------------------------------------------------------------------------
    \[10]\ Twelve of the 46 states reporting that they are developing 
or operating a SACWIS reported that they have not experienced delays in 
developing their systems. In response to the length of the delays 
reported by 26 states in our survey, ACF commented on a draft of the 
July 2003 report that these states may be using different definitions 
in defining their delays. However, ACF did not provide further 
information on how the delays represented in that report differ from 
its perception of states' experiences. In our survey, we asked states 
to report on the delays that exceeded the time line outlined in their 
initial APD.

     Table 3: Number of Months States Delayed in SACWIS Development
------------------------------------------------------------------------
                  State                     Length of delay in months a
------------------------------------------------------------------------
Alabama                                                              36
------------------------------------------------------------------------
Arkansas                                                              6
------------------------------------------------------------------------
California                                                           36
------------------------------------------------------------------------
Colorado                                                             26
------------------------------------------------------------------------
Connecticut                                                          96
------------------------------------------------------------------------
District of Columbia                                                 36
------------------------------------------------------------------------
Georgia                                                              25
------------------------------------------------------------------------
Idaho                                                                21
------------------------------------------------------------------------
Illinois                                                             79
------------------------------------------------------------------------
Indiana                                                               6
------------------------------------------------------------------------
Kansas                                                               72
------------------------------------------------------------------------
Louisiana                                                            12
------------------------------------------------------------------------
Maryland                                                             12
------------------------------------------------------------------------
Michigan                                                             26
------------------------------------------------------------------------
Minnesota                                                            12
------------------------------------------------------------------------
Mississippi                                                          12
------------------------------------------------------------------------
New Jersey                                                           42
------------------------------------------------------------------------
New Mexico                                                            3
------------------------------------------------------------------------
Ohio                                                                 36
------------------------------------------------------------------------
Oregon                                                               70
------------------------------------------------------------------------
Rhode Island                                                         14
------------------------------------------------------------------------
South Carolina                                                       47
------------------------------------------------------------------------
Tennessee                                                            36
------------------------------------------------------------------------
Utah                                                                 48
------------------------------------------------------------------------
Virginia                                                              2
------------------------------------------------------------------------
Washington                                                           36
------------------------------------------------------------------------
Source: GAO survey.
Note: While 31 states reported in the survey that theyhave experienced a
  delay in SACWIS development, only 26 states reported thelength of
  their delay. The survey was issued in October 2002 and completed
  bystates as late as December 2002.
a States were asked to report the number ofmonths the delays exceeded
  the time line outlined in their APD.

      
    Despite user involvement in system design, some states still faced 
challenges trying to reach internal agreement among agency officials 
and caseworkers on the design of a system, resulting in a delay in 
development. In New York--a state where the counties are responsible 
for administering child welfare services--the development of SACWIS was 
stalled when significant frustration with the system's design led 
commissioners from five large counties and New York City to request 
that the state stop SACWIS development until a reassessment of the 
design of and plans for the implementation of the system was completed.
    Similarly, despite states' heavy reliance on contractors, many 
reported that securing contractors with knowledge of child welfare 
practice was a challenge for timely SACWIS development. Contractors are 
hired by the state for their system development knowledge but often are 
unfamiliar with child welfare policies and practices, especially since 
they vary from state to state. A contractor who has worked with seven 
states to develop their SACWIS reported that contractors are asked to 
learn the child welfare business practices of a state in a short amount 
of time and that states cannot devote many resources, such as 
caseworkers, to help in the design process because caseworkers need to 
devote their time to providing services to children and families.
    Many states reported that creating a system that reflects child 
welfare work processes and is user-friendly was a challenge in 
developing SACWIS. These issues were also identified in the federal 
reviews of states' SACWIS. For example, one state explained in the 
SACWIS review that it had designed a system to meet the caseworkers' 
needs and reflect the nature of the child welfare work processes by 
developing a system that required events to be documented as they 
occurred. However, this design limited the SACWIS's functionality 
because it did not allow the caseworkers to go back and enter 
information after an event happened. The state explained that 
caseworkers do not use the system in real time, but provide services to 
the children and families and then record the information in the 
system. The state had to redesign the system to correct for this design 
flaw.
HHS Provides Some Assistance to Help States Meet SACWIS Requirements
    HHS has assisted states in a variety of ways in developing and 
completing their SACWIS.<SUP>[11]</SUP> As a part of its regulatory 
responsibilities, HHS must review, assess, and inspect the planning, 
design, development, installation, and operation of SACWIS. In addition 
to reviewing and monitoring states' APDs, HHS conducts on-site SACWIS 
reviews to comply with these responsibilities. HHS officials told us 
that these reviews are a detailed and thorough assessment of state 
systems to ensure the systems' compliance with SACWIS requirements. In 
addition, officials reported that they provide technical assistance 
during the on-site review to help states that do not fully conform with 
the applicable regulations and policies. As of October 2003, HHS had 
reviewed 27 SACWIS--5 of which were determined as meeting all the 
requirements and classified as complete. HHS officials told us that 
since states have the flexibility to build a SACWIS that meets their 
needs, a large portion of the formal reviews concentrate on ensuring 
that the systems conform to state business practices. For example, 
while SACWIS regulations require that a state report all AFCARS data 
from their SACWIS, one state HHS reviewed relied on a separate state 
system to report data on the children served by the juvenile justice 
agency who are eligible for IV-E foster care funds. The state proved it 
had developed an automated process to merge data from both systems to 
compile a single AFCARS report that included children captured in both 
their SACWIS and juvenile justice systems. Therefore, HHS recognized 
that this process best met the state's needs and determined the SACWIS 
to be complete and meeting all requirements.
---------------------------------------------------------------------------
    \[11]\ With regard to the budget difficulties that states reported 
facing, since 1994 the Federal Government has made a commitment to help 
states develop and maintain their SACWIS by matching 75 percent of 
states' development funds through 1997 and providing an ongoing match 
of 50 percent of state funding for the development and maintenance of 
their systems. However, since the states' legislatures must make the 
initial commitment to fund SACWIS, the Federal Government cannot assist 
state child welfare agencies with this challenge.
---------------------------------------------------------------------------
    Few systems have been determined complete after an on-site review 
because of unresolved issues, such as not being able to build links to 
other state information systems or not implementing certain eligibility 
determination functions. To help states address some of these 
development challenges, the SACWIS review team provides the state with 
recommendations for complying with SACWIS requirements. In addition, 
HHS officials reported that once the draft report with the results of 
the SACWIS review is completed, federal staff schedule a conference 
call with the state officials to walk through the system's deficiencies 
and offer guidance on how the state can move forward.
    HHS facilitates the sharing of information between states 
developing SACWIS through an automated system users' group that allows 
state and federal officials to exchange information, ideas, and 
concerns. In addition to the users' group, HHS officials also sponsor a 
Listserv--an electronic mailing list--that allows state officials to 
exchange information and a monthly conference call with state 
information technology directors.<SUP>[12]</SUP> Technical assistance 
for SACWIS development is also available to states through the National 
Resource Center for Information Technology in Child Welfare (Resource 
Center), which opened in 1999. According to survey results, 9 states 
said they used the Resource Center for assistance in developing SACWIS 
and 14 states reported using it for help with SACWIS maintenance and 
improvements. According to Resource Center officials, they assist 
states with SACWIS development by helping states understand the 
technology that is available for use, providing information on the 
automation of child welfare work and converting data, and reviewing the 
APD documentation.
---------------------------------------------------------------------------
    \[12]\ In commenting on a draft of the July 2003 report, HHS 
indicated that a Web resource is available to states interested in 
learning about other states' efforts to develop human services--child 
welfare, food stamps, Temporary Assistance to Needy Families, child 
care, and child support enforcement--information systems at http://
www.acf.hhs.gov/nhsitrc.
---------------------------------------------------------------------------
Several Factors Affect the States' Ability to Ensure Reliable Data on 
        Children's Experiences, and Some of HHS's Oversight and 
        Assistance Is Problematic
    Several factors affect states' ability to collect and report 
reliable <SUP>[13]</SUP> data on children served by state child welfare 
agencies, and some problems exist, such as a lack of clear and 
documented guidance, with HHS's oversight and technical assistance. 
Almost all of the states responding to our survey reported that 
insufficient caseworker training and inaccurate and incomplete data 
entry affect the quality of the data reported to HHS.<SUP>[14]</SUP> In 
addition, 36 of the 50 <SUP>[15]</SUP> states that responded to our 
survey reported that technical challenges, such as matching their state 
data element definitions to HHS's data categories, affected the quality 
of the data that they report to the Federal Government. Despite the 
assistance that HHS offers to states, such as testing state data 
quality and providing the results to states to aid them in resubmitting 
data, states report ongoing challenges receiving clear and documented 
guidance and obtaining technical assistance.
---------------------------------------------------------------------------
    \[13]\ Data are reliable when they are complete and accurate. A 
subcategory of accuracy is consistency. Consistency refers to the need 
to obtain and use data that are clear and well defined enough to yield 
similar results in similar analysis. See U.S. General Accounting 
Office, Assessing the Reliability of Computer-Processed Data, GAO-02-
15G (Washington, D.C.: Sept. 2002).
    \[14]\ States were asked the extent to which certain problems may 
decrease the quality of the data submitted to AFCARS and NCANDS using 
the following scale: very great, great, moderate, some, and no affect.
    \[15]\ The analysis of survey responses about reporting data to HHS 
is based on responses from 49 states and the District of Columbia. All 
states, regardless of SACWIS development, were asked to complete these 
questions.
---------------------------------------------------------------------------
Insufficient Caseworker Training and Inaccurate and Incomplete Data 
        Entry Are the Most Common Factors That Affect Data Reliability
    Almost every state responding to our survey and all the states we 
visited reported that insufficient training for caseworkers and 
inaccurate and incomplete data entry affect the quality of the data 
reported to AFCARS and NCANDS (see fig. 1). Although most states 
reported these as separate factors, HHS and the states we visited found 
that insufficient training and inaccurate and incomplete data entry are 
often linked. In official reviews of states' information systems' 
capability to capture data and report them to AFCARS, HHS advised 
states to offer additional training to caseworkers on several AFCARS 
data elements, such as recording the reasons for a child leaving foster 
care, to improve the accuracy of the data submitted. However, state 
officials told us that training is typically one of the first programs 
cut when states face tight budget restrictions. For example, Iowa 
officials told us that training has been significantly reduced in 
recent years because of budget cuts and new workers may wait 2 to 3 
months before being trained how to enter data appropriately into their 
SACWIS.
    Figure 1: Most Common Caseworker Issues That Affect Data Quality
[GRAPHIC] [TIFF OMITTED] 92985A.002

      
        Notes: Based on responses from 50 states.

        The results reported in the figure are a sum of the states that 
        reported the issue had a very great affect, great affect, 
        moderate affect, or some affect on the quality of state data 
        submitted to HHS. Very great and great affect responses are 
        represented in the top section of each bar. Moderate and some 
        affect responses are represented in the bottom section of each 
        bar. States not included answered ``no affect,'' ``don't 
        know,'' or ``no answer.''
      
    Inaccurate and incomplete data entry can also result from a number 
of other factors, such as caseworkers' hesitation to ask families for 
sensitive information. For example, caseworkers in Oklahoma reported 
that they did not feel comfortable asking if a child's mother was 
married at the time of birth or if a child is of Hispanic origin--both 
of which are required AFCARS data elements. In commenting on a draft of 
this report, Oklahoma added that caseworkers did not understand why the 
data elements were required and how the Federal Government used the 
information. HHS noted similar issues in five states that have had an 
AFCARS review.<SUP>[16]</SUP> Caseworkers were inaccurately recording a 
child's race as ``unable to determine'' even though this option should 
be selected only if the child's parents or relatives cannot provide the 
information, such as when a child is abandoned.<SUP>[17]</SUP>
---------------------------------------------------------------------------
    \[16]\ For the July 2003 report, we reviewed AFCARS reports from 
six of the eight states that had been assessed by HHS--Arkansas, 
Connecticut, New Mexico, Texas, Vermont, and Wyoming. HHS conducted 
reviews in Delaware and West Virginia after we completed our analysis. 
As of October 2003, HHS had completed three additional reviews for 
North Dakota, Rhode Island, and Washington.
    \[17]\ In commenting on a draft of the July 2003 report, ACF said 
that the finding from the AFCARS reviews indicates that information is 
often defaulted to the response ``unable to determine'' in order for 
the element not to fail the missing data standard, not that workers are 
recording ``unknown''; however, the report findings we used in this 
analysis instruct states to fix the defaults and address caseworker 
practice by enhancing training on the correct use of ``unable to 
determine'' when noting a child's race.
---------------------------------------------------------------------------
    Caseworkers, supervisors, and managers in the 5 states we visited 
reported that additional factors, such as difficulties balancing data 
entry with the time that they spend with the families and children, 
contributed to inaccurate or incomplete data entry. Supervisors in Iowa 
explained that since caseworkers are responsible for ensuring that 
children and their families receive the services they need, the 
caseworkers tend to initially limit data entry to the information that 
is necessary to ensure timely payment to foster care providers and 
complete all other data elements when they have time. In addition, 
caseworkers in Colorado said that they are between 30 and 60 days 
behind in their data entry, so the information in the automated system 
may not accurately reflect the current circumstances of children in 
care. HHS's Inspector General recently issued a report in which more 
than two-thirds of the states reported that caseworkers' workloads, 
turnover, a lack of training, and untimely and incomplete data entry 
affected the reporting of AFCARS data.<SUP>[18]</SUP>
---------------------------------------------------------------------------
    \[18]\ Department of Health and Human Services, Office of Inspector 
General, Adoption and Foster Care Analysis and Reporting System 
(AFCARS): Challenges and Limitations, OEI-07-01-00660 (Washington, 
D.C.: Mar. 2003).
---------------------------------------------------------------------------
Technical Challenges, such as Matching State Definitions to Federal 
        Definitions, Affect Data Reliability
    In addition to data quality being affected by caseworker issues, 
many states experienced technical challenges reporting their data to 
HHS. The problems reported by states are typically a result of 
challenges associated with data ``mapping''--matching state data 
elements to the federal data elements. For example, 36 states reported 
in our survey that matching their state-defined data to HHS's 
definitions affected the quality of the data reported to NCANDS and 
AFCARS. Similarly, 24 states reported that matching the more detailed 
data options available in their states' information systems to the 
federal data elements affected the quality of the data reported to 
NCANDS. Twenty-nine states reported that this issue created challenges 
in reporting data to AFCARS. For example, following an AFCARS 
assessment, HHS instructed a state that collects detailed information 
on children's disabilities, such as attention deficit disorder and 
eating disorders, to map the information to the more limited options in 
AFCARS, such as mental retardation and emotionally disturbed.
    In many cases, states have to balance state policy with federal 
requirements to ensure that they are reporting accurate data to AFCARS 
and NCANDS, but are not contradicting their state policies. For 
example, Texas officials reported that although the findings of their 
AFCARS review instructed them to modify their SACWIS to collect, map, 
and extract data on guardianship placements, the state does not support 
guardianship arrangements.<SUP>[19]</SUP> In addition, a recent report 
from the Child Welfare League of America (CWLA) found that when 
reporting the number of times children move from one foster care 
placement to another, states varied in the type of placements included 
in that count.<SUP>[20]</SUP> For example, 29 percent of the states 
responding to CWLA's survey included respite,<SUP>[21]</SUP> 25 percent 
included runaways, and 16 percent included trial home visits when 
reporting the number of placements a child had during the AFCARS report 
period. According to federal guidance, the ``number of placements'' 
element is meant to gather information on the number of times the child 
welfare agency found it necessary to move a child while in foster care 
and that by including runaways or trial home visits, a state is 
inflating the number of moves a child experienced.
---------------------------------------------------------------------------
    \[19]\ Guardianship arrangements occur when permanent legal custody 
of a child is awarded to an individual, such as a relative, but the 
child is not legally adopted.
    \[20]\ Child Welfare League of America. National Working Group 
Highlights, ``Placement Stability Measure and Diverse Out-of-Home Care 
Populations'' (Washington, D.C., Apr. 2002).
    \[21]\ Respite care provides temporary child care for children away 
from their caretakers.
---------------------------------------------------------------------------
Although HHS Has Taken Steps to Help States Improve Their Data, Some 
        Problems with Its Efforts Exist
    HHS provides technical assistance for AFCARS and NCANDS reporting 
through a number of resources. HHS officials in the central office and 
NCANDS contractor staff serve as the points of contact for states to 
ask questions and seek guidance on reporting child welfare data. The 
officials in three of the five states that we visited said that the 
one-on-one focused technical assistance was useful when provided in a 
timely fashion. Most state officials found the NCANDS data easier to 
report, in part because more people were available for consultation and 
they were more accessible and responsive. For example, states have 
access to four NCANDS specialists and staff in the contractor's central 
office when they need assistance reporting child abuse and neglect 
information. However, some of the states we visited reported that only 
one or two staff in HHS's central office are available to assist with 
AFCARS reporting.
    In addition, the Resource Center offers states assistance with 
improving data quality. However, Resource Center staff reported that 
the assistance is geared more toward improving the limited data used in 
the federal review process to monitor states' compliance with child 
welfare laws and federal outcome measures--CFSR--rather than all the 
data reported to HHS. The Resource Center also sponsors an annual 
information technology conference during which sessions covering all 
data-related issues are held, including practices for ensuring data 
quality and outcome evaluation in child welfare. In conjunction with 
this conference, the HHS officials and the contractors that operate 
NCANDS hold an annual technical assistance meeting for states to share 
ideas with one another, discuss data elements that pose difficulties, 
and explore ways to address these problems. In addition, an NCANDS 
state advisory group meets annually to talk with HHS officials about 
NCANDS data and their experiences reporting data. From these meetings, 
the state advisory group proposes changes or improvements to NCANDS. 
HHS and state officials reported that this partnership has helped ease 
some of the challenges in reporting child abuse and neglect data.
    HHS has also made available to states the software it uses to 
examine states' AFCARS and NCANDS submissions for inconsistencies and 
invalid data. Officials in all the states we visited said that they 
regularly use this software, and an HHS official said that nearly every 
state has used the software at least once. When the data are submitted 
to HHS, they are run through the same software, and HHS notifies the 
states of areas where data are missing or inconsistent and allows the 
states to resubmit the data after errors are corrected. HHS officials 
reported that these tests help them to identify some data quality 
errors, such as missing data, and said that they believe that, in 
general, data have improved in recent years. However, they indicated 
that the tests cannot pinpoint the underlying problems contributing to 
these errors. Furthermore, one official reported that no specific 
efforts have been conducted to track the individual data elements, and 
therefore HHS cannot report on how data quality has changed over time.
    In an attempt to help states comply with the reporting standards 
and address some of the factors that contribute to data quality 
problems, HHS performs comprehensive reviews of state information 
systems' ability to capture AFCARS data to identify problems associated 
with data collection and reporting and to ensure that the information 
in the automated system correctly reflects children's experiences in 
care. The assessments include a technical review of the states' 
computer code, a comparison of the data from selected cases available 
in the information system to the case files, and an improvement plan to 
resolve any errors. In addition, HHS officials offer guidance to the 
states on improvements that can be made to the information system and 
changes to program code used to report the AFCARS data. HHS conducted 
pilot reviews in eight states between 1996 and 2000. By October 2003, 
HHS had conducted 11 official reviews--even though states began 
reporting to AFCARS in 1995. According to results from 6 of the 11 
official AFCARS assessments we reviewed, no state met the reporting 
requirements for all AFCARS data elements. The problems noted in the 
reviews are similar to those of states responding to our survey and 
those we visited. For example, most states received ratings of 2 or 3, 
indicating technical and/or data entry errors that affect the AFCARS 
data quality.<SUP>[22]</SUP> For the current placement setting data 
element,<SUP>[23]</SUP> for instance, 4 states received a rating of 2, 
1 state received a rating of 3, and 1 state received a rating of 4. In 
Connecticut, which received a rating of 2, HHS found that, among other 
things, workers were not consistently entering placement information in 
a timely way. It also found that workers entered placement data only 
into a narrative field, which resulted in placement history gaps and 
incomplete AFCARS reports.
---------------------------------------------------------------------------
    \[22]\ HHS rates each data element using a four-point scale: (1) 
the AFCARS requirement(s) has not been implemented in the information 
system; (2) the technical system requirements for AFCARS reporting do 
not fully meet the standards; (3) the technical system requirements for 
AFCARS reporting are in place, but there are data entry problems 
affecting the quality of the data; (4) all of the AFCARS requirements 
have been met. According to an HHS official, data elements that have a 
combination of technical and data entry problems are rated as 2 until 
the technical issues are resolved. HHS will then rate the element as a 
3 until the data entry practices are changed.
    \[23]\ Current placement setting refers to a pre-adoptive home, 
foster family home-relative, foster family home-nonrelative, group 
home, institution, supervised independent living, runaway, or trial 
home visit.
---------------------------------------------------------------------------
    State officials in the six states for which we reviewed the HHS 
AFCARS assessments reported that they found the reviews useful for 
improving their AFCARS data submissions. In particular, they valued the 
thorough review by HHS officials of the computer code states use to 
report the data. Some of these officials reported that if all states 
were reviewed, the quality of data available in AFCARS would improve 
tremendously. However, HHS officials reported that they are not 
mandated to conduct the AFCARS reviews and that priority is placed on 
other reviews, such as the CFSR and SACWIS reviews. In addition, 
officials explained that the AFCARS reviews are not conducted in states 
developing SACWIS until the systems are operational. HHS expects to 
complete approximately four reviews each year, depending on available 
resources, and has scheduled states through 2006. Similar to the SACWIS 
reviews, HHS officials offer recommendations and technical assistance 
to states during the review on how they can improve the quality of the 
data reported to AFCARS.
    Although the states we visited appreciated some of HHS's efforts to 
assist with improving state data quality, they and most states 
responding to our survey agreed that the assistance is not always 
consistent or easily accessible (see fig. 2). States reported similar 
information to the Inspector General--AFCARS data elements were not 
clearly and consistently defined and technical assistance is effective 
but difficult to access.
          Figure 2: Federal Practices That Affect Data Quality
[GRAPHIC] [TIFF OMITTED] 92985B.002

      
        Notes: Based on responses from 50 states.

        The results reported in the figure are a sum of the states that 
        reported the issue had a very great affect, great affect, 
        moderate affect, or some affect on the quality of state data 
        submitted to HHS. Very great and great affect responses are 
        represented in the top section of each bar. Moderate and some 
        affect responses are represented in the bottom section of each 
        bar. States not included answered ``no affect,'' ``don't 
        know,'' or ``no answer.''
      
    The primary concerns reported by the states we visited were delays 
in receiving clear written guidance on defining and reporting certain 
data elements and the lack of state input in suggesting changes to 
AFCARS. Despite the written guidance available to states in the form of 
regulations and an online policy manual, states reported that the 
variation in state policies and practices makes it difficult to 
interpret how to apply the general guidance. As a result, states 
consult with HHS to ensure they are applying the regulations 
appropriately. However, in commenting on a draft of this report, 
officials in Oklahoma told us that a common concern among the states is 
the lack of timely response from HHS when seeking guidance on how to 
report data. In addition, officials in New York explained they have 
made it a practice to check the HHS Web site on a regular basis for 
current guidance but have not found it a useful tool, and may turn to 
other states for guidance on AFCARS reporting. In commenting on a draft 
of this report, HHS explained that it first refers states to its Web 
site for information and believes that the available guidance addresses 
states' concerns in most instances. In addition, the states that have 
had an AFCARS review experienced delays in obtaining guidance on how to 
proceed following the on-site review. For example, Texas officials 
reported that the state sought clarification on its improvement plan 
and submitted additional questions to HHS following the review. 
However, when we spoke with the state officials, they said that they 
had been waiting 3 months for a response on how to proceed. An HHS 
official told us that since the review process is relatively new, the 
agency is still developing a process to respond to the states and 
recognizes that it has not been responsive to the states already 
reviewed. In addition, HHS is taking steps to gather feedback from 
states and other users of AFCARS data to determine how to improve the 
system to make the data more accurate and usable. As a part of these 
efforts, HHS has published a Federal Register notice soliciting 
comments and held focus group meetings at national conferences. The 
difficulties states face in receiving federal guidance and assistance, 
as well as the other challenges they face in reporting data, may 
negatively affect the reliability of the data available in AFCARS and 
NCANDS.
States Are Using Various Practices to Overcome System Development 
        Challenges and Improve Data on Children's Experiences
    Some states are using a variety of practices to address the 
challenges associated with developing SACWIS and improving data 
reliability, although no formal evaluations of their effectiveness are 
available. To address the challenge of developing a system to meet 
statewide needs, states relied on caseworkers and supervisors from 
local offices to assist in the design and testing of the system. Few 
states reported in our survey strategies to overcome the other key 
challenges, such as limited funding and the difficulty of securing 
knowledgeable contractors, but some states we visited have devised some 
useful approaches. To improve data reliability, the five states we 
visited routinely review their data to identify data entry errors so 
that managers can ensure that the missing data are entered 
appropriately.
States Are Primarily Relying on SACWIS Users to Overcome Some of the 
        Challenges to Completing Their Systems
    To overcome development challenges, survey respondents emphasized 
the importance of including system users in the various phases of 
completing SACWIS--planning, design, development, testing, and 
implementation. Past GAO work and other research efforts have 
determined similar approaches as best practices in building information 
systems.<SUP>[24]</SUP> Forty-four of the 46 states responding to our 
survey that they are developing or operating a SACWIS indicated that 
they relied on internal users, such as caseworkers and supervisors, in 
the development of their systems and 34 of these states said that they 
were extremely helpful participants. The extent to which the users were 
involved in development differed across the states. For example, in 
Texas, caseworkers from all of their child welfare regions were 
recruited to provide input on design and development, as well as during 
initial testing, pilot testing, and implementation of the system. 
Arkansas reported establishing a committee made up of users to review 
the work plan and sign off on recommended changes.
---------------------------------------------------------------------------
    \[24]\ See U.S. General Accounting Office, Executive Guide: 
Improving Mission Performance Through Strategic Information Management 
and Technology, GAO/AIMD-94-115 (Washington, D.C.: May 1, 1994); Center 
for Technology in Government, University of Albany, SUNY. Tying a 
Sensible Knot: A Practical Guide to State-Local Information Systems. 
Albany, N.Y., June 1997.
---------------------------------------------------------------------------
    Ten states noted that user input should not be limited to frontline 
workers, such as caseworkers, but should include representatives from 
other areas of the agency, such as the financial staff, and other 
agencies that serve children, such as child support 
enforcement.<SUP>[25]</SUP> While not one of the most common challenges 
reported in our survey, New Hampshire reported that one of its 
challenges with meeting its SACWIS timeframe was not working 
collaboratively with other agencies, such as Temporary Assistance for 
Needy Families (TANF) <SUP>[26]</SUP> and child support enforcement, to 
develop the payment component of SACWIS. To attempt to overcome this 
challenge, 26 of the 46 states responding to our survey that they are 
developing or operating a SACWIS indicated that they included external 
public agency users, and 23 reported using representatives from other 
state agencies that serve children in developing their SACWIS.
---------------------------------------------------------------------------
    \[25]\ The Child Support Enforcement Program is a joint federal, 
state, and local partnership that was established in 1975 under Title 
IV-D of the Social Security Act. Each state runs a child support 
program, which provides four major services: locating noncustodial 
parents, establishing paternity, establishing child support 
obligations, and collecting child support for families.
    \[25]\ In 1996, the Congress created the block grant Temporary 
Assistance for Needy Families program replacing the Aid to Families 
with Dependent Children (AFDC) and related welfare programs. States 
were given increased flexibility in designing the eligibility criteria 
and benefit rules, which require work in exchange for time-limited 
benefits.
---------------------------------------------------------------------------
    In addition to seeking input from caseworkers and other system 
users while developing SACWIS, many states continue to include users as 
a part of the implementation teams, to serve as contacts in the field 
and provide ongoing assistance, and to provide input on system 
enhancements. Alabama responded in our survey that the state had 
``mentors'' in each county to help caseworkers adjust to the new 
system. These mentors continue to provide ongoing support now that the 
system is implemented. Oklahoma recruits experienced child welfare 
field staff for its SACWIS help desk because of their knowledge of the 
system and child welfare policy and practice.
    Although states faced other challenges in completing their SACWIS, 
few reported implementing approaches to overcome the barriers. 
According to survey results, a common problem states faced in 
developing SACWIS was receiving insufficient state funding for 
development. States did not report in our survey, however, approaches 
for obtaining more funding for developing SACWIS, and few states 
reported developing strategies in an attempt to overcome the challenges 
associated with tight budgets for maintaining their systems. For 
example, Iowa officials engaged in careful planning with system users 
to ensure that they addressed the highest priorities when enhancing the 
system. In particular, the officials reported that maintaining tight 
control over the development and maintenance processes helps them avoid 
investing inordinate amounts of resources to make corrections to the 
system. Similarly, few states reported on approaches to overcome the 
challenge of finding contractors with knowledge of child welfare 
practice. However, Iowa officials explained that once the contract 
staff are hired, they are required to attend the same training as new 
caseworkers to ensure that they are familiar with the state's child 
welfare policies and to familiarize themselves with casework practices.
States Use Strategies, such as Producing Reports That Identify Missing 
        Data, in an Attempt to Improve the Reliability of the Data 
        Reported to HHS
    Twenty-eight states reported using approaches to help caseworkers 
identify the data elements that are required for federal reporting and 
to help them better understand the importance of entering timely and 
accurate data. Ten states responding to our survey reported reviewing 
the federal reporting requirements in training sessions as a way to 
improve data quality. For example, Tennessee reported that the state 
added a component about AFCARS to the initial and ongoing training 
workers receive about using SACWIS. The curriculum addresses the AFCARS 
report in general and the individual data elements to help the 
caseworkers better understand the purpose of collecting the 
information. In Nebraska, a ``desk aid'' that explains the data 
elements and where and why to enter them in the system is available on 
the caseworkers' computer desktops. In addition, New York has developed 
a step-by-step guide explaining to workers how NCANDS data should be 
entered, with references to the policy or statute requiring the 
information.
    To improve data reliability, some states have designed their 
information systems with special features to encourage caseworkers to 
enter the information. Four states responding to our survey and three 
states we visited designed their SACWIS with color-coded fields to draw 
attention to the data elements that caseworkers are required to enter. 
Colorado, Iowa, New York, and Oklahoma have built into their systems 
alerts--also known as ``ticklers''--to remind caseworkers and 
supervisors of tasks that they need to complete. For example, in 
Oklahoma, a stoplight icon on the caseworker's computer desktop reminds 
the worker when tasks are due. A green light indicates that nothing is 
due within 5 days; a yellow light means that something is due within 5 
days; and a red light means that something is overdue. Caseworkers and 
supervisors in the states we visited had mixed responses about the 
usefulness and effectiveness of the alerts. Some caseworkers found them 
to be a nuisance, while other caseworkers and supervisors found them to 
be useful tools in managing workloads and prioritizing daily tasks.
    Six states reported that the best way to improve data quality was 
to use the data in published reports and hold the caseworkers and 
supervisors accountable for the outcomes of the children in their care. 
In addition, six states responding to our survey reported using the 
data available in their information systems to measure state outcomes 
similar to the CFSR. State officials reported that this approach is an 
effective way to get local offices invested in the quality of the data. 
For example, North Carolina publishes monthly reports for each county 
comparing their performance on state data indicators, such as the 
length of time children spend in care, to counties of similar size and 
the state as a whole. County officials reported that these reports 
encourage workers to improve the quality of the data collected and 
entered into the state system since their performance is being widely 
published and compared with that of other counties.
    In addition, all the states we visited reported that frequent 
review of their data, such as using software from HHS to test their 
AFCARS and NCANDS data to pinpoint data entry errors prior to 
submitting them to HHS, has helped improve data quality. When the 
states identify poor data, they alert the caseworkers and supervisors 
of needed corrections and data entry improvements. For example, 
Colorado runs these reports about four to five times a year, with one 
run occurring approximately 6 weeks before each AFCARS submission. When 
the data specialists find errors, they notify the caseworker to clean 
up the data.
Concluding Observations
    While most states are developing statewide information systems, 
challenges with data reliability remain. Although SACWIS development is 
delayed in many states, state officials recognize the benefits of 
having a uniform system that enhances the states' ability to monitor 
the services provided and the outcomes for children in their care. 
Although states began reporting to NCANDS in 1990 and were mandated to 
begin reporting to AFCARS in 1995, most states continue to face 
challenges providing complete, accurate, and consistent data to HHS. In 
addition, the results of more recent HHS efforts, such as conducting 
AFCARS-related focus groups, are unknown. Reliable data are essential 
to the Federal Government's development of policies that address the 
needs of the children served by state child welfare agencies and its 
ability to assist states in improving child welfare system 
deficiencies. Without well-documented, clearer guidance and the 
completion of more comprehensive reviews of states' AFCARS reporting 
capabilities, states are limited in overcoming challenges that affect 
data reliability. Because these challenges still remain, HHS may be 
using some questionable data as the foundation for national reports and 
may not have a clear picture of how states meet the needs of children 
in their care.
    To improve the reliability of state-reported child welfare data, we 
recommended in our July 2003 report that the Secretary of HHS consider, 
in addition to HHS's recent efforts to improve AFCARS data, ways to 
enhance the guidance and assistance offered to states to help them 
overcome the key challenges in collecting and reporting child welfare 
data. These efforts could include a stronger emphasis placed on 
conducting AFCARS reviews and more timely follow-up to help states 
implement their improvement plans or identifying a useful method to 
provide clear and consistent guidance on AFCARS and NCANDS reporting. 
ACF generally agreed with our findings and commented that the report 
provides a useful perspective of the problems states face in collecting 
data and of ACF's effort to provide ongoing technical assistance to 
improve the quality of child welfare data. In response to our 
recommendation, ACF said that we categorized its efforts as ``recent'' 
and did not recognize the long-term efforts to provide AFCARS- and 
NCANDS- related guidance to the states. Although we did not discuss 
each effort in depth, we did mention the agency's ongoing efforts in 
our report. ACF also noted in its comments that the data definitions 
need to be updated and revised and said it is currently in the process 
of revising the AFCARS regulations to further standardize the 
information states are to report--which we acknowledged in our report. 
ACF also commented that it is firmly committed to continue to support 
the states and to provide technical assistance and other guidance as 
its resources will permit. ACF commented that it provided increased 
funding to the National Resource Centers in fiscal year 2003, and it 
believed that this increase will improve ACF's ability to provide 
assistance to the states. After receiving the draft report for comment, 
HHS separately provided information on an additional service the 
National Resource Center for Information Technology in Child Welfare 
provides to states. More recently, HHS said that it would be creating 
policy guidance that will delineate what will happen if a state fails 
to complete its SACWIS within a reasonable time frame.
    For example, funding may become contingent on successful completion 
of specific milestones.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other members of the 
Subcommittee may have.
GAO Contact and Acknowledgments
    For further contacts regarding this testimony, please call Cornelia 
M. Ashby at (202) 512-8403. Individuals making key contributions to 
this testimony include Diana Pietrowiak and Sara Schibanoff.
Related GAO Products
Child Welfare: Enhanced Federal Oversight of Title IV-B Could Provide 
            States Additional Information to Improve Services. GAO-03-
            956. Washington, D.C.: September 12, 2003.

Child Welfare: Most States Are Developing Statewide Information 
            Systems, but the Reliability of Child Welfare Data Could Be 
            Improved. GAO-03-809. Washington, D.C.: July 31, 2003.

Child Welfare and Juvenile Justice: Several Factors Influence the 
            Placement of Children Solely to Obtain Mental Health 
            Services. GAO-03-865T. Washington, D.C.: July 17, 2003.

Child Welfare and Juvenile Justice: Federal Agencies Could Play a 
            Stronger Role in Helping States Reduce the Number of 
            Children Placed Solely to Obtain Mental Health Services. 
            GAO-03-397. Washington, D.C.: April 21, 2003.

Child Welfare: HHS Could Play a Greater Role in Helping Child Welfare 
            Agencies Recruit and Retain Staff. GAO-03-357. Washington, 
            D.C.: March 31, 2003.

Human Services: Federal Approval and Funding Processes for States' 
            Information Systems. GAO-02-347T. Washington, D.C.: July 9, 
            2002.

Foster Care: Recent Legislation Helps States Focus on Finding Permanent 
            Homes for Children, but Long-Standing Barriers Remain. GAO-
            02-585. Washington, D.C.: June 28, 2002.

Human Services Integration: Results of a GAO Cosponsored Conference on 
            Modernizing Information Systems. GAO-02-121. Washington, 
            D.C.: January 31, 2002.

District of Columbia Child Welfare: Long-Term Challenges to Ensuring 
            Children's Well-Being. GAO-01-191. Washington, D.C.: 
            December 29, 2000.

Child Welfare: New Financing and Service Strategies Hold Promise, but 
            Effects Unknown. GAO/T-HEHS-00-158. Washington, D.C.: July 
            20, 2000.

Welfare Reform: Improving State Automated Systems Requires Coordinated 
            Federal Effort. GAO/HEHS-00-48. Washington, D.C.: April 27, 
            2000.

Foster Care: States' Early Experiences Implementing the Adoption and 
            Safe Families Act. GAO/HEHS-00-1. Washington, D.C.: 
            December 22, 1999.

Foster Care: HHS Could Better Facilitate the Interjurisdictional 
            Adoption Process. GAO/HEHS-00-12. Washington, D.C.: 
            November 19, 1999.

Foster Care: Effectiveness of Independent Living Services Unknown. GAO/
            HEHS-00-13. Washington, D.C.: November 5, 1999.

Foster Care: Kinship Care Quality and Permanency Issues. GAO/HEHS-99-
            32. Washington, D.C.: May 6, 1999.

Juvenile Courts: Reforms Aim to Better Serve Maltreated Children. GAO/
            HEHS-99-13. Washington, D.C.: January 11, 1999.

Child Welfare: Early Experiences Implementing a Managed Care Approach. 
            GAO/HEHS-99-8. Washington, D.C.: October 21, 1998.

Foster Care: Agencies Face
Challenges Securing Stable Homes for Children of Substance Abusers. 
            GAO/HEHS-98-182. Washington, D.C.: September 30, 1998.

Managing Technology: Best Practices Can Improve Performance and Produce 
            Results. GAO/T-AIMD-97-38. January 31, 1997.

Child Welfare: HHS Begins to Assume Leadership to Implement National 
            and State Systems. GAO/AIMD-94-37. Washington, D.C.: June 
            8, 1994.

Executive Guide: Improving Mission Performance Through Strategic 
            Information Management and Technology. GAO/AIMD-94-115. 
            Washington, D.C.: May 1, 1994.
      
    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. It may be reproduced and 
distributed in its entirety without further permission from GAO. 
However, because this work may contain copyrighted images or other 
material, permission from the copyright holder may be necessary if you 
wish to reproduce this material separately.
GAO's Mission
    The General Accounting Office, the audit, evaluation and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the Federal Government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.
Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through the Internet. GAO's Web site (www.gao.gov) contains 
abstracts and full-text files of current reports and testimony and an 
expanding archive of older products. The Web site features a search 
engine to help you locate documents using key words and phrases. You 
can print these documents in their entirety, including charts and other 
graphics.
    Each day, GAO issues a list of newly released reports, testimony, 
and correspondence. GAO posts this list, known as ``Today's Reports,'' 
on its Web site daily. The list contains links to the full-text 
document files. To have GAO e-mail this list to you every afternoon, go 
to www.gao.gov and select ``Subscribe to e-mail alerts'' under the 
``Order GAO Products'' heading.
Order by Mail or Phone
    The first copy of each printed report is free. Additional copies 
are $2 each. A check or money order should be made out to the 
Superintendent of Documents. GAO also accepts VISA and Mastercard. 
Orders for 100 or more copies mailed to a single address are discounted 
25 percent. Orders should be sent to:

U.S. General Accounting Office
441 G Street NW, Room LM
Washington, D.C. 20548

To order by Phone:

Voice: (202) 512-6000
TDD: (202) 512-2537
Fax: (202) 512-6061
To Report Fraud, Waste, and Abuse in Federal Programs
Contact:

Web site: www.gao.gov/fraudnet/fraudnet.htm
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5a4e5d49585259487c5b5d53125b534a">[email&#160;protected]</a>
Automated answering system: (800) 424-5454 or (202) 512-7470
Public Affairs
Jeff Nelligan, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c08ea5acaca9a7a1ae8a80a7a1afeea7afb6">[email&#160;protected]</a> (202) 512-4800
U.S. General Accounting Office, 441 G Street NW, Room 7149
Washington, D.C. 20548

                                 <F-dash>

    Chairman HERGER. Thank you. We will now hear from Ms. Jill 
Baker, Program Manager of Child Protective Services for the 
Norfolk Department of Human Services.

  STATEMENT OF JILL BAKER, PROGRAM MANAGER, CHILD PROTECTIVE 
   SERVICES, NORFOLK DEPARTMENT OF HUMAN SERVICES, NORFOLK, 
                            VIRGINIA

    Ms. BAKER. Thank you. Good afternoon, Mr. Chairman, Ranking 
Member Cardin, Members of the Subcommittee. My name is Jill 
Baker. I manage the Child Protection and Family Preservation 
programs for the Department of Human Services in the City of 
Norfolk, Virginia. I have been involved in the investigation of 
child abuse and neglect since 1978, first as a worker, then as 
a supervisor, and now as program manager.
    My testimony today will focus on three key areas. First, 
the improvements SACWIS has brought to social work practices; 
second, how SACWIS can sometimes hinder innovation; and, third, 
how vast improvements can be achieved if SACWIS rules were more 
flexible. The use of information technology has been a welcome 
additional resource to our toolbox in protecting children from 
abuse and neglect. These systems have moved us from a 
requirement that social workers complete their paperwork within 
90 days, to an expectation that information will be within the 
system within 24 hours. We still have great distances to go.
    In Virginia, the State operates a program known as Online 
Automated Services Information System (OASIS). I would like to 
share an example of how OASIS has helped us protect children. 
Recently, we received a call from a local hospital about a 
child who was born exposed to cocaine. The mother also tested 
positive. Through OASIS, we were able to immediately identify 
that this mother had four other children who had been removed 
from her care by Virginia Beach child protective workers, and 
placed with relatives due to the mother's substance abuse and 
subsequent neglect of her children.
    Prior to OASIS, we would have had to make a call to 
Richmond to identify whether there were any records of past 
child welfare involvement in the State. Richmond would provide 
us with responses to some of our questions, and we would then 
have to call another locality, asking them to pull the old case 
file and send us the information. This process usually took 
weeks. With OASIS, we had access to the information instantly; 
and the child was placed in our custody before the infant left 
the hospital. Unfortunately, OASIS is limited, and what it does 
provide requires intensive data entry time. A worker will enter 
information into an average of 53 screens for a child 
protective services investigation, and more than 65 screens for 
a placement in foster care.
    Please take a look at the graphics attached to my prepared 
testimony, developed by the City of Arlington. The first 
graphic shows a typical family that we encounter--a mother with 
three children and five grandchildren. The next few charts show 
all the different systems that collect information about these 
family members. In this case, the family had to give the same 
basic information to at least 14 different people operating in 
different programs, sometimes within the same agency. Although 
the information should be shared, it is not consistently 
provided between programs, and requires substantial, redundant 
efforts on behalf of service providers.
    Other issues that prevent us from fully benefiting from the 
intent of the SACWIS programs are a lack of interaction with 
local payment systems, the inability to produce management 
reports, prevention of system improvements, information that is 
not accessible in real time, and information that is 
unavailable to other relevant systems. The system only allows 
social workers involved in child protective services and foster 
care to enter information. It excludes family prevention 
services, benefits programs, daycare services, court-ordered 
services, juvenile justice services, adult protective services, 
and the schools. These partners need the ability to report 
their involvement in a single, shared database to more 
effectively serve our families.
    The City of Norfolk is working on mechanisms to provide 
patches to a troubled system, so we can improve our ability to 
planning the child welfare program. To address the real time 
and access reporting issues, we have adopted the KIDSLINE, 
which tells us within 2 hours of accuracy the precise location 
of all children in our custody as well as generates a variety 
of reports. The KIDSLINE and its staff will automatically 
update the benefits, payment, and OASIS systems to ensure 
accurate payments and appropriate support to children's 
families.
    We are also seeking a unified case management system that 
would allow workers from various programs and partner agencies 
to enter demographic information just one time--and the system 
would automatically populate additional systems as required. It 
would work with OASIS to report the exact same data elements to 
the State and Federal Government, but without having to enter 
information into separate systems. We respectfully request that 
this Committee work with the Department of Health and Human 
Services, States, and localities to make certain changes to 
SACWIS rules that will enable local governments to develop a 
holistic system for serving families without harming statewide 
reporting needs. These recommendations are described in detail 
in the second attachment to my prepared statement.
    As has been made clear by recent tragic events in New 
Jersey and Florida, we know that you have to be asking the 
question: how come nobody knew this was going on? The answer in 
too many cases is, the true picture was like a jigsaw puzzle. 
There were many different people holding separate pieces of the 
puzzle, without knowing how to put the whole picture together. 
Our information systems are the solution to this problem, and 
we need your help to implement them. Thank you for your time 
and attention to this important issue. I am happy to answer any 
questions you might have.
    [The prepared statement of Ms. Baker follows:]
 Statement of Jill Baker, Program Manager, Child Protective Services, 
        Norfolk Department of Human Services, Norfolk, Virginia
    Good afternoon, Mr. Chairman, Ranking Member Cardin, Members of the 
Subcommittee. My name is Jill Baker. I manage the Child Protection and 
Family Preservation programs for the Department of Human Services in 
the City of Norfolk, Virginia. I have been involved in the 
investigation of child abuse and neglect since 1978; first as a worker, 
later as a supervisor, and now as Program Manager.
    My testimony today will focus on three key areas: 1) The 
improvements SACWIS (Statewide Automated Child Welfare Information 
System) has brought to social work practice; 2) how SACWIS can 
sometimes hinder innovation; and 3) how vast improvements can be 
achieved if SACWIS rules were made more flexible.
1) SACWIS Has Brought Positive Changes to Social Work Practice
    By way of background, Virginia operates a locally-administered, 
state-supervised human services system. The City of Norfolk is a medium 
sized urban city of 230,000 with a poverty rate of 19%. We are closely 
connected to several other localities in the Southeast corner of 
Virginia known as Hampton Roads with a population of 1.5 million.
    The use of information technology has been a welcome additional 
resource to our toolbox in protecting children from abuse and neglect. 
These systems have moved us from a requirement that social workers 
complete their paperwork within 90 days to an expectation that 
information will be ``in the system'' within 24 hours of the social 
worker taking any action on behalf of a child or family. But, we still 
have great distances to go.
    In Virginia, the State operates a system known as ``OASIS,'' or 
Online Automated Services Information System. This system came to us in 
1998, taken from Oklahoma's SACWIS system, called KIDS.
    I'd like to share an example of how OASIS has helped us in 
protecting children. Recently, we received a call from the local 
hospital about a child who was born exposed to cocaine. The mother also 
tested positive. Through OASIS we were able to immediately identify 
that this mother had four other children who had been removed from her 
care by Virginia Beach child protective workers and placed with 
relatives due to the mother's substance abuse and subsequent neglect of 
her children. Prior to OASIS, we would have to make a call to Richmond 
to identify whether there were any records of past child welfare 
involvement in the State. Richmond would provide us responses to 
certain questions, and we would then have to call the other locality, 
ask them to pull the old case files (usually in closed case storage) 
and mail or fax us the information. This process usually took weeks. 
With OASIS, we had access to the information instantly and the child 
was placed in our custody before the infant left the hospital. We were 
able to develop a treatment plan immediately and used OASIS to document 
and review all actions taken to protect this child.
2) Some Systems Hinder Innovation
    Unfortunately, OASIS is very limited and what it does provide 
requires intensive data entry time. A worker will enter information 
into an average of 53 screens in a child protective services 
investigation and more than 65 screens for a placement in foster care.
    If this mother had not been referred to child protective services, 
but had been provided treatment for substance abuse, referred to 
truancy programs for her older child, or been involved in other non-CPS 
programs, we would not have had a way to access this information.
    Please take a look at the attached graphic developed by the City of 
Arlington. The first graphic shows a typical family that we encounter--
a mother with three children and five grandchildren. The next graphic 
shows all the different systems that collect information about these 
family members that would be important for our social workers to know. 
On the following page, you see the different information systems that 
we largely do not have access to that would have to be queried in order 
for us to understand the whole picture of the family. This is also a 
burden on the family members and on children who may have to revisit 
painful events multiple times. In this case, the family had to give the 
same basic information to at least 14 different people operating in 
different programs, sometimes even within the same agency. Although the 
information should be shared, it is not consistently provided between 
programs and requires substantial redundant efforts on behalf of 
service providers.
    Other issues that prevent us from fully benefiting from the intent 
of the SACWIS program are:

    <bullet>  Lack of interaction with local payment systems: As 
children move between foster homes or back to their biological parents, 
information has to be separately entered to make sure that the right 
caretakers receive payments. Unfortunately, this doesn't always happen 
promptly leading to payment errors and fraud.
    <bullet>  Inability to produce management reports: For a locality 
to run searches about trends in child abuse and neglect and foster 
care, we have to request a report from the State. Basically, what we 
put in, we can't get out without asking nicely.
    <bullet>  Prevention of system improvements: The State of Virginia 
is currently seeking to adopt the Structured Decision Making model 
(SDM) in our child welfare programs. This is a research-based tool to 
uniformly identify risk levels by caseworkers in the field. We have 
been notified that SACWIS rules prevent us from implementing this 
proven best practice as it cannot be entered into OASIS and would 
require us to operate a separate ``stand alone'' system.
    <bullet>  Information is not ``real time'': We have to wait for two 
months past the most recent quarter to receive generic reports. The 
most recent data available to us is from June. This prevents us from 
quickly identifying and responding to any changing trends.
    <bullet>  Information is unavailable from other relevant systems: 
OASIS does not link to our local TANF, Food Stamps, and Medicaid 
systems, or provide us with information on IV-E eligibility. These 
systems must be searched separately in order to ensure that the child 
has or maintains access to important benefits. These systems can also 
provide important information about family history, potential relatives 
that might care for a child, and basic information such as most recent 
address.
    <bullet>  Limited program inclusion: The system only allows social 
workers involved in child protective services and foster care to enter 
information. It excludes family prevention services, benefits programs, 
day care, court-ordered services, juvenile justice services, adult 
protective services, and the schools. All of these partners need the 
ability to report their involvement in a single, shared database in 
order to more effectively serve families.
3) Local and State Governments Can Develop Solutions If Empowered to Do 
        So
    The City of Norfolk is working on mechanisms to provide ``patches'' 
to a troubled system so that we can improve our ability to manage the 
child welfare program. In order to address the ``real time'' and access 
to reporting issues, we've adopted the KIDSLINE--which tells us within 
two hours of accuracy, the precise location of all children in our 
custody, as well as generates a variety of reports. The KIDSLINE and 
its staff will automatically update the benefits, payment and OASIS 
systems to ensure accurate payments and appropriate support to children 
and families.
    We are also actively seeking a unified case management system that 
would allow workers from various programs and partner agencies to enter 
demographic information just one time and the system would 
automatically ``populate'' additional systems as required. It would 
work in concert with OASIS to report the exact same data elements to 
the State and Federal Government but without having to enter 
information into separate systems.
    This case management system would improve caseworker efficiency, 
save administrative costs, and vastly improve service delivery to 
families. The technology is currently available, and we are prepared to 
fund its development and implementation, alone if necessary. However, 
we have been instructed by the State and HHS regional officials that 
again, this would constitute a violation of SACWIS rules and would 
result in the State having to repay the entire Federal investment in 
OASIS. The State routinely invests millions in making incremental 
adjustments to OASIS but will readily admit that it is years away from 
reaching basic SACWIS requirements such as connectivity to TANF, 
Medicaid, and Food Stamps programs, not to mention the local payment 
systems.
    We believe that both the State and HHS would like to see this type 
of approach adopted as it is obviously beneficial to all parties. 
However, both the State and HHS have indicated they believe their hands 
are tied by the SACWIS rules. We respectfully request that this 
Committee work with HHS, the States and localities to make certain 
changes to SACWIS rules that will enable local governments to develop a 
holistic system for serving families without harming statewide 
reporting needs. These recommendations are described in detail in 
Attachment 2. As has been made clear by recent tragic events in New 
Jersey and Florida, we know that you have asked the question ``how come 
nobody knew this was going on?'' The answer in too many cases is that 
the true picture was like a jigsaw puzzle--there were many different 
people holding separate pieces of the puzzle without knowing how to put 
the whole picture together. Our information systems are the solution to 
this problem and we need your help to make them the answer.
    Thank you for your time and attention to this important issue. I am 
happy to answer any questions that you may have.
                                 ______
                                 
                              ATTACHMENT 1
    Courtesy of the City of Arlington, Department of Human Services
[GRAPHIC] [TIFF OMITTED] 92985C.002

                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 92985D.001
                                 
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 92985E.002
                                 
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 92985F.001
                                 
                                 ______
                                 
                              ATTACHMENT 2
                        DETAILED RECOMMENDATIONS
                  Norfolk Department of Human Services
    1) Congress or HHS should clarify under SACWIS that a ``single 
statewide system'' refers only to the infrastructure for reporting by 
localities to the State and Federal Government. ``Statewideness'' is 
not impaired if a locality adopts differing user interfaces, so long as 
the reporting continues to operate through the single statewide system.
    2) AFCARS and other data captured through the SACWIS system must 
allow localities (those entering the data) to access and generate 
reports using technical tools available to the locality.
    3) Financial penalties should not be levied against a State if it 
elects to allow local governments to pilot modifications to its system 
before developing statewide approaches.
    4) Congress should provide HHS with regulatory flexibility to waive 
certain SACWIS requirements in order to promote demonstration projects 
that integrate reporting/data systems while protecting the basic 
infrastructure of the statewide system.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Baker. Now, Mr. Robert 
McKeagney, Vice President for Program Operations for the Child 
Welfare League of America.

    STATEMENT OF ROBERT MCKEAGNEY, VICE PRESIDENT, PROGRAM 
          OPERATIONS, CHILD WELFARE LEAGUE OF AMERICA

    Mr. MCKEAGNEY. Thank you, Chairman Herger, Mr. Cardin, 
Members of the Subcommittee. I am pleased to be here today to 
talk with you about this important issue. I bring four distinct 
perspectives to my comments this afternoon. Over the last 
decade, I have had the privilege to work as a national 
consultant in one way or another, and have worked with 
virtually all of the 50 States on the meshing of information 
systems and direct practice. Prior to that, I worked for 20 
years in the Main Department of Human Services--in the State of 
Main--for many of those years as the Deputy Commissioner for 
Programs. Prior to that, I was a regional program manager, 
beginning my career as a caseworker investigating abuse and 
neglect cases, and placing children in foster care.
    To understand these systems and how they work, I think you 
need to blend all of those perspectives. Unlike a number of 
other human service information systems we have built over the 
years, the SACWIS and its predecessor systems are really 
intended not only to support Federal reporting--which they have 
done, if not perfectly, then substantially well, and 
increasingly better over the years--but also, to drive internal 
accountability systems that are used by program managers within 
systems. Most importantly, and I think most confoundingly to 
most of us, they also support the basic case management process 
within States.
    We have 50 different information systems in this country, 
because we have 50 different sets of laws. We have 50 different 
organizational configurations, and 50 different work processes 
in place. The reason it takes so long to design a SACWIS is 
because the people who are operating that system need to 
understand in detail what it takes to protect children. The 
Child Welfare League is deeply engaged every day with people in 
States. Under a contract with the Children's Bureau, we operate 
the National Resource Center for Information Technology, where 
we provide technical assistance to the States in terms of their 
use of SACWIS information, including how they report out their 
performance in regard to the Child and Family Service Reviews.
    Our National Data Analysis System engages all 50 States in 
ongoing discussions of data quality. You would not want to sit 
around the table while those discussions are being conducted by 
some of those folks, but it is important work they are doing. 
Most recently, we have also initiated a project, which you have 
funded through the Children's Bureau, to review the causes 
behind this problem of children missing from foster care. Early 
next year, we will be bringing together a group of 
representatives of the States to begin that discussion. The 
State of Florida is a partner with us in that process, as is 
the National Center for Missing and Exploited Children.
    We expect to hear problems about the technology, and the 
types of things that are being reported. We expect to hear a 
lot about definitions of terms--as to what actually is a 
``missing child.'' Is it a child who has run away; is it a 
child whose identification number is lost, for whatever reason, 
and is confused with another identification number; or is it, 
in some cases, a child who has actually dropped off the radar 
screen or been abducted by a relative? Depending on what the 
answers to some of those questions are, there are very 
different solutions that need to be worked out. This brings me 
ultimately to what I think is a fundamental point from the 
perspective of the Child Welfare League of America. No matter 
what kind of system we put in place, it is not going to be any 
stronger than the skills and the resources of the people who 
are driving that system.
    The most important part of our national child welfare 
system is the people who are out there actually seeing 
children. Children who are missing within our information 
systems often are simply miscoded within our system--or there 
is delayed data entry because the folks who are doing most of 
this work do not have enough time to do it. Training, of 
course, is needed. Yet, more than anything else, we need to 
give them enough time to make the basic observations that need 
to be made. They need an opportunity to put those observations 
in the electronic systems, so their managers can indeed verify 
that they are out there doing the work that needs to be done. 
Ultimately, they need to be able to hold them accountable. We 
can't do that unless we give them enough time, tools, and the 
resources they need to do that job.
    We think there is a lot of improvement that is needed in 
the current national information system. However, each of the 
50 States is heavily invested in working within that system. We 
would like to encourage the Children's Bureau to continue its 
efforts to improve the quality of that data, and to continue to 
provide additional assistance to the States as they move 
forward. I would be happy to answer any questions. Thank you 
very much for your time.
    [The prepared statement of Mr. McKeagney follows:]
  Statement of Robert McKeagney, Vice President, Program Operations, 
                    Child Welfare League of America
    My name is Robert McKeagney, I am the Vice President for Program 
Operations for the Child Welfare League of America (CWLA). CWLA 
welcomes this opportunity to testify on behalf of our 1,000 public and 
private nonprofit child-serving member agencies nationwide for the 
hearing on ``Improved Monitoring of Vulnerable Children.'' We 
appreciate the interest this Subcommittee and other members of Congress 
have demonstrated to better ensure the safety of children. As 
underscored by the recent case in New Jersey, as well as other 
instances of abuse and deprivation that have come to public attention, 
we have not yet implemented a national child welfare system that offers 
sufficient assurance that all children will be protected.
    The focus of today's hearing is on the capacity of state child 
welfare agencies to effectively monitor the status of children in their 
care through the use of data within automated information systems, and 
to consider necessary improvements.
    I am going to speak to you today from the combined perspectives of 
four vantage points. I have been fortunate during my career to have 
worked as a:

    <bullet>  National consultant during which time I have had in-depth 
working relationships with a substantial number of state child welfare 
programs and have been engaged in numerous reviews of national data 
quality;
    <bullet>  State administrator with responsibility for a broad range 
of federally funded programs;
    <bullet>  Child welfare program manager and supervisor at a local 
level; and
    <bullet>  Caseworker who investigated abuse and neglect complaints 
and managed foster care cases.

    Within the context of each of these roles, I have had the 
opportunity to be involved with the design and use of child welfare 
information systems. These experiences have led me to believe that the 
most useful and accurate understanding of the challenges we face in 
this area must be based on these multiple perspectives.
    CWLA is engaged on a daily basis with states in efforts to improve 
data management in support of a standard of direct service practice 
that will lead us to a consistently high level of safety and care for 
all children. Under contract to the Children's Bureau, CWLA hosts the 
National Resource Center for Information Technology in Child Welfare 
(NRCITCW). This national resource center works with states around the 
implementation of SACWIS systems and their preparation for the federal 
Child and Family Service Reviews (CFSR). CWLA's National Data Analysis 
System (NDAS) works with states in cooperation with the U.S. Children's 
Bureau to create better understanding of the information that is 
already being reported on an annual basis. All fifty states (plus the 
District of Columbia) have been involved in an NDAS National Working 
Group that has conducted intensive reviews of federal reporting 
requirements and the comparability of information being reported by the 
states.
    Most recently, CWLA has begun work on a federal grant to examine 
questions that have been generated by cases of children reported 
missing from foster care. In cooperation with the National Center for 
Missing and Exploited Children, the state of Florida, and 
representatives of other states, we will examine policies and practices 
to develop models that will aid states in maintaining more effective 
tracking systems. This will include strategies to ensure adequate 
tracking of the location of children and youth in care and that regular 
visits occur. We will examine the use of SACWIS systems, the 
effectiveness of state reporting procedures, and the roles of casework 
staff and foster parents in overseeing the well-being of children.
    Our work in this area will attempt to address a number of issues. 
As part of this project, we are examining definitions such as when a 
child is considered ``missing'' or ``runaway''; looking at cases of 
children missing from foster care; parental abductions; and situations 
where a child's location may be unknown to the child welfare agency but 
may be known by the local law enforcement agency. Prevention issues 
will also be examined, including a child's risk for abduction, the 
stresses that may cause a child in foster care to leave, and the 
supports that may help these children at risk. Workforce issues will 
also be reviewed to ensure that caseworkers can monitor children and 
are properly trained so that incidents of runaways can be prevented.
Influences on the Information Systems
    State child welfare information systems are largely defined by two 
major factors.

    <bullet>  Federal reporting requirements that include the broad 
framework within which specific data elements are defined and the 
overall functional capacity of an acceptable system. In relationship to 
these requirements, the implementation of the Child and Family Services 
Reviews (CFSR) as part of a heightened national effort at measurement 
and accountability, has reinforced the already powerful influence of 
this mandate.
    <bullet>  The unique needs of individual states, particularly as 
they apply to the demands of case management and individual financial 
record keeping.

    This results in a national child welfare information system that is 
actually a collection of fifty-one different systems bound together 
principally by the need to report a core set of data elements to the 
Federal Government. Otherwise, the systems have evolved to be 
responsive to such things as unique state case practice standards; 
differing levels of authority between state and local jurisdictions; 
varying roles among state agencies; and the demands of well-established 
state finance and management systems. This has certainly reflected a 
sound strategy, given the differences among states. However, it has 
increased the overall complexity associated with the design and 
implementation of improved systems.
    This degree of difficulty is reflected by the current status of 
state implementation of federally mandated SACWIS systems. Only five 
states have completed their SACWIS systems, despite the availability of 
federal funding at 75% of costs in 1993-1997, and the ongoing 
availability of 50% cost sharing. Another twenty-one states have 
achieved operational status but are at various stages within the 
assessment process. An additional twenty-one states are in planning, 
implementation, or pre-assessment status. Four states have not 
initiated any SACWIS activity.
Current Requirements of a State Information System
    A quick review of the specific requirements that states must meet 
highlight the inherent complexities they face. Each system must 
incorporate at least eight different categories or ``modules''. Within 
each of these categories or modules there is additional information 
that is gathered or recorded.
    The eight areas of data include: intake such as the initial 
screening, investigation and assessment; eligibility, which also 
includes future re-determination of eligibility; case management, 
including a service plan, a review and on-going monitoring of the case; 
resource management which includes support for facilities, foster 
homes, and adoptive homes; court processing requirements which includes 
court documents notifications, tracking in the courts, and interaction 
with the Indian Child Welfare Act (ICWA); financial management of funds 
being spent; administration of the program; and interfaces with other 
systems and programs such as TANF, child support, Medicaid, and the 
child abuse and neglect data system. There are also optional features 
or systems that may be linked, such as state licensing, the state 
education system, and juvenile justice systems.
    When all of this is put into practice, a system must have an 
effective operational capacity to do three principal things. It must 
support:

    1.  State compliance with federal reporting requirements, including 
documentation of the states ability to meet federal outcome standards 
under Adoption and Safe Families Act (ASFA).
    2.  Program management and decisionmaking, including provision of 
data necessary to track and analyze both short and long term indicators 
of individual and system performance.
    3.  Case management on an ongoing daily basis.

    The requirement to perform case management functions is perhaps the 
most important thing to appreciate about state information systems, 
particularly those designed to comply with SACWIS requirements. These 
systems are not simply for reporting purposes. They also must be fully 
integrated into the daily work of thousands of direct service staff as 
tracking and decisionmaking tools. Complete, accurate, and timely 
information about the status of individual children is essential to the 
process of providing supervision and care to children. The need to 
bring this capacity to life places a much higher demand on states at 
both the design and maintenance levels than would be the case if their 
information systems were simply reporting tools.
    This level of information is exactly what an effective system of 
care demands, whether it is provided electronically or otherwise. A 
principal benefit of automated information systems, however, is to make 
it far more difficult to overlook a missing data element or step in a 
process. Consequently, the real cost of securing and maintaining this 
information becomes much clearer as the systems begin to generate long 
lists of missing information. This has heightened our awareness of the 
need to get beyond the admittedly complex technological aspects of the 
systems and to meet the even greater challenge of integrating these 
mandated information components into the ongoing casework process.
    Each system is ultimately dependent on the skill and sophistication 
of the thousands of front-line caseworkers and supervisors, who are 
their principal users. This essential fact is at the root of both the 
effective use and the misuse of state information systems as tools in 
ensuring the safety and well-being of children. Individual children are 
protected through the actions of responsible adults, including child 
welfare caseworkers. Therefore, responsible and competent use of the 
data is the critical element in all information systems.
    State tracking and case management systems are only as good as the 
information entered by caseworkers. The quality of this information is, 
in turn, a product of two key variables:

    <bullet>  capability of the caseworker, with support from a 
supervisor, to observe, gather, and evaluate pertinent information.
    <bullet>  investment of sufficient time, with complementary skill, 
to enter accurate and complete information into the automated system.

    An information system becomes an effective tool when high quality 
information is produced and applied to future decision-making, both in 
terms of children's needs and system accountability. Through a lens of 
child safety, this means that caseworkers must refer to prior records 
and place their current observations in the informed context of past 
patterns. Supervisors must do the same, but apply the same principles 
to the conduct of their staff as well as to children in their care. 
Finally, state administrators need to review timely reports of key 
system activities and events. They need to supplement this with solid 
longitudinal outcomes information in order to assure themselves that 
ongoing performance is consistent with both state and federal policy 
standards. Most importantly, everyone from caseworker to department 
head should be seeing comparable information and be fully aware that 
they are all managing to the same outcomes. This requires considerable 
skill at all levels, investments of time in analysis and communication, 
and a reasonably sophisticated institutional ability to package and 
present information. However, it also serves to transform data to 
increased knowledge and accountability.
    I would like to share just a few examples of all too common SACWIS 
issues that negatively impact the ability of the case manager to make 
well informed decisions about the safety of children in out of home 
care and their needs for services and supports.
    In many states (because definitions are state-specific), relatives 
are not licensed foster care providers and as such do not receive 
provider payments for the care of a child. Placements needing provider 
payments are entered into the computer in a more timely fashion that 
those placements not receiving payments. When caseloads are high, 
workers are forced to triage their time and children placed with 
relatives can, frequently, receive less attention from the case manager 
than is given to the paid providers resulting in service needs not 
being met and, possibly, unaddressed safety issues.
    Data entry also occurs to support the generation of a payment to 
doctors and psychologists who provide services to a child. Again, when 
a worker prioritizes his/her time, a note about a visitation with a 
child may be delayed, as it does not directly affect a payment. Delayed 
entry could endanger the safety of a child if patterns of caretaker 
behavior are not promptly recorded and viewed in conjunction with prior 
notations.
    All systems, regardless how well planned, developed and 
implemented, rely on the input provided by the human case manager. 
``Garbage in, garbage out'' is an issue in the use of any automation 
system, but is proportionally increased when a system is not completely 
and fully utilized to its designed capabilities. When a child death, 
for example, is reported for a Child Protective Services investigation 
there are detailed procedures for the steps to take in the 
investigation of the death. Most procedures, however, do not include 
specific direction to make certain data entry notations in the 
automated computer system. Data entry can easily be neglected entirely 
or entered days, weeks, or even months later which calls into question 
the quality of the information. Incorrect, delayed or non-entry of 
information could endanger the life of other children in a family if an 
alleged perpetrator is not properly identified with the computer.
    Due to the high level of case manager turnover, more reliance is 
put on the ``memory'' capacity of the computer system. When a child who 
is removed from home re-enters care the decision-making about placement 
options, services, and treatment is enhanced by the information about 
the prior experience in care. A properly trained case manager with a 
well designed computer system and time can find the prior record on a 
child and link the information, thus creating an accurate historical 
record to use in decision-making. A case manager with a poorly designed 
system, with little or no training and time, may not properly search 
within the computer records Or not search at all and create a new 
record, making it appear as this is the first time the child has 
entered care. The history trail of a child is lost when a duplicate 
record is created, and needed medical, social, psychological, and 
educational records are not available to support the case manager's 
worker efforts.
    The practical challenges facing state child welfare systems are 
well represented by the dynamics behind the well-publicized issue of 
children missing from foster care.<SUP>[1]</SUP> In the spring of 2002, 
the issue of children missing from care received national attention as 
a result of a case in Florida. After that, additional states began to 
survey their systems and also concluded that not all their children in 
care were accounted for. Michigan determined that 302 children were 
missing. In California over 700 children were unaccounted for. In the 
fall of 2002, the 393 children under the supervision of the Florida 
Department of Children and Families who were unaccounted for and 
classified as missing were separated into two major categories: 86% 
were identified as runaway (voluntary) and 14% were identified as 
endangered/parental abductions/involuntary. These represent two very 
different types of practice challenges. However, the information 
management needs are similar.
---------------------------------------------------------------------------
    \[1]\ According to the U.S. Department of Health and Human Services 
(2003), of the 542,000 children in foster care on September 30, 2001, 
9,112 children in care or 2% were identified as runaway. Of the 263,000 
children who exited foster care during FY 2001, 5,219 children (2%) 
exited the system as runaways, and 437 of the 126,000 children 
classified as waiting to be adopted on September 30, 2001 were 
runaways.
---------------------------------------------------------------------------
    Unfortunately, current administrative data on foster care does not 
answer many questions about children missing from care. First, is the 
issue of definitional clarity. Different definitions result in 
different conclusions about the scope of the problem. These definitions 
vary by type of absence, type of out-of-home care, duration of the 
absence from care, and avenues of exiting care. With attainment of 
greater definitional clarity, agencies could develop the capacity and 
methodology to capture, analyze and share the individual, 
environmental, and systemic factors that increase and diminish the 
risks of children missing from care. This would lead to greater clarity 
about the practice responses that would be effective.
    Research highlights the need for detailed recording and monitoring 
of all unauthorized absences and for improved coordination between 
child welfare and law enforcement to develop more effective reporting, 
response, and tracking procedures. The development of formal protocols 
at the local level may help to establish clear procedures, including 
explicit criteria for risk assessment; assist the development of an 
integrated practice framework consistent with child protection 
principles; and provide a basis for monitoring and reviewing patterns 
of absences. This is a significant challenge, not only in regard to 
design of information systems, but also in terms of interagency and 
inter-jurisdictional coordination, development of effective 
intervention strategies, and in staff training.
    States, even those with currently approved SACWIS systems, have a 
great deal more to accomplish in fully implementing information systems 
that meet all of the demands of federal reporting, agency management 
and accountability, and case management. There are still significant 
technological challenges, both for those states still designing systems 
and others who are in need of upgrades for existing systems. The most 
daunting challenges, however, remain with the ``human factor.'' 
Caseworkers are the most important ingredient in achieving success with 
these systems. Additional investments in reducing workloads and 
improving the capacity of frontline staff to integrate information 
management methods into sound case practice are necessary.
    Given the complexity of these systems, it will be necessary to 
maintain strong federal leadership for years to come. States will 
continue to require support in the form of funding, technical 
assistance, training, and development of clear standards for both 
practice and data management.
Recommendations for Improving the Monitoring of the Safety and Well-
        Being of Children in the Child Welfare System
    The many efforts in which CWLA engages with the states and the 
private child welfare agencies have led us to draw several primary 
conclusions about actions that can be taken to strengthen the national 
approach to monitoring the safety and well-being of children in foster 
care.

    1.  The U.S. Children's Bureau should be encouraged in its 
continuing efforts to improve the quality and consistency of federal 
child welfare reporting. It should continue its consultation with 
CWLA's National Working Group and other groups representing the states.
    2.  The U.S. Children's Bureau should continue its work with states 
through the CFSR and Program Improvement Plan process to improve the 
quality of child welfare services. It should continue to examine 
current outcome indicators and standards to further strengthen the 
connection between the CFSRs and child outcomes.
    3.  States should be provided with additional support in their 
development of practical management reports and integration of SACWIS 
data into their operational management and quality assurance systems. 
Enhanced resources should be provided to support training in the use of 
various data analysis methods and the application of data-driven 
decisionmaking techniques.
    4.  Front-line staff should have access to ongoing training and 
enhanced resources to support the integration of case reporting into 
the casework process. This should include:

      <bullet>  basic and advanced use of automated systems;
      <bullet>  caseworker and supervisor case and caseload management 
reporting functions;
      <bullet>  development of policies and skills to support 
integration of data-driven techniques into casework process; and
      <bullet>  access to new technology (PDAs; voice recognition 
recording equipment, etc.)

    5.  Caseloads should be reduced to acceptable standards. 
Caseworkers and their supervisors must have sufficient time to do 
rigorous, high quality work. Data quality and the effective application 
of information to case management and decisionmaking depend on 
thoughtful, thorough work. Too many caseworkers are still forced to cut 
too many corners. In general, the quality of case data is the first 
victim of an overburdened staff. The U.S. Children's Bureau should work 
with the states to develop a clear set of standards to serve as 
reference points for quality work and acceptable caseloads.
Additional Systems Improvements Needed
    The child welfare system, as currently constructed, cannot protect 
all children adequately. Failures occur. They are not limited to any 
single state. These failures to protect children will continue to occur 
until we put into place a comprehensive child protection system.
    In addition to improving the ability of child welfare agencies to 
keep reliable data on the children they serve, the national child 
welfare system continues to be in need of:

    <bullet>  A reliable, responsive, and predictable method of 
guaranteed funding, for a full range of essential services, as well as 
placement and treatment services.
    <bullet>  A means of maintaining consistent focus on safety, 
permanency, and well-being as outcomes for children.
    <bullet>  Rigorous standards combined with strong federal and state 
accountability mechanisms.
    <bullet>  Recruitment and support of adequately trained child 
welfare professionals, foster and adoptive parents, mentors, and 
community volunteers.
    <bullet>  Resources that enable parents to provide adequate 
protection and care for their own children.
New Resources are Needed for an Array of Services
    Child welfare agencies need to be able to provide a broad range of 
services to children who have been abused or neglected and to help 
ensure stability for them while they are in foster care and after they 
leave foster care.

    <bullet>  Increased support for primary prevention services can 
prevent many families from ever reaching the point where is child is 
removed from the home.
    <bullet>  Support for reunification services is needed. Forty-three 
percent (239,552) of children in care on September 30, 2000 had a case 
plan goal of reunification with their parents or other principal 
caretaker while 57% (157,712) of the children who exited care during FY 
2000 returned to their parent's or caretaker's home.
    <bullet>  A federally funded guardianship permanency option should 
be available to allow states to provide assistance payments on behalf 
of children to grandparents and other relatives who have assumed legal 
guardianship of the children for whom they have committed to care for 
on a permanent basis.
    <bullet>  Post permanency services are needed to support permanency 
when children have been reunified with their families, adopted, or when 
relatives have assumed legal guardianship and permanent care. To 
accomplish this for all children and families requires a system of 
service delivery which will ensure that sufficient funding is available 
to ensure that services will be available as the needs of the families 
and children change; and that an appropriate range of services are 
developed to meet the varying needs of adoptive families, birth 
families, and adopted children. The provision of these services would 
support reunification, prevent recidivism of children reentering foster 
care, and maintain permanency for adopted children and those in 
guardianship arrangements.
    <bullet>  Families in the child welfare system need access to 
appropriate substance abuse treatment. A common thread in child 
protection and foster care cases is the high percentage of children, 
their parents, or both who have a substance abuse problem. Up to 80% of 
the children in the child welfare system have families with substance 
abuse problems.
    <bullet>  Children in the in the child welfare system need better 
access to mental health services. It is estimated that 20%, or 13.7 
million American children have a diagnosable mental or emotional 
disorder. Nearly half of these children have severe disorders, but only 
one-fifth receive appropriate services. For children living in foster 
care today, the problem is even more serious. Eighty-five percent of 
the 547,000 children living in foster care have a developmental, 
emotional, or behavioral problem. Most of these children have 
experienced abuse and/or neglect and are at high risk of emotional, 
behavioral, and psychiatric problems. Upon entering foster care some 
children already have a diagnosed serious emotional disturbance and 
require significant services.
    <bullet>  Native American children need better access to services. 
Allowing Native American tribes and tribal consortia to apply to the 
U.S. Department of Health and Human Services to directly administer the 
Title IV-E foster care and adoption assistance program would increase 
opportunities for Native American children to find permanent families 
and receive the supports they need.
Workforce Supports are a Fundamental Building Block to an Improved 
        Child Welfare System
    Supports to improve the child welfare workforce are greatly needed. 
Successful outcomes for children and families in child welfare depend 
heavily on the quality of services received, and in turn, on the 
ability of the workforce delivering them. Yet, child welfare agencies 
across the country are facing a workforce crisis on many fronts. 
Attracting, training, and retaining qualified staff at all levels has 
become increasingly challenging.
Conclusion
    CWLA believes that important and necessary reforms must be enacted 
to ensure a consistent level of safety and care for all of America's 
children. We look forward to working with this subcommittee to develop 
a comprehensive child welfare reform proposal that meets all the needs 
of America's the most vulnerable children and families and ensures that 
every child is protected. A part of that reform must include 
improvements to systems designed to monitor the status of children.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. McKeagney. Now, 
to testify, Mr. Mike Watkins, Deputy District Administrator for 
District 2 of the Florida Department of Children and Families.

STATEMENT OF MICHAEL A. WATKINS, DEPUTY DISTRICT ADMINISTRATOR, 
   DISTRICT 2, FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES, 
                      TALLAHASSEE, FLORIDA

    Mr. WATKINS. Chairman Herger, Congressman Cardin, and 
Members of the Subcommittee, thank you for the opportunity to 
appear in order to discuss improvements in the monitoring of 
vulnerable children. Monitoring is an important and critical 
component of protecting children, and I commend the 
Subcommittee for this review. As the Deputy District 
Administrator for the Florida Department of Children and 
Families, I have the responsibility for child welfare in 14 of 
Florida's 67 counties. As you know, Florida is a large and 
diverse State, with a census of more than 16 million people, 
and almost 4 million children ages 0 to 17. Over the past 10 
years, I have enjoyed a rich experience, employed first as a 
protective services counselor, a child abuse investigator, a 
supervisor, a multi-county administrator, and ultimately, as 
statewide policy director. It has been my privilege to hold 
those positions within the State of Florida.
    On April 25, 2002, the Florida Department of Children and 
Families revealed that a child, 5-year-old Rilya Wilson, had 
disappeared 15 months earlier from her custodial home in Miami, 
and had not been seen since. Governor Jeb Bush immediately 
called for a full accounting of all children in our custody and 
under our supervision. The task, seemingly simple, was not. The 
complexity of aggregating the records of 48,000 children 
regarding their respective placement and visitation information 
was immense. We had children across 67 counties--Florida is one 
of the largest States in this country.
    We had recently converted all of our child records to 
SACWIS, known as HomeSafenet in Florida--our local solution. As 
a new system, the utilization of HomeSafenet varied across the 
State, and therefore could not be relied upon to accurately 
depict the performance of our current system. This would be a 
major turning point in the history of our department. Faced 
with a growing public expectation, we would struggle to answer 
demands on the status of the children under our care, and the 
status of Rilya Wilson. This would be the last time the 
department relied on manual tallies to report on the status of 
more than 40,000 children in our care. Again, the task was 
immense.
    Today, little more than 1 year later, every case manager, 
supervisor, and manager can determine with the touch of a 
button which children have been seen, by whom, and the outcome 
of that contact. More important may be the children who have 
not been seen during that period. Tragically, this 
functionality was made available just weeks before the 
realization that the assigned case manager failed, for more 
than a year, to visit Rilya Wilson. Had this type of data 
collection and management been available and utilized, perhaps 
the tragedy of Rilya Wilson could have been avoided.
    Historically, data routinely collected in child protection 
was collected primarily to satisfy required submissions to 
AFCARS and the National Child Abuse and Neglect Data System, 
our Federal reporting data systems. This data largely includes 
aggregate demographic information and outputs. It does little 
to characterize the experience of children in our care and the 
quality of our work. It does nothing to facilitate the 
management of a caseload, or the supervision of multiple 
workers in a unit. On May 6, 2002, Governor Bush appointed a 
blue ribbon panel on child protection to examine Florida's 
child protection system. Many hearings were held, and on May 
28, 2002, the panel presented its final report to the Governor. 
This same report, which was submitted by Representative Mark 
Foley, was presented to this Subcommittee on November 6, 2003.
    The panel found that the case manager and supervisor 
responsible for the case management of Rilya Wilson were 
derelict in their duties, and that a system to assure that case 
managers are visiting their charges was absent. On November 6, 
2003, Representative Robert Andrews asked in this very 
Committee, ``Who is watching the watcher?'' The blue ribbon 
panel in Florida asked, ``How do you know what is really 
happening in the field?'' The questions are the same, and the 
answer for almost our entire history has rested on the 
diligence of case managers, supervisory oversight of hard copy 
files and workers, and quality assurance reviews on a minuscule 
number of cases.
    I have likened that very scenario to--given our quality 
assurance assets--taking Polaroids in the Grand Canyon. You 
just cannot know exactly what is going on. It was apparent to 
me in my own experience as a frontline supervisor that under 
the best conditions, fully staffed, with manageable caseloads, 
I would not be able to follow hundreds of hard copy files and 
workers, or the thousands of decisions that they make every 
day. Our solution is multi-pronged. We are raising the 
visibility of key casework activities via information systems 
to all levels of the organization, while engaging community 
partners to serve as a system of checks and balances.
    The Children and Family Services Review is an important 
opportunity and first step to evaluating quality in child 
protection. Imagine if qualitative elements of child protection 
were gathered in SACWIS projects across all States. Program 
improvement plans would become manageable in real time, and 
analysis of performance would be based on 100 percent of 
children's experience, not on the sampling of a few files. 
However, this matters little if case managers and supervisors 
are not provided the tools to guide them through structured 
decisionmaking, facilitate supervisory review and feedback, 
increase accountability, increase access to other data sources, 
increase mobility of the workforce, and manage their own 
destiny by preventing mistakes in the first place.
    Now, more than ever, we will rely on tools to monitor 
outcomes, identify high performance, and protect Florida's 
children. In the past year, 95 percent of the children in our 
custody or under supervision were visited monthly. The number 
of investigations open for more than 60 days have been reduced 
from 32,000 to less than 500. It is my opinion that child 
protection work ranks among the most difficult in this country. 
It is not dissimilar to the work environments faced by fire, 
police, and military personnel--men and women forged by their 
experiences, and driven by their commitment to the mission. 
This is true enough in my own experience. Yet child protection 
generally faces incredibly high turnover rates, a lack of 
fraternity, and a lack of the necessary tools widely enjoyed by 
other responders. We recognize that parents have to be 
responsible for their children. However, we believe that 
through increased community ownership we have an opportunity to 
prevent children from removal, stabilize families without 
lowering the bar for safety, and improve both the delivery and 
accountability of services. I thank you for the opportunity to 
comment on this most important subject.
    [The prepared statement of Mr. Watkins follows:]
    Statement of Michael A. Watkins, Deputy District Administrator, 
 District 2, Florida Department of Children and Families, Tallahassee, 
                                Florida
    Chairman Herger, Congressman Cardin and members, thank you for the 
opportunity to appear before this subcommittee of the Ways and Means 
Committee in order to discuss improvements on the monitoring of 
vulnerable children. Monitoring is an important and critical component 
of protecting children, and I commend the committee for this review. I 
submit the following written testimony for your consideration.
    As the Deputy District Administrator for the Florida Department of 
Children and Families, I have responsibility for the administration and 
supervision of multiple programs, including child welfare, for fourteen 
of Florida's sixty-seven counties. As you know, Florida is a large and 
diverse state with a census of more than 16 million people of which 3.8 
million are age 0-17 years. Over the past ten years, I have enjoyed a 
rich experience employed as a protective services counselor, child 
abuse investigator, front-line supervisor, multi-county administrator 
and statewide policy director. It has been my privilege to hold each of 
these positions within the State of Florida and I believe this 
experience provides me a unique perspective of the children and 
families of Florida that are most needy and the people that serve them.
    On April 25, 2002 the Florida Department of Children and Families 
revealed that a child, 5 year old Rilya Wilson, had disappeared 15 
months earlier from her custodial home in Miami and had not been seen 
since.
    Governor Jeb Bush immediately called for a full accounting of all 
children in our custody or under our supervision as well as the means 
to positively identify each and every child under state supervision.
    The task, seemingly simple, was not. The complexity of aggregating 
the records of 48,000 children regarding their respective placement and 
visitation information was immense. We had recently converted all child 
records to a statewide-automated child welfare information system 
(SACWIS) known as HomeSafenet in Florida. As a new system, the 
utilization of HomeSafenet varied across the state and therefore could 
not be relied upon to accurately depict performance. This would be a 
major turning point in the history of our Department. Faced with a 
growing public expectation, we would struggle to answer demands on the 
status of the children under our care and the status of Rilya Wilson. 
We were dependent on hard copy documentation and the diligence of more 
than three thousand case managers and their respective supervisors. 
This would be the last time the Department relied on manual tallies to 
report on the status of more than 40,000 children in our care.
    Today, little more than one year later, every case manager, 
supervisor and manager can determine with a touch of a button when 
children have been visited, by whom and the outcome of that contact. 
Supervisors and managers can determine effortlessly caseload 
distribution, how long each child has been in care, the number of 
placements the child has experienced, pending court dates, and more.
    Tragically this functionality was made available just weeks before 
the realization that the assigned case manager failed, for more than a 
year, to visit Rilya Wilson. Had this type of data collection and 
management been available and utilized, perhaps the tragedy of Rilya 
Wilson could have been avoided.
    Historically, the only data routinely collected was done so to 
satisfy required submissions to the Adoption and Foster Care Analysis 
and Reporting System (AFCARS) and the National Child Abuse and Neglect 
Data System (NCANDS). This data largely includes aggregate demographic 
data and outputs. For example, the number of children served by race, 
age, gender, etc. and did not characterize the experience of children 
in our care or the quality of our work.
    The Governor knew that the details of Rilya's case and the 
``system'' needed more scrutiny. On May 6, 2002, Governor Bush 
appointed a Blue Ribbon Panel on Child Protection to examine Florida's 
child protection system. Many hearings were held and on May 28, 2002 
the panel presented its final report to the Governor. The same report 
Rep. Mark Foley (R-FL) presented to this subcommittee on November 6, 
2003.
    The panel found that the case manager and supervisor responsible 
for the case management of Rilya Wilson were derelict in their duties 
and that a system to assure that case managers were visiting their 
charges was absent.
    On November 6, 2003, Rep. Robert E. Andrews (D-NJ) asked the 
question, ``Who's watching the watcher?'' The Blue Ribbon Panel asked, 
``How do you know what is really happening in the field?'' The 
questions are the same and the answer for almost our entire history has 
solely rested on supervisory oversight of hard copy files and quality 
assurance reviews on a miniscule number of cases.
    It was apparent to me as a front line supervisor that under the 
best conditions, fully staffed with manageable caseloads, I would not 
be able to follow behind hundreds of hard copy files on a daily basis 
and was less likely to recognize or detect any trends of performance. 
This scenario has been and remains the status quo in social service 
agencies across the nation. Almost all data collected are for federal 
reporting purposes with little to no return on effort for case managers 
and supervisors.
    Child protection supervisors and managers generally have not been 
given the necessary tools to manage cases and unfortunately, the 
consequences are grave. Those unacceptable consequences are why 
Governor Bush and the Florida Legislature have invested time and 
resources toward developing the quality and integrity of the systems we 
use in ensuring that the children in our care are tracked.
    Our solution is multi-prong. We are raising the visibility of key 
casework activities via information systems to all levels of the 
organization while engaging community partners such as service 
providers, education, Guardians ad Litem, foster care review boards, 
and other organizations. to serve as a system of checks and balances.
    The Department of Health and Human Services' Children and Family 
Services Review (CFSR) is an important opportunity and first step to 
evaluating quality in child protection. In Florida, our progress in 
development of information systems was recognized as a strength during 
this review process. We agree and have identified every performance 
element that can be measured via HomeSafenet in order to achieve 
continuous improvement in child safety, permanency and well being.
    Imagine if qualitative elements of child protection were gathered 
in SACWIS projects across all states. Program Improvement Plans would 
become manageable in ``real-time'' and analysis of performance would be 
based on 100% percent of the children served versus a sampling of as 
few as 50 file reviews every 2-5 years.
    Today we continue to develop HomeSafenet in order to guide 
casemanagers through structured decision-making processes, facilitate 
supervisory review and feedback, increase accountability, increase 
access to other data sources and mobilize the workforce.
    In August 2002, Jerry Regier was appointed Secretary of the 
Department of Children and Families and he began his duties on 
September 3. His first progress report to the Blue Ribbon Panel was 
made on September 23, 2002. There would be no honeymoon period. 
Secretary Regier immediately focused the department on identifying 
systemic changes that would advance four principles:

        Ensuring Safety of the Most Vulnerable
        Stabilizing the Department's Workforce
        Increasing Accountability
        Prevention of Crises Before They Happen

    These changes--important overall and also necessary for the 
transition to Community Based Care--rely on the development of local 
service delivery systems built on natural community supports, a 
holistic approach to child welfare, and major emphasis on Substance 
Abuse and Mental Health. This fundamental change, directed by the 
Governor and the Florida Legislature, rejects the premise that 
government alone can meet the needs of children and their families. 
This change requires a strong community ownership. This statewide 
transition is scheduled to be complete in 2004. Now more than ever we 
will rely on tools to monitor outcomes, identify high performance and 
protect Florida's children.
    In the past year,

    <bullet>  95% of the children in our custody or under supervision 
were visited monthly with improvement in the quality and interaction 
between the counselor and child. For those children not seen each 
month, we identify and prioritize them for verification of safety and 
well being.
    <bullet>  90% of fingerprints and birth verifications have been 
obtained for children.
    <bullet>  Runaway episodes and recovery of runaways has improved 
significantly, largely attributable to the improved relationships with 
law enforcement agencies. The partnership forged during the past year 
between the DCF and the Florida Department of Law Enforcement continues 
to produce results which benefit not only current runaways, but 
troubled children on the brink of leaving.
    <bullet>  Investigations open longer than the state legislated 60 
days were reduced from 32,000 to less than 500, dramatically reducing 
caseloads for child abuse investigators.
    <bullet>  HomeSafenet was improved to better support the needs of 
front line workers and supervisors.
    <bullet>  HomeSafenet functionality was supplemented by the 
statewide deployment of the Child Safety Assessment decision support 
tool. (This on-line safety assessment is a structured decision support 
tool that guides investigators in gathering and documenting all 
information needed for key decisions. It also facilitates the 
supervisory review of investigator activities and management of key 
performance standards.)
    <bullet>  A Program Improvement Plan (PIP) was developed and 
accepted by the Department of Health and Human Services as a result of 
our Child and Family Services Review (CFSR). (Workgroups throughout the 
state are implementing the PIP locally with a great deal of statewide 
oversight and support.)

    The Department remains committed to its approach to reform child 
protection in Florida. We are actively pursuing these goals.

    <bullet>  Prevention of Child Maltreatment
    <bullet>  Reduction in the Number of Children in Out of Home Care
    <bullet>  Increase Number of Adoptions
    <bullet>  Successful Implementation of the Program Improvement Plan
    <bullet>  Successful Transition of Services to Community Based Care
    <bullet>  Successful Completion of SACWIS

    It is my opinion that child protection work ranks amongst the most 
difficult in our country. It is not dissimilar to work environments 
faced by fire, police and military personnel--men and women, forged by 
their experiences and driven by their commitment to the mission. This 
is true enough in my own experience. Yet, child protection generally 
faces incredibly high turnover rates, a lack of fraternity and 
necessary tools widely enjoyed by other first responders. Our more 
recent experiences with smaller community working groups are creating a 
shared commitment for these difficult jobs.
    However, we recognize that all of our tools will never replace the 
individual responsibility of parents to act within the guidelines of 
law, within the laws of morality, and within the morals of human 
relationships.
    We believe that Florida is well on the road to true reform of the 
child welfare system. Through this increased community ownership we 
have a unique window of opportunity to prevent children from removal 
from their families without lowering the bar of safety, and to improve 
both the delivery of services and the accountability for those 
services.
    It is important to remember that the improvements Florida has 
made--and continues to make--are elements with but one purpose in mind: 
to ensure the future of Florida's vulnerable children.
    I thank you for the opportunity to comment on this most important 
subject.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Watkins. We will now hear 
from Mr. David Springett, President of the Community College 
Foundation.

    STATEMENT OF DAVID R. SPRINGETT, PH.D., PRESIDENT, THE 
      COMMUNITY COLLEGE FOUNDATION, SACRAMENTO, CALIFORNIA

    Mr. SPRINGETT. Thank you very much, Mr. Herger, Mr. Cardin, 
and Members. The Community College Foundation is a nonprofit 
foundation with its headquarters in Sacramento, California. The 
Foundation has served education and the community for more than 
20 years. We provide a wide variety of education and public 
service programs distinguished by the effective and innovative 
use of technology and program management. I will discuss 
solutions to a problem that impacts thousands of foster youth, 
and costs the government an estimated $1.5 billion per year. I 
would like to set the scene by quoting from an article that was 
recently posted on the Connect for Kids website.
    ``Nickie, a 15-year-old in Silver Spring, Maryland, didn't 
start her new school on time this year. Administrators wouldn't 
let her enroll because her health and academic records were not 
up to date. When she started a few days after her peers, she 
had already missed out on introductions and assignments. She 
didn't have her textbooks and her name had not been added to 
the free lunch program. Hungry and too embarrassed to bring 
attention to herself, she skipped a meal, and spent her first 
schoolday feeling sad and alienated. Like many of the estimated 
500,000 children in foster care in the United States, Nickie 
has moved from home to home, and school to school, all her 
life. Her academics and her health have suffered; she runs the 
risk of dropping out of school, which kids in foster care do at 
twice the rate of other children.''
    On average, foster youth move three times per year, and 
their critical health and education records do not follow. The 
ePassport links foster youth to their critical life data as 
they move through the foster care system. We have created a 
youth-centered system, as opposed to an organization-centered 
system. The ePassport system empowers the foster youth and 
their care givers by providing them with a secure, portable 
link into their personal records. We have done this through a 
blending of three technologies: smart cards, computer 
databases, and the Internet. The ePassport contains critical 
contact information, school course records, and immunization 
and summary medical history--including medication and allergy 
information. Also included is a record of the readiness of the 
youth to leave care and start a useful and productive life. 
Examples of the records are seen on pages 6, 7, and 8 of my 
written testimony.
    While we wish to empower the foster youth and their care 
givers, precautions must be taken to ensure the confidentiality 
and security of their critical life data. The ePassport is a 
secure system based on the smart card technology. The data on 
the smart card and the data on the local computer are 
automatically synchronized over the Internet to a main server, 
so you never lose the data. Smart cards have a unique 
identifier and are password protected. There are added security 
elements, including a photograph in the cards, and biometric 
capabilities. All of the data files are encrypted. The smart 
card system is superior to Internet-only systems because the 
card stays with the youth at all points of care, regardless of 
the Internet connection being available or not. Since a smart 
card is in the form of a credit card, it can act as a monetary 
instrument, as well as a data storage and security device.
    To avoid duplicative efforts, ePassport has the capability 
to import and export data between existing systems, such as 
SACWIS. The ePassport is complimentary and additive to the 
SACWIS system. Some additional benefits of ePassport are that 
the youth do not have to stay out of school for lack of 
immunization data or school records; there are no unnecessary 
re-immunizations, and no accidental allergic reactions because 
of unknown preexisting conditions or medication interactions. 
It also aids the adoption process by timely provision of key 
life data. After leaving care, the records could be maintained 
indefinitely for emancipated youth, so that they can use those 
records for job seeking and other requirements.
    We plan to provide a 24/7, 1-800 number, call-in access for 
emergencies. We currently have deployed the ePassport system in 
several locations in California, and we are seeking support to 
extend its use to other localities. In summary, ePassport is a 
secure, portable, Internet-based health and education data 
system based upon the smart card. It provides foster youth and 
their care givers a secure, portable link to the critical data 
that they need to better their chances of becoming productive 
citizens. The smart card system empowers the youth for life, 
with their own data in and out of care. Currently, because of 
the lack of timely and complete data, duplicative services cost 
governments an estimated $1.5 billion annually. Thank you very 
much; I appreciate the opportunity.
    [The prepared statement of Mr. Springett follows:]
   Statement of David R. Springett, Ph.D., President, The Community 
               College Foundation, Sacramento, California
                   The Community College Foundation's
                         Foster Youth ePassport
                           EXECUTIVE SUMMARY
      Improving the chances of success for America's foster youth.
The Problem
    Foster youth records are incomplete, lost or disbursed among the 
various agencies that serve our nation's foster children

    <bullet>  Estimated $1.5 billion is spent annually on duplicative 
services
    <bullet>  Foster youth move an average of three times annually, 
records do not follow at the same pace
    <bullet>  Incomplete records result in over immunization, poor 
follow-up for health conditions, delayed enrollment in school and 
missed opportunities to address educational needs
The Solution
    Foster Youth ePassport is a secure, portable Internet-based health 
and education data tracking system delivered via Smart Card. ePassport 
simultaneously updates and manages records in real-time format through 
our secure patented synchronization technology. Youth data from other 
database systems is securely exchanged through a Data Exchange Server.

    <bullet>  Compatible and complimentary to Statewide Automated Child 
Welfare Information Systems (SACWIS)
    <bullet>  Maintain critical youth information
    <bullet>  Information is accessible 24/7
    <bullet>  Prevents over immunization, medication interactions and 
misdiagnosis
    <bullet>  Allows educational testing, placement & achievement data 
to accompany student from school to school
    <bullet>  Data from existing systems can be securely exchanged 
through a Data Exchange Server
    <bullet>  Allows database updates at any time
Current Activities
    <bullet>  Amador County: Successfully operating since October 2002 
with support from Child Protective Services, Foster Youth Services and 
the Probation Department.
    <bullet>  TCCF Los Angeles: Operating since May 1998. Foster youth 
are enrolled in ePassport, tracking their participation in ESTEP and 
ILP programs.
    <bullet>  Antelope Valley: Operating since November 2002 with 
support from Murrell's Community Service Agency, UCAN, Inc and Macro 
Group Home, Inc.
Benefits
    <bullet>  Foster Youth--Reduce delays in school enrollment, 
complete accessible documentation for enrolling in school or applying 
for work, improved medical care; no over immunization; provides smooth 
transition to emancipation. Plus, improved outcome tracking.
    <bullet>  Government (Federal, State, County)--Records available to 
appropriate entities; reduction in duplicated efforts; consistent 
information across organizational boundaries; allows incentive 
disbursements via ePurse.
    <bullet>  Medical Community--Provides summarized medical records to 
medical care providers to improve health care for foster children.
    <bullet>  Educational System--Allows immediate, accurate placement.
    <bullet>  Service Agencies--Provides multiple agencies accurate 
information on eligibility and services provided.
Supporters
    <bullet>  The Child Welfare League of America, National Foster Care 
Coalition, Amador County Child Protective Services, Amador County 
Probation Department, San Joaquin County Foster Youth Services, Amador 
County Independent Living Program

    The Community College Foundation is the nation's leader in foster 
youth training and education. The Foundation has over 15 years of 
experience in foster youth programs.
                          PROGRAM DESCRIPTION
    Purpose: Implement ePassport<SUP>TM</SUP>, The Community College 
Foundation's foster youth record tracking system. ePassport is a 
secure, portable Internet based health and education data tracking 
system delivered via Smart Card. It will significantly increase the 
quality of life for foster youth and save millions of dollars in 
duplicative services and manual processes, meanwhile collecting 
meaningful outcome data to evaluate the plight of these youth.
    Vision: The Community College Foundation envisions ePassport 
complementing Statewide Automated Child Welfare Information Systems 
(SACWIS) and other existing databases to become the national repository 
for foster youth records. We currently have several successful pilots 
in counties throughout California. Each year an estimated $1.5 billion 
is spent on duplicative services for foster youth including over-
immunization, redundant medical treatment, manual record retrieval by 
health care practitioners, judiciary officials, school administrators, 
and other foster youth caregivers. ePassport eliminates these 
unnecessary expenditures by empowering the youth with the key to his or 
her complete, confidential and current information that employs a Smart 
Card. Currently, statistical information regarding foster youth is 
outdated and incomplete. The Community College Foundation would be the 
national databank of this information using ePassport.
Key Points
    <bullet>  ePassport will save millions of Federal and State dollars 
in duplicative services, over-immunization, manual record retrievals.
    <bullet>  ePassport will complement existing databases and SACWIS 
to become the most complete and up to date national databank for foster 
youth statistics.
    <bullet>  The Community College Foundation has worked to improve 
the quality of life for foster children since 1983. We have served more 
than 100,000 foster youth in California.
    <bullet>  Caregivers, advisors, school administrators, government 
officials, and health care providers will have necessary and current 
information available immediately.
    <bullet>  Foster youth will no longer have incomplete records 
resulting in over immunization, poor follow-up for health conditions, 
delayed enrollment in school and missed opportunities to address 
educational needs.
                               FACT SHEET
    Scope: The Community College Foundation uses ePassport to track 
medical, education and contact information for foster youth, thus 
empowering government officials, caseworkers, and foster youth with the 
ability to manage records instantaneously in a portable, secure format 
via Smart Card. The types of foster youth data that is collected 
includes:

    <bullet>  Contact Information
    <bullet>  Immunization history
    <bullet>  Emergency medical information
    <bullet>  Basic medical history
    <bullet>  Allergies & medication
    <bullet>  Educational records
    <bullet>  Outcome Measurements
    <bullet>  Insurance information
    <bullet>  Services provided
    <bullet>  Demographic detail
    <bullet>  Care providers
    <bullet>  Current photo of the youth

    ePassport assigns levels of access rights to individuals that would 
only allow them to access or update relevant information. For instance, 
medical providers would add and update medical information, but they 
would not have access to update or view education records. The database 
administrator controls access to the specific information tabs.
    Present Initiative: The Community College Foundation has invested 
over $750,000 to develop and implement ePassport. New pilots will be 
chosen to participate in this initiative will provide the most 
comprehensive testing of the system in the varied and dense 
populations. Each of the projects will take two to three years to 
implement and evaluate.
    Implementation: Our efforts began in California where The Community 
College Foundation is the leader in providing foster youth services. We 
have relied upon our thorough knowledge of the foster youth community 
to develop ePassport. With additional funding we would be able to 
expand our efforts. Future pilots would focus on three to five urban 
areas with dense foster youth populations in order to take advantage of 
existing infrastructure and economies of scale. In the first year of 
the program, we would lay the groundwork for future large scale pilots 
by conducting smaller pilots, training, developing a relationship with 
the foster care communities, and presenting ePassport to relevant 
parties.
    Outcomes: A primary goal of ePassport is to provide meaningful 
outcome data on foster youth as directed by the Chafee Foster Care 
Independence Act of 1999. The type of outcomes we collect are: Self-
sufficiency, Knowledge and Skills, Social supports, High risk 
behaviors, Physical and Mental Health, Self Perceptions.
    Partnerships: To provide a holistic approach to foster care, the 
Community College Foundation must partner with the entities that are 
important in the lives of foster youth. These entities hold crucial 
information for the foster youth such as education and medical records, 
the status of their benefits and what services they receive, who their 
care provider is, court records, and basic personal information (i.e., 
birth date, social security number).
    Partners include: schools, hospitals, physicians, and government 
agencies (i.e., courts and social services), and foster youth and their 
caregivers.
    Listed below is the data that each group records and tracks:

           Schools--course work, Individual Educational Plan (IEP), 
        grades, GPA and contact information, and school/teacher notes.
           Hospitals/Physicians--emergency medical, type of medical 
        coverage (insurance), basic medical history (i.e., prescribed 
        drugs, medical treatment, physician notes, and allergies).
           Dentist--medical coverage (insurance), medication, 
        allergies, and dental notes/history.
           Government Agencies--case worker, care provider, court 
        information, general information (i.e., birth date, Social 
        Security number, and photo), caseworker's notes, courses 
        completed, case number, medical doctor, allergies, medications, 
        disabilities, type of medical coverage, and services offered 
        and/or provided.
Current projects in California:
    Amador County: Successfully operating ePassport since October 2002 
with support from Child Protective Services, Foster Youth Services and 
the Probation Department.
    The Community College Foundation, Los Angeles: Operating since June 
1998, Foster youth are enrolled in ePassport, tracking their 
participation in ESTEP and ILP programs.
    Antelope Valley: Operating since November 2002 with participation 
from Murrell's Community Service Agency, UCAN, Inc and Macro Group 
Home, Inc.
                         COST BENEFIT ANALYSIS
    This document outlines the facts and basic assumptions used in 
order to extrapolate an estimated cost benefit of $1.5 billion of 
implementing ePassport This estimate covers savings on duplicative 
services and labor, and lost state and federal funding sources.
Cost Impact
    The numbers listed below (conservative estimates) illustrate the 
magnitude of the educational, medical and social impact as a result of 
the problems encountered by public service agencies due to incomplete 
and missing records.
                      Cost Benefit Analysis Table
            Annual Cost of Lost/Incomplete Foster Youth Data
                     Statistical Justification Data

 ANNUAL COST SAVINGS OF ePASSPORTTM IMPLEMENTATION IS AN ESTIMATED $1.5
                            BILLION EACH YEAR
------------------------------------------------------------------------
           Description of Cost                 Annual Cost  Estimated
------------------------------------------------------------------------
Educational System                                         $118,564,300
Facts                                                          Lost ADA
Total estimated U.S. foster youth
 population is 545,097.\1\
12% of foster youth population may have
 delays in enrollment of 2 or more
 weeks.\2\
33% of foster youth experience 3 or more
 placements with a 5.9 mean average.3, 4
Average Daily Attendance is $20 per day
 per student.
------------------------------------------------------------------------
Medical System                                              $42,692,748
Facts                                           Repetitive Immunization
Foster youth population 545,097.\1\
Average doctor visit is $48.\5\
Immunization shot is $9.\6\ (youth needs
 20 shots by the time they enroll in
 school & 24-26 by age 18) \7\
------------------------------------------------------------------------
Welfare System                                             $682,680,576
Fact                                                                   Cost of Public Assistance
33% of emancipated foster youth receive
 public assistance.\8\
TANF/Cal WORKS pays $521.00 (adult plus
 child) per month.\9\
TANF/Cal WORKS issues an average of $205
 in food stamps per family.\10\
TANF/Cal WORKS subsidizes housing at an
 estimated average $400.00 per month.\11\
TANF/Cal WORKS participants receive $60
 per month for transportation.\12\
------------------------------------------------------------------------
Correctional System                                        $683,599,606
Facts                                                                  Cost of Incarceration
25% of emancipated foster youth are
 incarcerated within 12 months of
 emancipation.\14\
$28,502 per year to incarcerate in the
 correctional system.\15\
------------------------------------------------------------------------
Lost Productivity                                           $11,512,320
Facts                                                                  Cost of Lost Productivity
50% of emancipated youth are unemployed
 because of dead-end low paying jobs.\16\
The annual earnings for a foster youth
 are $6,000.00 per year/$1,500 per
 quarter.\17\
The national poverty level is $7,890 per
 year.\17\
------------------------------------------------------------------------
TOTAL Annual Cost                                        $1,539,049,550
------------------------------------------------------------------------
For a complete analysis with footnotes contact The Community College
  Foundation (916) 418-5100.

        The following are selected screen shots from ePassport:
                  Figure 1. General information screen
[GRAPHIC] [TIFF OMITTED] 92985G.001

                     Figure 2. Immunization Records
[GRAPHIC] [TIFF OMITTED] 92985H.001

                     Figure 3. Educational Records
[GRAPHIC] [TIFF OMITTED] 92985I.001

                     Figure 4. Contact Information
[GRAPHIC] [TIFF OMITTED] 92985J.001

                  Figure 5. Outcomes Measurement Form
                          OUTCOMES MEASUREMENT

 
 
                Youth                      State ID             Age                Name         Date Form Filed
 
Christopher Phillip                        835903859082     15 Yrs. 3 Mos.    Barbara Walters   6/2/2003 2:50:00
 


------------------------------------------------------------------------
 
-------------------------------------------------------
                                                           YES       NO
                           1. I have demonstrated that                X
                           I know how to open a
                           personal bank checking and
                           savings account & am able
                           to write a check.
                           2. I have identified a                     X
                           caring adult in my life who
                           can be a trusted advisor.
                           3. I have submitted the                    X
                           name & contact information
                           of at least 1 adult who has
                           agreed to assist & advise
                           me regarding educational
                           opportunities, employment,
                           and/or vocational/career
                           decisions.
                           4. I have completed and                    X
                           received results from my:
                           Vocational Assessment/
                           Personality Inventory and
                           Ansell Casey Prescription
                           for Emancipation Readiness.
                           5. I (a senior in high                     X
                           school or equivalent) have
                           attended a workshop on
                           Financial Aid; completed a
                           FAFSA form, and heard about
                           available college resources
                           from an EOPS staff person.
                           6. I have completed an ILP        X
                           Housing Plan and have
                           identified an adult to
                           assist me with housing
                           options.
                           7. I have provided evidence                X
                           of having the following
                           documents:
------------------------------------------------------------------------
YES                NO       ..........................
X                         Social Security Card........
X                         Certified Birth Certificate.
                    X     DMV Identification Card
                           (with picture).............
X                         Educational Records
                           (transcripts)..............
                    X     Green Card/Proof of
                           Citizenship or Residence
                           (if appropriate)...........
                    X     Death Certificate of
                           Parent(s) (if appropriate).
X                         Medical Insurance...........
                    X     I have received Vital
                           Document Resource
                           Information & I know where
                           and how to obtain missing
                           documents..................
------------------------------------------------------------------------
                           8. I have completed a tour        X
                           of a community college
                           campus and am able to name
                           and describe two new
                           resources from the
                           following list:............
------------------------------------------------------------------------
X                         Recreational and Social
                           Activities.................
                    X     Vocational Education
                           Services and Career
                           Development................
X                         Student Services and Special
                           Programs...................
                    X     Health and Counseling.......
------------------------------------------------------------------------
                           9. I have shown proof of my       X
                           registration at the local
                           One Stop Center............
                          10. I have submitted the                    X
                           contact information for an
                           adult advisor who has
                           assisted me in accessing
                           the following computer/
                           Internet sites: vocational
                           training/career
                           opportunities, available
                           housing, college costs, and
                           job/employment.............
------------------------------------------------------------------------

                                                                 [GRAPHIC] [TIFF OMITTED] 92985K.002
                                                                 

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Springett. I see 
that the Majority Leader, the Honorable Tom DeLay, has now 
joined us. Mr. DeLay, we want to thank you for your longtime 
work in this area. I would like to recognize you for your 
testimony.

 STATEMENT OF THE HONORABLE TOM DELAY, HOUSE MAJORITY LEADER, 
    AND A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Mr. DELAY. Thank you, Mr. Chairman, Mr. Cardin, Mr. 
McCrery--and Mr. Foley is way down there at the end. I am 
sorry--I am a little bit winded. I thank you, Mr. Chairman and 
other Members. It is a privilege to come before you today and 
discuss improved monitoring of vulnerable children. In the wake 
of the recent revelations about starving and abused children in 
New Jersey, the Nation's attention has once again focused on 
our child protective system. It is a shame that it takes 
something like that to get us focused again--but it should get 
us focused. Since, for all of our Nation's unparalleled wealth, 
strength, freedom, and compassion, hundreds of thousands of 
America's foster children live their lives today in the cold 
shadows of neglect--without support, without stability, and, in 
many cases, without even love.
    Mr. Chairman, this is not an intractable problem. There are 
things we can do on the Federal level that make sense and have 
worked before, if only we have the will, on every level of 
government, to do them. In 1993, as you know, Congress started 
to have an effect. The Federal Government made a significant 
investment to encourage States to develop standardized 
electronic systems to track the whereabouts and well-being of 
foster children. This included the following: the reasons each 
child first came into foster care; the child's case plan; the 
State services to be provided to the children and their 
families; the length of time the child is to stay in foster 
care; and the number of placements and incidents of re-abuse.
    The Congress felt that integrated data collection systems 
would help child welfare workers to better monitor foster 
children and to address problems as they emerge rather than 
after we hear about them in the media. Between 1993 and 1997, 
the Congress spent at least $1.3 billion to encourage States to 
develop these systems; and now States receive open-ended 
matching funds from the Federal Government at 50 percent. In 
other words, whatever States have needed to spend over the last 
decade to bring integrated data collection systems online and 
up-to-date, the Federal Government has helped defray those 
costs, and continues to do so. With only anecdotal evidence 
about the success of these information collection systems, last 
year Senator Grassley and I suggested to GAO that they 
empirically examine the systems' reliability in the 50 States 
and the District of Columbia.
    The results, Mr. Chairman, were encouraging--but also, 
frustrating. Encouraging, because, as we had hoped, Congress' 
idea was a good one. According to the GAO report, State child 
welfare officials admit that operational information systems 
can help protect abused children, shorten the time to adoption 
or reunification, and prevent and investigate child 
maltreatment. Yet, unfortunately, the report also showed that 
only 29 States--29 States--were found to have operational data 
collections, with 22 only partially operational or not 
operational at all. Four States are not even pursuing a system, 
31 States are behind schedule, and 26 States report delays 
ranging from 2 months to 8 years.
    Further, it is worth bringing to the Subcommittee's 
attention the situation in New Jersey, where a recent abuse 
tragedy has been made public. There, the data collection system 
is 4 years behind schedule--4 years--and child welfare services 
maintain a preposterous 40 stand-alone, independent data 
collection systems. To state the frustratingly obvious, Mr. 
Chairman, our Nation's foster children are simply not being 
served by the States obligated to care for them. Therefore, I 
want to thank the entire Committee on Ways and Means, and 
Congressman Camp, along with you, Chairman Herger, and Mr. 
Cardin, for including in the recently passed Adoption Promotion 
Act of 2003 (P.L. 108-145) a provision to penalize States that 
do not report timely and accurate data to the Federal 
Government.
    No one can doubt the commitment of the American people and 
their government to the welfare of our Nation's foster 
children, but that commitment must be backed up by continued 
vigilance here in Congress. So, I thank you, Mr. Chairman, Mr. 
Cardin, and the Subcommittee, for holding this hearing today. 
It is vitally important that you do so. I thank you for your 
continued commitment to America's most vulnerable children.
    [The prepared statement of Mr. DeLay follows:]
Statement of the Honorable Tom DeLay, a Representative in Congress from 
             the State of Texas, and House Majority Leader
    Thank you, Mr. Chairman and members of the subcommittee.
    It's a privilege to come before you today and discuss ``Improved 
Monitoring of Vulnerable Children.''
    In the wake of recent revelations about starving and abused 
children in New Jersey's, the nation's attention has once again focused 
on our nation's child protection system.
    And so it should.
    For all our nation's unparalleled wealth, strength, freedom, and 
compassion, hundreds of thousands of America's foster children live 
their lives today in the cold shadows of neglect--without support, 
without stability, and in many cases, without even love.
    But Mr. Chairman, this is not an intractable problem.
    There are things we can do that make sense and have worked before, 
if only we have the will at every level of government to do them.
    In 1993, Congress started to.
    We created financial incentives for states to develop standardized, 
electronic systems to track the whereabouts and well-being of foster 
children, including the following:

    <bullet>  Reasons each child first came into foster care;
    <bullet>  The state's plan for them;
    <bullet>  The state services to be provided the children and their 
families;
    <bullet>  How long the child is to stay in foster care; and,
    <bullet>  The number of placements and incidents of re-abuse.

    The idea behind this action was that integrated data collection 
systems would help child-welfare-workers better monitor foster children 
and address problems as they emerge rather than after the damage had 
been done.
    Between 1993 and 1997, Congress spent at least $1.3 billion to 
encourage states to develop these systems, and now states receive open-
ended matching funds from the Federal Government at 50 percent.
    In other words, whatever states have needed to spend over the last 
decade to bring integrated data collection systems on-line and up-to-
date, the Federal Government has helped defray those costs.
    With only anecdotal evidence about the project's success, last year 
Senator Grassley and I requested the GAO to empirically examine the 
reliability of the child welfare data collection system in the 50 
states and the District of Columbia.
    The results, Mr. Chairman, were both encouraging and frustrating.
    Encouraging because, as we hoped, Congress's idea was a good one.
    According to the GAO report, state child welfare officials admit 
that operational information systems could help prevent abuse, shorten 
the time to adoption or reunification, and prevent and investigate 
child maltreatment.
    But unfortunately, the report also showed that only 29 states were 
found to have operational data collection systems, with 22 only 
partially operational or not operational at all.
    Four states are not even pursuing such a system.
    Thirty-one states are behind schedule, and 26 states report delays 
ranging from 2 months to 8 years.
    Further, it's worth bringing to the Subcommittee's attention the 
situation in New Jersey, where a recent abuse tragedy has been made 
public.
    There, the data collection system is four years behind schedule, 
and child welfare services maintain a preposterous forty stand-alone, 
independent data-collection systems.
    To state the frustrating obvious, Mr. Chairman, our nation's foster 
children are simply not being served by the states sworn to care for 
them.
    Therefore I want to thank the entire Ways and Means Committee--and 
Congressman Camp and Chairman Herger especially - for including in the 
recently passed Adoption and Promotion Act of 2003 a provision to 
penalize states that do not keep their child welfare records up to 
date.
    No one can doubt the commitment the American people and their 
government have to the welfare of our nation's foster children, but 
that commitment must be backed up by further action.
    I thank the Chairman and the Subcommittee for holding this hearing 
today, and for their continued commitment to America's foster children.

                                 <F-dash>

    Chairman HERGER. I thank the Majority Leader for taking the 
time to appear before our Subcommittee this afternoon. I 
understand that time constraints limit your ability to remain 
for questions. However, Members are advised that they may 
submit written questions for the record.
    Mr. CARDIN. If I might, let me just take a moment to thank 
the Majority Leader. He has been one of the real leaders in 
this country on keeping us focused on helping our most 
vulnerable children. If it were not for Tom DeLay, I don't 
think we would have been successful in the foster care 
legislation, and on the adoption legislation. I thank you very 
much for using your office to help foster children, and 
children being brought up for adoption. Now on this issue we 
are going to need your help again in order to move the system 
along.
    Mr. DELAY. I will be there for you, Mr. Cardin. Thank you 
for your comments.
    Chairman HERGER. Thank you, Mr. DeLay. Now to continue with 
our other witnesses, Mr. Fred Wulczyn, Research Fellow with the 
Chapin Hall Center for Children.

  STATEMENT OF FRED H. WULCZYN, RESEARCH FELLOW, CHAPIN HALL 
 CENTER FOR CHILDREN, UNIVERSITY OF CHICAGO, CHICAGO, ILLINOIS

    Mr. WULCZYN. Thank you, Chairman Herger, Congressman 
Cardin, and Members of the Committee. Thank you very much for 
inviting me to speak with you today. My name is Fred Wulczyn. I 
am a Research Fellow at the Chapin Hall Center for Children at 
the University of Chicago, where I direct the Multistate Foster 
Care Data Archive, the Nation's oldest source of multi-state 
data that tracks the placement experiences of children in 
foster care. All told, the Archive houses data from 15 States, 
covering in excess of 60 percent of the Nation's foster care 
population. We have been tracking for the last 10 years, 1.4 
million children who have experienced foster care placement in 
States as diverse as California, New Jersey, New York, 
Illinois, Ohio, Michigan, Alabama, Wisconsin, Iowa, and 
Maryland, among others.
    Due to our work with the Archive, we have developed a 
rather thorough understanding of the information systems that 
States have at their disposal. To give you an idea of the 
process, we actually get copies of the data set, rather than 
extracts, which are the usual form of transmitting data to 
third parties. I think that gives us a firsthand view of the 
nuts and bolts of how these data systems actually work. I 
mentioned New Jersey because, following the testimony you heard 
2 weeks ago, you may be surprised to hear that New Jersey 
actually has information assets. One panelist described the 
information system in New Jersey as something out of the stone 
age. I reference New Jersey for obvious reasons, but also to 
tell you that our experience in working with the New Jersey 
data system is somewhat different, and I would like to use that 
experience as background for my remarks today.
    There are really two points that I think have to be made. 
First of all, it is very difficult to generalize and say that 
States do, or do not, collect certain pieces of information 
without exception. Child welfare programs differ from State to 
State, and their information systems have to reflect that 
diversity. If there was one best way to serve vulnerable 
children, then we could minimize program diversity and simplify 
information gathering, but, unfortunately, that is not the 
case. Second, the real issue facing child welfare 
administrators and practitioners has less to do with data than 
with information and knowledge. To be sure, the foundation of 
information and knowledge is data. However, in my estimation, 
progress today is limited by our ability to transform data into 
information and knowledge. In the States with the most 
sophisticated information systems, it can be said that they are 
awash in data with a limited ability to use it. That seems to 
me to be the problem.
    With regard to what data States might collect in the 
future, one area that has been mentioned has to do with the 
issue of child well-being. The Federal system of outcome 
measures adopted for the Child and Family Service Review does 
not include any direct measures of child well-being; and it is 
fair to conclude that this reflects the state of affairs in 
most, if not all, States. It is not because States don't care, 
or their stakeholders don't care. It is that the issue of well-
being is a very complicated one, and it has to be approached 
with some circumspection. Another area of uneven data 
collection is in the area of case process. Caseworker visits, 
court process, service delivery, and administrative function 
such as case plan reviews, are recorded in some States and not 
in others; that is an area where improvement could start soon.
    How do States use the data? As I have mentioned, the big 
issue has to do with transforming data into information and 
knowledge. If you think about what happened with the Jackson 
family, the issue had less to do with not having any data--in 
fact, they had quite a bit of data. There were 38 visits by 5 
different workers. Not all of that was recorded, but it was 
direct observation of what was going on in the family. The 
failure there was a failure of interpretation, not a failure of 
data collection. What does this tell us? Transforming data into 
information that guides action is a human activity, and the 
skills needed to do that are a seriously neglected part of the 
repertory. The modern SACWIS system is a model of technology 
for capturing and storing data with extraordinary potential for 
producing information, but that potential is realized too 
infrequently.
    As I said, the second part of the problem is with the human 
capital issue. Before the utility of any data system can be 
realized, whether it is a legacy system or a SACWIS system, the 
human capital needed to use those systems has to be developed; 
and, as I said, it has been neglected. There are States with an 
enlightened leadership. They serve as models, and their 
activities should be replicated, but there is considerable work 
that needs to be done. In terms of new data collection, 
appropriate safeguards and existing sources of information 
should be linked to the fullest extent possible. That would 
lift some of the data collection burden. Although well-being is 
on everyone's mind, the scope of State responsibility regarding 
well-being from a developmental perspective is yet to be 
defined, and it is important that we be very deliberative about 
that.
    Fourth, for every new dollar invested by the Federal 
Government in support of data collection, we ought to invest 
one more dollar in the training of the workforce. Finally, what 
else can the government do? The focus in these hearings has 
been on State efforts to collect and use data. I think there 
are some steps that the Federal Government could take right 
away. With regard to the Child and Family Service Review, you 
may find it interesting to know that, although permanency is 
the principal outcome for children placed in foster care, there 
is no outcome in the Child and Family Service Review that 
measures the likelihood of leaving foster care for a permanent 
home. More can be said about these issues. The Child and Family 
Service Review is a good process, but there are some serious 
problems that need to be addressed. Thank you very much for the 
opportunity to speak with you today. I am available for 
questions.
    [The prepared statement of Mr. Wulczyn follows:]
 Statement of Fred H. Wulczyn, Research Fellow, Chapin Hall Center for 
           Children, University of Chicago, Chicago, Illinois
    Chairman Herger, members of the Subcommittee, thank you very much 
for inviting me to speak with you today. My name is Fred Wulczyn. I am 
a Research Fellow at the Chapin Hall Center for Children at the 
University of Chicago, an independent research and development center 
devoted to bringing sound information, rigorous analysis, and an 
independent perspective to the public debate about the needs of 
children and the ways those needs are being met. I want to thank you 
for the opportunity to address the issues that are the focus of this 
hearing.
    For more than 20 years, I have been conducting research using state 
data systems that monitor children who are abused and neglected and 
those children who are placed in foster care. Today, I direct the 
Multistate Foster Care Data Archive, the nation's oldest source of 
multistate data that tracks the placement experiences of children in 
foster care. The Archive houses data from 15 states, covering more than 
a decade of information. In some states, we are able to follow 
admissions to foster care as far back as 1983. All told, the Archive 
contains the placement histories of 1.4 million children. The states 
included in the Archive include California, New Jersey, New York, 
Illinois, Ohio, Michigan, Alabama, Wisconsin, Iowa, among others.
    Because of our work with the Archive, we have developed a rather 
thorough understanding of the information systems states have at their 
disposal. We have nuts and bolts knowledge of what are called legacy 
systems as well as the more modern SACWIS systems developed within the 
past decade. We are able to compare the strengths and weaknesses of 
state data systems. Our research in recent years has focused on the 
following: 1) the development of appropriate outcome measures that 
state and localities can use to monitor performance over time; 2) the 
development of appropriate statistical methods for understanding the 
impact of policy changes; 3) the development of projection techniques 
that permit near real-time performance monitoring; and 4) the 
development of techniques for integrating information from various 
sources into a comprehensive record of service involvement.
    When our work leads us to direct involvement with states, we work 
closely with state leaders such as William Bell in New York City, 
Sylvia Pizzini from California, and Larry Brown from New York State. In 
California and New York, we have supported the states in efforts to 
develop the capacity to monitor the performance of county child welfare 
systems using their existing data systems. In New York City, our work 
includes the design of information delivery systems that significantly 
expand access to information across child welfare organizations. 
Finally, in New Jersey, we are working with the Division of Youth and 
Family Services, the Settlement Panel, and the Rutgers University 
School of Social Work to maximize the utility of the information 
resources that exist in that state.
    Following the testimony you heard two weeks ago, you may be 
surprised to hear that New Jersey has information assets. Newspaper 
accounts have described the lack of information; the state has only 
recently moved to develop a SACWIS system and one witness two weeks ago 
characterized the computer system in New Jersey as something out of the 
``stone ages.'' I reference New Jersey for obvious reasons, but also 
because our experience working with the state's data system is somewhat 
different and I would like to use our experience in New Jersey as a 
backdrop for my remarks today.
    Before I address the questions that are the subject of today's 
hearing, I would like to point out the following. First, it is very 
difficult to generalize and say that states do or do not without 
exception collect certain pieces of data. Child welfare programs differ 
from state to state, and their information systems reflect that 
diversity. Even when states collect what appears to be the same 
information, detailed analysis often reveals important differences in 
the meaning of what is actually recorded. Moreover, to the extent these 
differences reflect state and local choices regarding the best way to 
address the needs of abused and neglected children, the Federal 
Government should assume a somewhat cautious position as it weighs 
whether to impose data collection requirements because doing so might 
reduce program diversity. If there were one best way to serve 
vulnerable children, then minimizing program diversity would be less 
worrisome. Unfortunately, that is not the case.
    Second, the real issue facing child welfare administrators and 
practitioners has less to do with data than with information and 
knowledge. To be sure, the foundation of information and knowledge is 
tied to data. However, in my estimation, progress today is limited by 
our ability to transform data into information and knowledge. In the 
states with the most sophisticated information systems, it can be said 
that they are awash in data with a limited ability to make sense of it 
all. In the past 10 years, I have met with hundreds of administrators 
and caseworkers who trying to comprehend the data that is already 
available. This is difficult work and adding data to the pile will not 
hasten the day when we can be sure the child welfare system has 
squeezed every bit of information and knowledge out of the data it 
already collects.
What data are states collecting to monitor care and supervision?
    With regard to the data states collect to monitor the care and 
supervision of children in foster care and adoption, it is easiest to 
organize a response using the federal outcomes to profile the current 
state of affairs. The National Child Abuse and Neglect Data System 
(NCANDS) is the source of federal data about safety (maltreated 
children). As of 2002, 42 states provided data for the ``child file,'' 
the most detailed record available. According to the latest report, 
those states represent nearly 85 percent of the population of 
maltreated children reported to state officials. States that provide 
NCANDS data do so by extracting information from their own information 
systems. Because the file submitted by states is an extract, it would 
be reasonable to conclude that the NCANDS data represents some fraction 
of the information available from their information systems. The NCANDS 
extracts include child- and report-level data regarding specific 
allegations, demographic attributes of the victim, information about 
the perpetrators, data that describes report-to-investigation response 
times, and the disposition. The detailed child record also includes 
historical information so that it is possible to identify children with 
a history of maltreatment. Most recently, the data submitted by the 
states includes information about services provided to maltreated 
children, but these data are available only from a subset of the states 
already providing NCANDS data.
    States monitor the permanency outcomes of greatest concern to the 
Federal Government--reunification, adoption, placement stability, and 
reentry--using a variety of data systems including SACWIS systems. 
Again, to understand the information states track in order to monitor 
permanency, it is useful to consider what states report to the Federal 
Government. The federal data source is the Adoption and Foster Care 
Analysis and Reporting System (AFCARS). As with NCANDS, the AFCARS data 
submitted by states are extracted from a larger database maintained by 
each state. The AFCARS data can be used to follow entries to and exits 
from care. To a more limited extent, the AFCARS data can be used to 
track placement stability and reentry. However, this particular problem 
is unique to the design of AFCARS and does not necessarily reflect what 
a state can do to track placement stability and reentry. I will return 
to this point later. Information about the child includes demographic 
data, administrative actions such as TPR, and reason for exit. Given 
that virtually all of the states provide at least some AFCARS data, and 
that the quality ofAFCARS data has improved over the years, it is fair 
to conclude that the underlying state capacity to track the experiences 
of children placed in foster care has improved.
    The one area that requires additional development is well-being. 
The federal system of outcome measures adopted for the Child and Family 
Service Reviews does not include any direct measures of child well-
being and it is fair to conclude that this reflects the state of 
affairs in most if not all states. This is not because states and other 
stakeholders are uninterested. Rather, the issue of well-being is a 
complex one, and deciding which data should be gathered and by whom are 
questions that remain largely unanswered. Right now, in the states with 
advanced data systems, tracking whether children attend school or see a 
physician represents the leading edge of practice in this area. These 
are not, however, measures of how a given child is doing in a 
developmental sense. Again, I want to return to this point a bit later, 
when I address what additional data might be collected in the future.
    Another area of uneven data collection is in the area of case 
process. Caseworker visits, court processes, service delivery, and 
administrative functions such as case plan reviews are recorded in some 
states. Of the improvements in data collection prompted by the SACWIS 
systems, the case process components are typically superior to those 
found in the older legacy systems. As a result, practice in this area 
is improving.
    With regard to the question about children in foster care and 
children who have been adopted, practice differs significantly and for 
good reason. Most if not all of what I have so far described pertains 
to children generally or foster children specifically. That is, the 
data collected about maltreatment pertains to all children. A child's 
status as an adopted child does not alter the information collected. 
Once a child has been adopted, how the child is tracked in their 
information system changes. From an information systems perspective, 
the historical record of an adopted child is retained. At the time of 
the adoption, a new record is started, but usually only if there is 
some type of post-adoption contact with the service system. States do 
track subsidy payments, but I have little familiarity with how states 
carry out that function. My impression is that payments are tracked as 
part of a state's fiscal system. If there is no future involvement with 
the child protection system, the recorded data will indicate as much. 
That is to say, there is no record for the child following the 
adoption, which is as it should be. The presumption when a child is 
adopted is that the child is in a family similar to other families. The 
state does not track the whereabouts of my children; adoptive families 
should have the same expectation. To do otherwise might have a chilling 
effect on the willingness of families to adopt.
How do states use data?
    Of the questions posed by the Committee for this hearing, this one 
is, I believe, the most important. Return for a moment to the testimony 
offered two weeks ago. According to witnesses, the Jackson family was 
visited 38 times by at least 5 different workers over a 4-year period. 
Although much of the data that was gathered during those visits was not 
recorded electronically, it would be off-point to conclude that there 
was a lack of data. On the contrary, there was a great deal of data 
available to at least a few people. That data was in the form of direct 
observation of the children, their surroundings, and the interaction of 
family members. In other words, the caseworkers had access to the 
sights and sounds of family life and for whatever reason did not use 
the data to formulate an appropriate plan of action. This is a failure 
of interpretation, not a failure of data collection.
    What does this tell us? The primary challenge at this moment in 
time has to with an issue I raised at the outset. In most if not all 
states with data systems, the challenge facing the child welfare system 
concerns the use of that data for decision support. Transforming data 
into information that then guides action is a human activity and the 
skills needed to do that are a seriously neglected part of the 
repertoire. We typically refer to SACWIS systems as information 
systems, but in truth data system is a more accurate description. The 
modern SACWIS system is model of technology for capturing and storing 
data, with extraordinary potential for producing information. Sadly, 
that potential is realized too infrequently.
    The problem is two-fold. First, there is the problem of structuring 
data so that information about children served can be distributed 
throughout the organization. The SACWIS systems are useful for 
capturing information about individual children, but a given child's 
history of service has to be understood in a context that relates their 
particular experience to the experiences of other children. Shaping the 
information in data systems so that it serves caseworkers is an 
engineering problem that requires greater attention.
    The second part of the problem has to do with human capital. In 
historical perspective, the child welfare system operated for a long 
time with little or no systematically collected information. Ten years 
ago there were relatively few states with information systems. The 
Foster Care Data Archive that I direct started in 1993 with 3 states. 
AFCARS data were first compiled less than a decade ago. State data 
systems are ahead of that curve but not by too much in most cases.
    The point is this. The first step is collecting the data; using 
data is the second step. For the most part, the skills needed to use 
information have to be acquired. In almost every state, a handful of 
individuals understand that data well enough to convert it into 
information. But on the frontlines, those skills are not yet widespread 
because the demand for those skills has only recently evolved. Before 
the utility of any data system can be realized--whether it is a legacy 
systems or SACWIS systems--the human capital needed to use those 
systems has to be developed. Technology companies that provide the 
hardware and software for businesses of all types will tell you that 
once the computers have been installed, ongoing support focuses on end 
user training, an investment that often approaches the initial capital 
investment.
    States are making progress. In California, the Department of Social 
Services working in conjunction with UC Berkeley and Barbara Needell 
have made significant strides producing information that stakeholders 
can use. In North Carolina, a group at UNC led by Lynn Usher with the 
support of the Casey Foundation, has worked closely with a group of 
states to build local capacity. In Illinois, Mark Testa has used the 
state's data systems to promote policy reform. Our own work (Chapin 
Hall) in New York City, New York State, California, Maine, New Jersey, 
and Tennessee is yet another indicator of the progress the states are 
making. Other states leading the way include Oklahoma, Kentucky, 
Kansas, and Washington. Finally, the American Public Human Services 
Association and the National Association of Public Child Welfare 
Administrators are working to establish a Center for State Foster Care 
and Adoption Data. Among other functions, the Center will house the 
research and development work needed to facilitate the use of 
information, bringing the latest technology to bear on the problem.
    In each of these places, the effort to expand the use of 
information is shaped by enlightened state leadership. Let me stress, 
however, that despite the considerable progress that has been made, 
there is considerable work that needs to be done before the use of 
information becomes an integral part of the skill set that is applied 
to decision making, at either the case level or the system level.
What additional data can states collect?
    I am somewhat ambivalent about my answer to this question. On the 
one hand, the long-term interest rests with expanding access to data 
that is systematically gathered, recorded, and applied to the decision-
making process. When data that describe basic casework processes 
(family visitation, caseworker visits, timeliness of investigations) 
are not available, steps have to be taken to correct the problem sooner 
rather than later. On the other hand, states are collecting data today 
that they do not use, so it is difficult for me to see how collecting 
more information solves one of the most basic problems. In some of the 
states where I have worked, the lag between when outcome data were 
first collected and when the data were used to understand what happens 
to children in foster case was more than 10 years.
    In light of what was known and not known about the Jackson 
children, I understand the need to evaluate whether additional data 
would have avoided what transpired. Understandably, attention has 
turned to whether access to data about the well-being of children would 
have improved decision making. As I suggested earlier, the question has 
several parts. The first has to do with the individual pieces of data 
that might be used to describe the well-being of children served by the 
child welfare system. The second part of the question has to do with 
assigning responsibility for collecting the data. When well-being is 
measured as height and weight, it is easy to imagine any number of 
people who might be able to accurately collect and record that data. 
Most other indicators of well-being, however, are much more nuanced, 
and require the involvement of trained professionals. Doctors and 
nurses, for example, are the professionals who should be evaluating 
child health and recording the data. The third question has to do with 
whether the data already exists in a dataset maintained by another 
public agency. In the interest of efficiency, too much redundancy 
(collecting the same piece of information more than once) is often 
counterproductive in the eyes of those individuals who have to gather 
the data. It may not be a question of gathering more data. The solution 
may be tied to better linkage between existing sources of data.
    What then about new data collection? I would advise the following. 
For children in foster care, data that capture whether a child is 
receiving health care and attending school is a useful place to start. 
Physician visits expand the circle of adults looking out for children. 
For children who are adopted, the situation is more difficult, as I 
mentioned. Without the active participation of the community, public 
officials may find it hard to know what is taking place in the privacy 
of a home. Even then, there is no guarantee that the community members 
will interpret what they see in the same way a professional would.
    Second, with appropriate safeguards, existing sources of 
information should be adapted to the fullest extent possible. Linked 
data provide a way to extend the data in one system with the data from 
another. The obvious sources of linked records are health care data and 
school data because the data in those systems represent health and 
educational outcomes. Other data sources including TANF and behavioral 
health can substantially improve our understanding of program 
utilization and well-being without adding new data collection 
responsibilities on the child welfare system.
    Third, although well-being is on everyone's mind, the scope of 
state responsibility has yet to be articulated. As I pointed out 
previously, there are no federal outcomes that directly measure well-
being. Before new data collection requirements are imposed on states, 
some time should be spent identifying the outcomes, defining the child 
welfare system's responsibility vis a vis those outcomes, and then 
deciding what data should be collected. To reverse these steps will 
only lead to frustration.
    Fourth, for every new dollar invested by the Federal Government in 
support of new data collection, one more dollar has to be spent helping 
states train their workforce on the use of that information as a 
decision support because the failure to invest in human capital 
diminishes the return on the original capital investment. This is 
especially important as well-being becomes a focus. Compared to safety 
and permanency related data, data that describe the well-being of 
children is much more difficult to comprehend in a practice context. 
Let me be more specific, it is easy to understand that a child lags 
behind on some measure of development. It is much harder to understand 
and document how child welfare interventions influence developmental 
trajectories.
    In this context, I would be remiss if I did not mention the need to 
support research and development. If the Federal Government provides $7 
billion to states for their foster care programs, an allocation of 1 
percent for research and development would yield $70 million. HHS 
recently announced discretionary grant awards totaling about $21 
million, some of which goes for purposes other than research. These are 
much needed funds, but the simple truth is that underinvestment in 
research and development is one impediment to progress.
What else can the Federal Government do?
    The focus of these hearings has been state efforts to collect and 
use data. In closing, I would like to shift the focus and consider 
whether the Federal Government is doing all that it can to promote the 
use of data. For the most part, the answer to that question is yes. The 
Child and Family Service Reviews (CFSR) represent real progress. The 
emphasis on both outcomes and process is a substantial improvement over 
the older system that relied almost exclusively on process measures of 
state compliance with federal mandates. In short, the basic structure 
of CFSRs has to be preserved.
    Having said that, some aspects of the reviews require attention. In 
the interest of brevity, I will point out a few of those issues. I have 
already provided a paper to the committee that provides more 
background.
    First, although permanency is the principle outcome for children 
placed in foster care, there is no outcome in the CFSR that measures 
the likelihood of leaving foster care for a permanent home.
    Second, the permanency measures that are being used cannot be used 
to measure performance changes over time. The problem has to do with 
the fact that the measures focus only on the children who leave foster 
care; the experience of those children still in care is not included in 
the measures.
    Third, the reentry measure does not evaluate the risk of reentry at 
the individual level.
    Fourth, the 50 case sample is too small to draw inferences about 
the quality of child welfare services, especially in large states.
    More can be said about the issues I have raised regarding the 
national outcomes. I have mentioned them in this context because the 
underlying issues typify the larger problem. Broad system improvements 
that benefit individual children depend on data. Having data is, 
however, one piece of a complex puzzle that includes using the data 
appropriately. The process of the CFSR is a good and important piece of 
that puzzle. The outcome domains that are defined by the process are a 
good and important piece of the puzzle, too. The devil in the details 
has to do with exactly how the outcomes are measured. If the outcomes 
as measured do not produce information managers can use to run their 
system, then the entire process is undermined. The CFSR really is only 
as good as its weakest link.
    My experience over the past 20 or so years tells me that 
considerable progress has been made on all fronts. There is, however, 
plenty of room for improvement. The story of the Jackson children is 
but the latest reminder. As you deliberate, I would ask you to remember 
that critical task facing the child welfare system has to do with 
converting data into useful information. Caseworkers, their 
supervisors, and the administrators who manage these complex systems 
will not make better decisions if the data in front of them cannot be 
transformed into information.
    Thank you very much for the opportunity to speak with you today. I 
am encouraged by the interest in and commitment to child welfare the 
Committee has shown over the years. Judicious investments in data, 
information, and knowledge will improve child welfare services to the 
benefit of vulnerable children and their families, the individuals who 
need our best thinking most.

                                 <F-dash>

    Chairman HERGER. Thank you very much. I would like at this 
time to recognize a Member of the full Committee who, without 
objection, will sit with us--the gentleman from Florida, Mr. 
Foley. With that, Mr. McCrery to inquire.
    Mr. MCCRERY. Ms. Ashby, we know that some States have not 
accessed any Federal funds so far for setting up a SACWIS 
system. Do you have any data or information regarding where 
those States are in terms of setting up a system that we think 
would be adequate? Are they behind--what is their situation?
    Ms. ASHBY. There are currently four States that are not 
developing or operating SACWIS. They are Hawaii, North 
Carolina, North Dakota, and Vermont. Three of those States have 
had difficulties unconnected with having a system in place that 
would not require them to need a SACWIS. Hawaii has a system in 
place that they have determined to be satisfactory for its 
needs--a system it does use to report to the Federal 
Government. Of the other three States, two have had trouble 
getting the funding to allow them to participate in SACWIS. Of 
course, SACWIS is a matching program, currently 50 percent 
Federal funds, and 50 percent State and local funds. The third 
State had difficulty getting an agreement within its borders as 
to what system would be best for the State--what system would 
best automate statewide processes. So, that is why that State 
does not participate in the SACWIS program. Of the four, only 
one apparently has a system that is adequate.
    Mr. MCCRERY. Mr. Watkins, you talked about the many 
improvements that have been made in Florida since the Wilson 
case. Looking at the systems you have in place today, and 
thinking about the New Jersey case, the Jackson boys, do you 
think that your system today would detect a case like the one 
which occurred in New Jersey? If so, which parts of your system 
would do that?
    Mr. WATKINS. One of the foundations of SACWIS is that it is 
statewide. When you have a community that is as diverse as 
ours--with 67 counties, with so many different providers of 
services, including law enforcement, who we contract for child 
abuse investigations in 5 counties--it is absolutely imperative 
that we have communication systems where every child is in the 
same database. I do think in this particular scenario, where 
you had what appears to be--in my limited knowledge of New 
Jersey's case--different workers at different times working on 
adoptions in a single home, information would have been more 
consistent in Florida today if that were to occur, and we would 
be able to avoid that.
    Mr. MCCRERY. Why would information be more consistent?
    Mr. WATKINS. For example, we have a very aggressive 
adoption program in Florida. We have children that have special 
needs that are adopted throughout the country, not just within 
Florida--and, of course, all across our 67 counties. Due to 
that, you may have different agencies working with a single set 
of parents adopting one child versus another, and, of course, 
you can see where it becomes very important to look at the 
whole picture of what the family dynamics are.
    Mr. MCCRERY. So, your new system does that? It links up?
    Mr. WATKINS. What I am suggesting is that in the past we 
would have had that same kind of liability because different 
counties wouldn't know what the others were doing. In a SACWIS 
environment, we would have a full picture of what the family 
constellation looks like.
    Mr. MCCRERY. Mr. Wulczyn, you have talked a little bit in 
your testimony about the difficulty that States have in 
collecting data that helps them to monitor kids in their care, 
while at the same time meeting Federal reporting requirements. 
Is this a big obstacle for States, or is it something that they 
should be able to accommodate?
    Mr. WULCZYN. Well, I can't speak for States directly. I 
think it is an obstacle. It can be overcome, but there has to 
be a focused effort to do so. Gathering data is the first part 
of the problem. The second part of the problem is engineering 
the data so it fairly represents what is taking place in the 
State; that it meets a variety of user requirements, such as 
reporting, local child welfare administration, supervisory 
caseworker, and decision support. That is an engineering 
problem that, just as with the data collection, requires focus 
and emphasis. That is also part of the equation; and thus far, 
it has been the neglected part of the equation.
    Mr. MCCRERY. So, you are in favor of both? You are in favor 
of the States doing both?
    Mr. WULCZYN. I think it is good and appropriate for the 
Federal Government to have an understanding of what is going on 
in State child welfare programs. I think to a very large 
extent, since the States are actually running the programs, 
their knowledge of what is going on should be supported to the 
full extent that it can be--but it requires commitment and 
focus.
    Mr. MCCRERY. Thank you, Mr. Chairman.
    Chairman HERGER. The gentleman from Maryland, Mr. Cardin to 
inquire.
    Mr. CARDIN. I want to address Mr. McCrery's question, 
because, Mr. Wulczyn, you have raised a very good point. You 
can have the best collection monitoring system, but is it 
useful in providing the tools necessary to assist a family that 
may be in crisis? Does it give you timely information? Are you 
able to respond? Does it give you the tools you need in order 
to properly manage your caseload? I am getting from your 
testimony that that may not be the case.
    Mr. WULCZYN. Well, it is very difficult to understand. 
Those are judgments and data. Electronic data removes much of 
the context that is important to those kinds of judgments. That 
is why I focused very much on the fact that there was data 
collection taking place in New Jersey--what had happened was a 
failure to interpret the data properly. The question is, having 
made that data electronic, would that have facilitated a better 
outcome? In some instances it will, and in some instances that 
is expecting an awful lot--and it removes the worker's 
judgment. I don't think any information strategy that removes 
or minimizes worker judgment is, in the long run, going to be 
productive for the system.
    Mr. CARDIN. There was a suggestion made at the last hearing 
that for those families who are getting assistance in adoption, 
there is a right of Congress to put certain monitoring or 
expectation requirements on how the States are handling those 
families. I think this also goes with the general issue. We 
provided technical assistance to developing and monitoring 
systems, but we really haven't done much to see how that 
information is utilized, other than making it available to us. 
Shouldn't we be looking at additional expectations here in both 
of those regards? I open it up to anyone who would like to 
respond to that.
    Mr. MCKEAGNEY. I will comment on that. The question about 
whether or not there should be additional monitoring of 
adoptive parents, I think, is one that is sensitive to most of 
us--the idea being that once parents have made a full----
    Mr. CARDIN. They are receiving special assistance from the 
Federal Government.
    Mr. MCKEAGNEY. I recognize that. We have always done 
eligibility reviews for those continuing subsidies of the 
Federal Government. Eligibility has been broadly interpreted in 
many programs in the past. I personally believe that it is 
appropriate to ask some broader questions about the continuing 
appropriateness of that subsidy. Eligibility should not be 
strictly a product of financial condition. I do think this is 
an area that would be extremely difficult to move into. I don't 
see a reason, however, why there shouldn't be face-to-face 
contact with adoptive families on a continuing basis. There is 
no substitute for human interaction in these relationships; and 
no information system in the world is going to solve that 
problem.
    Mr. CARDIN. Mr. Watkins, the fact that you have almost 500 
children that are listed officially as missing--I understand 
most of these children have been classified as runaways. My 
question is a follow-up on the last response: how did you make 
that determination? Has there been a direct interface between 
the department and the family to verify that these children are 
runaways, the circumstances in which they have run away, how 
long they have been missing, and what efforts have been made to 
locate them, and so forth. Is this an easy way for you to 
classify children where you don't know where they are?
    Mr. WATKINS. No. We have made those face-to-face contacts; 
and I would agree with the comment that there is no other thing 
that we can do greater than the actual event that occurs 
between the frontline worker and the child or parent. As of 
October 31st, there are 468 children that the State of Florida 
considers out of their placement. We break that down. Some 425 
are on runaway status, where we have information that suggests 
they have elected to leave their placement. There are 43 
additional children who are either endangered or have been 
abducted by someone.
    Mr. CARDIN. I guess my point is, in making that 
determination, do you have a process in place that requires--
was it a year later that you discovered a child was missing, 
and therefore classified the child as a runaway, or is there a 
process through which there is consistent responsibility of the 
caseworker to determine whether a child is at home or not?
    Mr. WATKINS. Yes, sir. We have one of the most aggressive 
contact levels, in terms of the frequency with which we have to 
contact the children. It is a monthly requirement. Every 
calendar month, the 48,000 children are to be contacted. Since 
the Wilson case, where we have been able to aggregate 
literally, and know exactly on a statewide level which children 
have been contacted and which have not, we have exceeded a 95 
percent contact rate each calendar month. For the other 5 
percent who have not been contacted, we have very stringent 
protocols in which we follow up with those children.
    Mr. CARDIN. What do you mean by contact?
    Mr. WATKINS. Face-to-face contact between the assigned 
caseworker and the child that is in the foster care system.
    Mr. CARDIN. Thank you, Mr. Chairman; and I would like to 
thank the witnesses for their testimony.
    Chairman HERGER. Now the gentleman from Florida, Mr. Foley 
to inquire.
    Mr. FOLEY. Thank you very much, Mr. Chairman. I welcome all 
those presenting today. This issue troubles me. It is more 
difficult to get a Blockbuster card than it is to gain access 
to a child in some States. Regrettably, we have heard a lot 
about technology today, but one of the underlying concerns that 
I have had since the New Jersey case appeared was the fact that 
in that State there were 38 visits by an agent of the State to 
the home of the Jacksons. Now, they claim that while they 
weren't looking at the Jackson boys, they were supposed to 
observe a girl in that family in the adoptive setting. That 
belies the problem. If you are there to observe the conditions 
in which a child is living, and you fail to observe four 
children starving, then are we inadequately training the people 
going into these homes?
    Some of the homes we asked these caseworkers to go into, 
you would have a difficulty convincing somebody with a 
bulletproof vest and two sidearms to enter. So, we have to 
recognize the stress we put these people under. What are we 
doing on the human element? We are not talking about training. 
Money doesn't seem to be a problem. I always hate when we have 
these problems. All of a sudden, everybody comes, we need more 
money--we need more this, we need more that. Yet $30,000 went 
to the Jackson family to watch children starve. The minister 
last week proclaimed the children were the guilty parties and 
the family provided a God-fearing, lovely home in which to 
raise children; and yet 38 visits occurred where no one sounded 
an alarm bell. Can someone identify what we are doing to 
improve the human training element, getting these people to 
observe these cases and provide a more positive response to law 
enforcement? Michael, if you would like to bat on behalf of the 
State of Florida.
    Mr. WATKINS. I would be glad to. In Florida, we are 
reexamining our training curriculum. We are going toward a 
community-based system of care, which means we are going more 
toward smaller working groups. I mentioned in my testimony 
about the lack of fraternity amongst the ranks of child 
protection. We believe that smaller working groups will bring 
an organizational identity that brings more commitment to their 
job. We will have a localized training system with a minimum 
core curriculum that is provided by the State. We absolutely 
have to focus people on those very things--the family 
constellation. You cannot do child protection, child welfare 
work--whatever name you want to call it--without considering 
all the elements of a family. If you are in a system that only 
focuses on child decisions, and does not have a family focus, 
then you are going to continue to fail.
    Mr. FOLEY. You mentioned aggressive placement of children. 
Does that aggressive placement of children lead to a rush to 
place rather than securely placing?
    Mr. WATKINS. In Florida, I hope that is not the case. 
Certainly we have been asked, and we have been incentivized by 
the State, to increase our number of adoptions by the Federal 
Government. That is something we believe in--something our 
State legislature has charged us to do. We have protocols, an 
assessment process to make sure that we are making the proper 
decision up front, so that in a post-adoption environment, we 
don't have to worry about the decision going bad. One of the 
things I would offer, however, is that an adoptive family is no 
different than any other family that lives next door to you and 
doesn't involve adoption. We have child protection systems and 
investigative processes to go out and ensure their safety. We 
believe that therein lies the assessment process.
    Mr. FOLEY. Well, I visited with our agency in Tallahassee, 
and I must commend the Governor and the agency for recognizing 
a serious flaw in the program. So, I commend Florida for its 
aggressive pursuit of getting to the bottom of the problem. Can 
anybody else comment on the human element involved here--how we 
can help expedite successful placement?
    Ms. BAKER. I would like to say something about that. In 
Norfolk we have two things: we have a contract with our local 
university's Master of Social Work (MSW) program, and we are 
implementing a training academy that focuses on those very core 
subjects of investigation, child development, and things that 
we need to be aware of. We want, across the board, all of our 
workers--from new to our more experienced workers--receiving 
the same types of training. In addition, we have also recently 
implemented structured decisionmaking, which is a research-
based risk assessment tool. This helps us have consistency 
across the board in what workers are seeing in homes, and how 
they are assessing the risk level these children remain at when 
they are left in the homes. That has just recently been 
implemented, but across--there are 19 other States who have 
also implemented this, and there has been some excellent 
outcomes with structured decisionmaking as well.
    Mr. FOLEY. What is the pay level for someone who is willing 
to risk their life to go into these homes?
    Ms. BAKER. Not enough. For an entry-level social worker, 
$27,000.
    Mr. WATKINS. Florida is $30,000 to $34,000.
    Mr. FOLEY. Is there an increase if they receive higher 
degrees of learning, such as an MSW?
    Ms. BAKER. Not necessarily with an educational increase, 
but if they are promoted to social worker two or three level, a 
lot of that is connected to education.
    Mr. WATKINS. The same is true in Florida. We have a 
competency-based system where you are able to progress.
    Mr. FOLEY. I am proposing a bill to allow social agencies 
to use the National Crime Information Center computer system to 
determine the fitness of adoptive parents. Would it be helpful 
to be able to access criminal records of those who would seek 
to adopt?
    Ms. BAKER. We currently do that.
    Mr. FOLEY. I understand some States aren't doing that.
    Mr. WATKINS. We use it for placement purposes only. We 
don't use it as an investigative tool. We think that that has 
some application.
    Mr. FOLEY. You will use it in determining the fitness of an 
applicant to become a foster parent?
    Mr. WATKINS. Yes, sir.
    Chairman HERGER. I thank the gentleman from Florida, Mr. 
Foley. Our purpose today is to better understand if States are 
doing all they can to ensure safety for children in their care. 
The main point that I have taken from all of your testimony is 
that while States have come a long way in developing these 
systems, they still have a considerable way to go. However, it 
also seems that the problem may not be a lack of data; rather 
the problem may be that the States are not using the data they 
currently collect. So, my question here is intended to help us 
understand what more needs to be done to encourage both the 
collection of, and the proper use of, these data to monitor 
kids. Ms. Ashby, can you summarize the core data elements 
States and local agencies collect, and how is that data related 
to what they report to the Federal Government?
    Ms. ASHBY. Yes, sir. State systems, such as SACWIS, are 
supposed to be case management systems as well as systems to 
collect data for the Federal Government. There are certain core 
data elements, as you alluded to. They concern foster care and 
adoption characteristics. There are 66 foster care elements, 
and 37 adoption elements. Now, the other part of the 
information that goes to the Federal Government has to do with 
abuse and neglect, and SACWIS should ideally include that 
information in its system. If it does not, there should be 
another State system with that information, and the SACWIS 
system should link to that system so that there can be a common 
basis of reporting.
    Of the required elements, some have to do with the 
demographic characteristics of the children and their families, 
such as the race of the child and parent, date of birth, sex, 
and special needs. Other information has to do with the child's 
experiences--how long has the child been in care, what type of 
services have been provided, what type of placements have there 
been, and that sort of thing. The idea is for States to be able 
to track, for each child, what has happened to that child since 
coming into care, and under what circumstances the child came 
into care. Certainly social worker visits and findings during 
those visits should be recorded, and any special needs. 
Basically, it should include demographic data about the child, 
the parents, and the experiences of the child while in care.
    Chairman HERGER. Since it would appear that that data did 
not help the Jackson children in New Jersey, what should we be 
doing differently?
    Ms. ASHBY. Well, the New Jersey system is in its planning 
phase, which is the very early phase. So, the SACWIS could not 
have been used to record information for that family in New 
Jersey. As several people have said, no matter what system you 
have, no matter how good your automated system, it is no better 
than the data that is put into the system; that is where worker 
training and some of the other things we mentioned here are 
very important. So, I can't specifically answer your question 
with regard to that. Had they had a SACWIS system that was 
fully developed, it sounds like that may not have resolved the 
problem here, because the social workers would not have seen a 
situation with four children starving because that is not what 
they saw. In this particular situation, it is very difficult. 
Further investigation perhaps will point out some more lessons 
to be learned here.
    Chairman HERGER. Thank you very much. Now a question for 
Mr. Springett. Good management of information systems in child 
welfare would not only provide timely information, but also 
accountability and safeguards to ensure that kids are being 
provided with necessary services. Can your technology be used 
to notify a program administrator in cases where there was no 
activity reported for a child in, say, 90 days? Could you 
notify the administrator when 12 months had passed with no 
doctor visits, for example?
    Mr. SPRINGETT. Mr. Chairman, yes, indeed. You could set a 
flag on whatever period you desired, whether it is 30 days or 
60 days, whatever the characteristics, and the system would go 
through, do a search, and send up a flag to the system 
administrator if there had been no contact within the 30 days. 
It would then flag them to do something. By then, the same 
could happen with the doctor's visit; you could flag that there 
has been no activity or no record of any medical information 
passing through the system within that time period. Yes, sir.
    Chairman HERGER. Thank you. I would like to thank each 
member of our panel for taking the time to travel here as we 
review our efforts to ensure safety and well-being for children 
in foster care. We will continue to explore these issues to 
ensure that we are doing all we can to prevent any more 
horrific cases of abuse or neglect from occurring. I thank our 
witnesses today for providing us with important information to 
consider as we seek answers to these critical questions. This 
legislative session appears to be coming to a close, but these 
hearings have highlighted that there are still additional 
issues that we must explore.
    A number of our witnesses today have discussed the role of 
the Department of Health and Human Services in helping States 
develop their data systems. I intend to follow up on some of 
these issues with the Department of Health and Human Services, 
and have these comments submitted for the record. It also is 
apparent that we must examine Federal and State oversight of 
child welfare programs. This will be the topic of future 
hearings. Again, I thank our witnesses, as well as the many 
parents and program experts who have taken time over the past 
few weeks to provide comments to assist us in our work. Many 
questions remain unanswered, but it is my hope that our efforts 
will result in more permanent, safe, and loving homes for these 
children who we strive to protect. With that, the hearing 
stands adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to Ms. Ashby, Ms. 
Baker, and Mr. Watkins, and their responses follow:]
     Questions from Chairman Wally Herger to Ms. Cornelia M. Ashby
Question: You discuss in your testimony that the Child and Family 
Service Reviews currently underway by the Department of Health and 
Human Services (HHS) look at statewide information systems. For a State 
to pass this review on this factor, HHS must determine that the State 
is operating a system that can readily identify the status, demographic 
characteristics, location, and goals for placement of every child who 
is in foster care. To date, we know that none of the States has 
completely passed these reviews by HHS, but most of the States have 
managed to be in compliance with their statewide information system. 
What does this tell us? Does ``compliance'' simply amount to the State 
having a system, without ensuring that it actually works to achieve its 
purpose of protecting kids? Do these reviews examine how the States are 
using these data to monitor kids in their care?

    Answer: Regarding your first question on HHS's Child and Family 
Service Reviews (CFSR), the CFSR takes a narrow approach to determining 
the ``substantial conformity'' <SUP>[1]</SUP> of a state's information 
system. As we mentioned in our July 2003 report <SUP>[2]</SUP> and our 
November 2003 testimony, the CFSR requirement is that a state's 
information system can readily identify the status, demographic 
characteristics, location, and goals for placement of every child who 
is in foster care. The review looks at the state's current information 
systems, regardless of whether the state is developing a SACWIS or the 
stage of development.
---------------------------------------------------------------------------
    \[1]\ HHS uses information from the statewide self assessment and 
stakeholder interviews to determine substantial conformity on this 
measure.
    \[2]\ See U.S. General Accounting Office, Child Welfare: Most 
States Are Developing Statewide Information System, but the Reliability 
of Child Welfare Data Could Be Improved, GAO-03-809 (Washington, D.C.: 
July 31, 2003).
---------------------------------------------------------------------------
    Although a state may be in ``substantial conformity'' with the 
information systems measure in the CFSR, the state may continue to face 
challenges obtaining accurate and reliable data on the children in 
their care. For example, HHS noted in one review that a state met the 
basic standard, but added that although the system is data rich, it is 
fragmented and local area offices and private partners with whom the 
department contracts have developed their own individual data systems 
to meet their needs. As a result, data exchange is difficult and the 
data available in the state's information system may not accurately 
reflect case activity and status.
    Although HHS does not review additional components of a state's 
information system during the CFSR, it conducts more thorough reviews 
of states' information systems through the SACWIS and Adoption and 
Foster Care Analysis Reporting System (AFCARS) reviews. For those 
states developing SACWIS, the review covers a wide range of topics to 
determine the functionality of the SACWIS as a statewide case 
management tool to monitor the children in the state's care. However, 
HHS does not conduct these reviews until the SACWIS is operational. As 
we noted in our report and testimony, 29 of the 47 SACWIS are 
operational or complete.
    All states, regardless of SACWIS development, will have an AFCARS 
assessment, which reviews the computer system's ability to capture 
accurate data that reflect children's experiences in care. As we 
reported, HHS has conducted 11 official reviews--even though states 
began reporting AFCARS data in 1995.

Question: According to your testimony, in New Jersey there are more 
than 40 stand-alone systems that capture information on children served 
by their child welfare agency that they want to integrate. However, New 
Jersey is still in the planning stage even though they first received 
Federal funds in 1996. Do we know why it is taking this State so long 
to develop a child welfare information system? Are there other States 
facing similar problems and/or delays in implementing child welfare 
information systems?

    Answer: Regarding your question on the challenges New Jersey and 
other states may be facing in completing their SACWIS, we reported in 
our report and testimony that most states developing SACWIS encountered 
challenges during the process. New Jersey reported in our survey, like 
many other states, significant delays--42 months--beyond the timeline 
it proposed to HHS for completion. New Jersey was not one of our site 
visits for our report and, therefore, our knowledge of New Jersey is 
limited to its survey responses. New Jersey reported that receiving 
state funding approval was a ``very great challenge'' and that 
receiving Federal funding approval, securing contractors with child 
welfare knowledge, and establishing an internal task force to provide 
recommendations on system design presented ``some challenge.'' Some of 
these challenges are similar to those other states reported 
experiencing. The common challenge reported by the states responding to 
our survey was receiving state funding approval, which is required for 
the state to draw down Federal SACWIS funds. Additional challenges 
included reaching internal agreement on system development, creating a 
system that reflects child welfare work processes, and creating a 
system that is user friendly.

                                 <F-dash>

         Questions from Chairman Wally Herger to Ms. Jill Baker
Question: The Human Resources Subcommittee held a hearing on November 6 
that highlighted a number of areas where the child welfare system in 
New Jersey failed to protect four Jackson boys who were apparently 
starved by their adoptive parents. For example, we learned that this 
family had been visited over 38 times by social workers who failed to 
notice and/or document any problems. From your experience working with 
child welfare data, do you feel that the data currently collected by 
States is sufficient to help caseworkers assist children in care?

    Answer: There is ample data collected by the State and local 
Departments of Social Services, the State Medicaid office, the school 
systems, and juvenile justice agencies, among others, to assist case 
managers in providing optimal care and oversight to children in foster 
care or adoptive placements. However, this information is not made 
available to case managers, or shared across agencies. The information 
collected by the State and local child welfare agency alone would be a 
helpful management tool if the workers and supervisors had ready access 
to the data. As I mentioned in my testimony, in Virginia, we do not 
have the ability to run reports or queries against the system on our 
own.
    In State-supervised, locally administered settings, there are 
issues over ``ownership'' of child welfare and other Human Services 
data. We maintain that the data we enter in the system, for which we 
are accountable to the Federal and State government and our community, 
should always be available for us to access. When our workers, 
supervisors, and program managers cannot access this data, they feel no 
ownership for it and we'll always be in an uphill battle to improve its 
integrity and our own performance.

Question: Are there steps that we need to consider to make sure that 
States collect and use the child welfare data they collect?

    Answer: Congress can and should expect that the appropriations it 
makes generate high performance from State and local governments. The 
Child and Family Services Reviews, which Virginia recently completed, 
are a very helpful process in reinforcing the importance of data 
management and measuring the overall quality of service provision to 
children and families involved in the child welfare system. It is our 
hope that these reviews and oversight by Congress will help propel HHS 
and States to support efforts to develop data management tools rather 
than just systems for satisfying the state and Federal reporting 
requirements.

Question: Would your child welfare information systems know if a child 
suffered from fetal alcohol syndrome or was a ``crack baby,'' as has 
been alleged in the New Jersey child welfare case? Is there any special 
guidance or monitoring you would provide to or require in the case of 
families that care for such children?

    Answer: In Virginia, hospital physicians are mandated reporters and 
are required to report to Child Protective Services any infants born 
substance exposed. However, not all hospitals or physicians comply with 
this requirement.

Question: In the New Jersey case, the 4 boys needed medical attention 
but failed to get it for years. Would your child welfare information 
systems know whether children who have special medical needs and live 
in families that receive taxpayer support for their care have visited a 
doctor in recent years?

    Answer: If the child is in foster care or has been referred for 
child protection services, workers are required to maintain the child's 
medical records and ensure that all special medical and/or educational 
needs are met. For other children, the Virginia system would not 
provide us this information because there is no electronic interface 
between the State's SACWIS and Medicaid systems.
    We have been informed by State officials that they are in the 
process of seeking an interface with the Medicaid system to provide 
some of this information. We do not know when this will be 
accomplished.

Question: How hard would it be for States, for example, to compare 
their lists of children who have visited a doctor paid by Medicaid and 
their list of children in families receiving foster care or adoption 
payments, to determine whether such medical care is being provided?

    Answer: Running such a match would not be difficult if there is a 
common individual identifier such as a Social Security Number in both 
systems. However, no such match system currently exists in Virginia. 
The City of Norfolk attempted to develop such a match program more than 
a year ago. To do the match we requested a monthly electronic report of 
all Medicaid payments made on behalf of Norfolk residents from the 
Virginia Department of Medical Assistance. Our request was denied due 
to confidentiality concerns.

Question: Do you engage in other data comparisons--for example focusing 
on children who have bounced from school to school, suggesting behavior 
or other problems--to prioritize your work?

    Answer: We have not run data matches against the school data to 
identify children who bounce from school to school. There is no ability 
to do this on a statewide basis in Virginia. We have also monitored 
school attendance for TANF recipients through data matches with the 
school system for compliance with Learnfare requirements in 
P.R.W.O.R.A. We have ``read only'' access to the Norfolk School Board 
records that can tell us where the child is currently in school but it 
would not provide a history of the child's attendance.

                                 <F-dash>

     Questions from Chairman Wally Herger to Mr. Michael A. Watkins
Question: What resources--in terms of time, effort, and money-- did 
Florida have to invest to go from the ``hard copy documentation'' 
system you describe in your testimony prior to this year to the current 
automated system?

    Answer: The cost of Florida's statewide Automated Child Welfare 
Information System (SACWIS), known as HomeSafenet, through December 31, 
2003, is $144,256,410. Actual expenditures by state fiscal year are:

          1994-1995 $4,248,570
          1995-1996 $7,744,187
          1996-1997 $8,523,070
          1997-1998 $10,622,360
          1998-1999 $9,650,851
          1999-2000 $20,604,763
          2000-2001 $23,074,752
          2001-2002 $26,805,682
          2002-2003 $26,652,744
          2003-2004 $6,329,701 (as of 12/31/03)

HomeSafenet is expected to cost $180-$200 million when complete.

Question: Your testimony states that the caseworker involved in the 
Rilya Wilson case lied about visiting that family. What steps have you 
taken to ensure that this can't happen again?

    Answer: While we recognize that no safeguard can prevent humans 
from misrepresenting facts involving the care of children, the State of 
Florida has actively put into place a broad number of strategies aimed 
at preventing and reducing the potential for such an occurrence.
    The Florida Legislature enacted law to act as a deterrent for any 
falsification of records involving the care of children. Additionally, 
childcare providers were called upon to report the absence of any at-
risk child from childcare.
    The Department of Children and Families has required all care 
givers of foster children to report (toll free number) any child not 
seen monthly by their caseworker. HomeSafenet was designated the system 
of record for documenting all contacts between children and their 
respective counselors. Thus facilitating oversight and accountability 
by making key case management activities visible to multiple layers of 
supervision including frontline supervisors, managers and 
administrators. Also, caseworkers were required to date and time stamp 
photographs of all children under supervision on a routine basis.

Question: Your testimony (page 4) discusses how 95 percent of children 
in care were visited monthly last year. For the rest, you mention that 
``we identify and prioritize them for verification of safety and well-
being.'' How do you prioritize? What factors do you consider?

    Answer: Each child not visited within the previous calendar month 
is identified by name at the caseworker, unit and district level. The 
assigned caseworker accounts for the circumstances that prohibited 
face-to-face contact with the child. The caseworker then prioritizes 
any child not seen as the highest priority for contact within the 
current calendar month. Specific factors for prioritization include: 
child's age, child's location, perpetrator's access, type of care 
giver, stability of placement, reason not seen and duration since last 
contact.
    [Additional questions submitted from Chairman Herger and Mr. Cardin 
to the Honorable Wade F. Horn, Assistant Secretary for Children and 
Families, U.S. Department of Health and Human Services, to supplement 
the hearing, and his responses follow:]

Question: According to the U.S. General Accounting Office, as of 
October 2003, HHS had reviewed SACWIS systems in 27 States. What do 
these SACWIS reviews entail?

    Answer: The Administration for Children and Families (ACF) SACWIS 
reviews entail determining whether a State's child welfare information 
system meets criteria laid out in an OMB approved review instrument. 
The review instrument includes an assessment of State documentation of 
the system components and interviews with a representative group of 
State users. The review instrument addresses up to 88 functional areas 
of a State's child welfare information system, 51 of which are 
mandatory. A State identifies those optional functionalities that have 
been included in its system in its request for funding to build a 
SACWIS. All functionalities included in the State SACWIS plan are 
reviewed. Therefore, ACF will evaluate all mandatory functional 
components (e.g., Intake, Screening, Assessment, and Investigations) 
and all the optional components the State elected to include in the 
system design (e.g., Court Processing, Contract Monitoring, and 
optional interfaces).

Question: Approximately how long do these reviews take to complete?

    Answer: In preparation for a SACWIS review, the State provides 
documentation on the system. This documentation includes a prescribed 
list of 11 items as well as supplemental information provided by the 
State. ACF reviews the documentation prior to an on site visit. The on-
site SACWIS review is a week long activity. The review includes a 
systems demonstration at a central State location, followed by site 
visits to multiple offices within the State.

Question: How do you determine which States to review and when?

    Answer: A State informs ACF when its SACWIS system has become fully 
operational through annual status reports. A SACWIS review is scheduled 
with the State after this determination has been made. The on-site 
review is conducted at a time that is mutually agreeable to the State 
and ACF. Usually the reviews take place in the fiscal year following 
the year that the State informs ACF that its system is operational. The 
review is scheduled after a discussion with the State project staff.

Question: Do you review all States, or only those States who have 
received Federal funds for SACWIS?

    Answer: Only States that have elected to implement a child welfare 
information system qualifying for Federal funding are subject to the 
SACWIS review activity. ACF may conduct other types of monitoring 
reviews in States that have not elected to build a SACWIS.

Question: How do you categorize States based on these reviews, and what 
do these categorizations mean? For example, what does it mean that a 
State's SACWIS is operational? Partially operational?

    Answer: ACF employs seven categories to identify the status of a 
State's SACWIS:

    <bullet>  ``Operational & Assessment Process Completed'' means that 
the State has a child welfare information system implemented throughout 
the State, a SACWIS review has been conducted, and a final report for 
the review has been completed. In some cases, the State has included in 
the final report its plans to reach full compliance with SACWIS 
functional requirements.
    <bullet>  ``Operational--Ongoing Assessment Process'' means that 
the State has a SACWIS implemented throughout the State and a SACWIS 
review has been conducted but the final report has not been completed.
    <bullet>  ``Operational--No Assessment'' means the State has 
indicated there is a SACWIS implemented throughout the State and ACF 
and the State are working to identify a timeframe for conducting the 
SACWIS review.
    <bullet>  ``Partially Operational'' means the State has implemented 
part of the SACWIS in the State but has not completed the 
implementation yet and is not ready for a SACWIS review. A State is 
placed in partial operation status when the SACWIS has not been 
implemented in all jurisdictions within a State, because all functional 
areas have not been implemented, or a combination of both.
    <bullet>  ``Implementation'' means that the State is developing its 
SACWIS.
    <bullet>  ``Planning'' means the State has not begun the 
development for a SACWIS, but has indicated its intent to build such a 
system.
    <bullet>  ``No SACWIS Activity'' means the State has not opted to 
implement a SACWIS. The State may have some level of automation 
supporting their child welfare information needs but not a SACWIS.

Question: In addition to SACWIS reviews, HHS is completing the first 
round of the Child and Family Service Reviews (CFSR) in all of the 
States. Thus far, none of the States reviewed have passed on all 
outcomes examined by the CFSRs. However, the majority of States 
reviewed have been found in substantial compliance with the factor that 
examines their State child welfare information systems. What do we know 
about States that, according to their CFSR, do not have a compliant 
State child welfare information system? Do these States do worse than 
other States on child outcomes, particularly those that relate to 
safety, permanency, and well-being?

    Answer: We have completed Child and Family Service Reviews (CFSR) 
of 47 States to date. Thus far, we have issued final reports for 40 of 
those States. The final report specifies whether or not the State was 
found to be in substantial conformity on each of the seven outcomes and 
seven systemic factors covered under the review. Of the 40 States for 
which we have issued findings, four States were found not in 
substantial conformity on the systemic factor statewide Information 
System. We have not made statistical comparisons of how those four 
States fared on the outcomes evaluated in the CFSR relative to States 
that were in substantial conformity on statewide Information System. It 
is very important to note that the CFSR does not evaluate whether or 
not States have a compliant SACWIS system. Additionally, the outcomes 
measures are so interconnected that to pull out one item for comparison 
would not yield meaningful results. With regard to statewide 
Information System, the CFSR only evaluates one State plan requirement, 
that is whether or not the State is operating a statewide information 
system that, at a minimum, can readily identify the status, demographic 
characteristics, location, and goals for the placement of every child 
who is (or within the immediately preceding twelve months, has been) in 
foster care. Thus, some States without operating SACWIS systems are 
able to meet this requirement, based on information from their legacy 
systems, and other States with operating SACWIS systems may not meet 
the requirement if there are problems with the quality and use of the 
system.

Question: States found out of compliance are required to submit Program 
Improvements Plans (PIPs) to outline how they intend to improve their 
programs. What do the PIPs in States that are not in compliance with 
the factor that measures their State child welfare information system 
include as steps to come into compliance with their information 
systems?

    Answer: The information below describes the reasons that the four 
States were not in substantial conformity on the systemic factor, 
statewide Information System, and how the four States plan to address 
the issue in their Program Improvement Plans.

    <bullet>  Connecticut: Connecticut has an operational SACWIS 
system, but was determined to be out of substantial conformity on the 
systemic factor, Statewide Information System, due to the lack of 
accuracy of the data generated by the system and the lack of use of the 
system by staff. In its Program Improvement Plan, Connecticut has 
proposed to implement functional improvements to ensure that the system 
accurately reports information on children in foster care, including 
training staff on required data entry, linking the system's data 
elements to Federal reporting requirements, making reports more 
accessible to staff, expanding remote data entry capability, and 
developing reports of missing data in the system to be used as a 
management tool.
    <bullet>  District of Columbia: The District has a statewide 
information system that has the capability of generating the 
information required by the CFSR on children in foster care. However, 
we determined the District to be out of substantial conformity on this 
systemic factor due to concerns about the accuracy and completeness of 
the data and the use of the system by staff. In its Program Improvement 
Plan, the District plans to convene key program and information system 
staff to generate accurate caseload information by social workers, to 
reconcile data in the automated listing of cases and in the manual 
records, to ameliorate data entry backlogs, and to map and upload 
historical data such as family demographics, family goals, 
administrative review and legal notations, and reasons for exiting 
foster care for all open and recently closed cases in the system.
    <bullet>  New York: New York has a partially completed SACWIS 
system which, together with other information systems in the State, 
provides most, but not all, of the required information to track 
status, demographics, location, Adoption and Foster Care Analysis and 
Reporting System (AFCARS) data elements and goals for children in care. 
In its Program Improvement Plan, the State has agreed to enhance 
existing reporting and processing of data to meet the Federal statewide 
information system requirements through the development of its SACWIS 
system. At best, this system may be partially implemented by the end of 
the PIP. The existing legacy systems will remain in place pending 
SACWIS completion.
    <bullet>  Georgia: Georgia does not have a SACWIS system, but has 
legacy systems that are capable of producing information on children in 
foster care. The State was determined to be out of substantial 
conformity on this factor due to the inaccuracy and unreliability of 
data produced by the State's systems. In its Program Improvement Plan, 
Georgia plans to train staff in order to increase data accuracy in the 
existing systems, and to improve data accuracy by making corrections to 
the collection of data, e.g. how they define placement changes. The 
State plans to take steps toward implementation of a SACWIS system, but 
does not project the completion of the SACWIS system during the current 
PIP.

Question: For Federal funds to be allowable for SACWIS, States must 
have a child welfare information system in place that is administered 
statewide. However, a number of States including California give their 
counties authority to operate their child welfare programs. What do we 
know about SACWIS in place in States that have county-administered 
child welfare programs? Are they more or less likely to be in 
compliance with SACWIS rules?

    Answer: States with State supervised and county administered child 
welfare programs face more obstacles to implementing a SACWIS child 
welfare information system, but these obstacles have been addressed in 
a number of States. Minnesota has an operational SACWIS and has 
recently completed the assessment process. Other States such as 
California, Colorado, and Wisconsin have been implementing or operating 
a SACWIS while addressing county needs. Implementing SACWIS for a State 
supervised, county administered child welfare services program requires 
a greater level of effort to implement the fiscal services component of 
the system, as the State system needs to interface with numerous county 
payment systems. For other areas of functionality, SACWIS 
implementation shares many of the same systems design concerns as those 
involved in implementing a large statewide information system serving 
both metropolitan and rural localities.

Question: Once a State begins implementing a SACWIS, if individual 
counties were to propose changes to the systems in their county but the 
State does not implement these changes statewide, would this affect the 
State's ability to draw down Federal funds for their SACWIS?

    Answer: It cannot be categorically stated that county system 
changes will or will not jeopardize a State's SACWIS funding. To the 
extent that a separate system change supports or provides functionality 
that is not included in the SACWIS functional requirements, SACWIS 
funding is generally not jeopardized. If the change is not in the 
SACWIS, SACWIS funds cannot be used to pay for this function. If the 
change replaces or usurps functionality built into the SACWIS child 
welfare information system, SACWIS funds may be in jeopardy depending 
on a number of factors including whether the change is available to 
only one jurisdiction, if the change reduces the availability of data 
to other child welfare jurisdictions, if the change involves software 
for which Federal funds cannot be spent, and so forth. In some States, 
the State SACWIS has been developed in such a manner that necessary 
functionality is provided within the system in a manner that can 
support differing case practice.

Question: How is HHS working with States that have county-administered 
programs to implement SACWIS?

    Answer: ACF works with all States regardless of there their 
organizational structure to address specific State needs. Technical and 
management assistance from ACF is on going through a project's 
lifecycle. Some of the topics typically covered are: Federal 
requirements, Federal regulations, training, system security, system 
administration, system requirements, system design, change management, 
communications, case assignment and transfer, ownership of the product, 
enhancements, usability (e.g. navigation, screen design, pick-list 
values, etc.), disaster recovery and business continuity procedures, 
along with lessons learned from other States, including county-
administered States.
    The means by which assistance is provided to the States varies, but 
includes an e-mail listserv, national meetings, meetings with State 
representatives at regional and national meetings, organizing national 
conference calls and inviting State project staff to attend meetings in 
Washington. ACF also offers an annual training event and on-site 
technical assistance provided by either State peers, ACF contracted 
resources or the National Resource Center for Information Technology in 
Child Welfare. More details about these activities can be found in the 
ACF action plan developed in response to the GAO report, ``Child 
Welfare: Most States Are Developing statewide Information Systems, but 
the Reliability of Child Welfare Data Could Be Improved,'' GAO-03-809. 
The action plan is also enclosed with this document.

Question: What are the benefits and risks associated with allowing 
individual counties to make improvements to their State's child welfare 
information system, especially when these changes may not be 
implemented statewide?

    Answer: A State's SACWIS child welfare information system's 
usefulness depends upon consistent, reliable, and timely information. 
The need and reliance upon ancillary systems may create unintended 
negative effects on the usefulness of the State's SACWIS child welfare 
information system. Ancillary systems do not allow for this information 
to be reliably shared beyond the area in which they are in operation. 
To the extent that other offices within the State could benefit from 
knowing the information contained within the ancillary system, the lack 
of this information statewide can jeopardize the quality of child 
welfare services provided throughout the State.
    The use of redundant systems also increases costs to the Federal 
Government because the State or county must develop, operate, and 
maintain additional data information systems.
    The use of ancillary systems compounds the data collection problems 
identified in the GAO report 03-809 ``Child Welfare: Most States are 
Developing statewide Information Systems, but the Reliability of Child 
Welfare Data Could be Improved'' by a factor equal to the number of 
additional systems. The data definition problems identified in the 
aforementioned GAO report would extend down to the county level.

Question: Once a State begins the design and implementation stage of 
their SACWIS, what is required for them to make improvements to these 
systems? For example, suppose after 2 years of administering their 
SACWIS, a State determined it was not meeting the State's needs and so 
the State wanted to make improvements. Would the State be able to 
simply make these improvements and claim associated costs as SACWIS 
expenditures? Or would the State be required to initiate a new planning 
and design phase before making any changes to improve their system and 
claim associated costs as SACWIS expenditures?

    Answer: For continued SACWIS funding, States must report annually, 
through the Annual Advance Planning Document Update (APDU) to HHS on 
their SACWIS activities. The APDU includes information on the status of 
the project, the activities that have been conducted, the activities 
that are planned, the amount of past expenditures and the anticipated 
budget needs for the next year and the remainder of the project. Should 
the State identify, over the course of the year, that modifications 
need to be made or new functionality added, an APDU provides the means 
to inform HHS of this need and secure Federal funding for the new 
activity. Depending on the impact of the proposed change to the budget, 
scope, or timeline, the State may need to communicate more frequently 
with HHS than the APDU. HHS evaluates the business case presented by 
the State to determine the appropriateness of the proposed activity. 
The level of planning and design needed for any change is dependent on 
the nature and scope of the change proposed. However, if the State has 
an existing project, it would simply update the applicable Advance 
Planning Document.

Question: What are examples of SACWIS systems that are in compliance 
with Federal requirements and help States to monitor kids in their 
care? What features of these SACWIS systems are most beneficial? Are 
these features that States are required to have in place in order to be 
in compliance, or are these optional features that the State included 
to enhance its systems?

    Answer: All 27 states where a SACWIS review has been conducted have 
at least some components that comply with SACWIS requirements and help 
the states monitor children in care. Arizona and Oklahoma are examples 
of States that have implemented SACWIS compliant systems, but continue 
to enhance them to address State program policy and practice. A State's 
SACWIS system's usefulness depends upon consistent, reliable, and 
timely information. As identified below, successful SACWIS systems 
provide numerous ways in which to monitor children in care.

    <bullet>  When an incident of abuse or neglect is reported, SACWIS 
must support a search to identify if there is a prior match. SACWIS 
systems must record the results of investigations of abuse and neglect 
allegations when foster care providers are the subjects and provide 
means to inform social workers that an investigation is underway.
    <bullet>  A successful SACWIS should support an assessment of the 
child and families needs and track these assessments over time. The 
recording of the assessment and the scheduling of this activity is 
mandatory. In some states, there is a structured process in place for 
conducting this assessment. The states may automate this process. 
States that have chosen to do so find productivity gains from this 
effort including the benefit of uniform case practice.
    <bullet>  SACWIS systems must support the creation of case plan 
activities and the recording of case review activities.
    <bullet>  SACWIS systems must support the generation of documents 
and notices for when case plan activities and reviews are due. States 
may also include in this functional area the ability to help identify 
needed services, track when tasks and services are completed, and 
record the results of those activities.
    <bullet>  While the specifics of what alerts, notices, and 
management reports are created are determined by the State, SACWIS 
requires this functionality be provided to support child welfare 
services. Successful activities include reports based on performance 
measures for successful completion of critical activities; and alerts 
to both caseworkers and managers of upcoming and overdue activities, 
including visits.
    <bullet>  While recording client contacts is an optional item, 
states that have opted for this have found value in this function, 
particularly when it can record the type of contact made with 
additional information including date and narrative on the contact.
    <bullet>  Tracking court activities is an optional component, which 
when implemented and accepted by the courts, is a very useful tool for 
tracking the status of children. When State courts accept documents 
generated by the application, duplicate paper work and data capture is 
reduced. This allows staff more time to work with the children for whom 
they are responsible.
    <bullet>  The inclusion of a fiscal component or interface to a 
fiscal system is a mandatory function that once implemented, encourages 
consistent use of the system. As a result, states are better able to 
ensure eligible children receive the appropriate Federal benefits.
    <bullet>  The completion of the required and optional interfaces to 
other State systems helps states monitor children by providing a 
complete picture of the different systems with which the family is 
involved.

Question: GAO's testimony indicates that in a related report they 
recommended HHS consider ways to enhance the guidance and assistance 
offered to States to help them overcome the key challenges in 
collecting and reporting child welfare data. What additional steps have 
you taken to work with States to address the issues raised in the GAO 
report, Child Welfare: Most States Are Developing statewide Information 
Systems, but the Reliability of Child Welfare Data Could be Improved 
(GAO-03-809, July 31, 2003)? What steps is HHS taking to address the 
differences in data definitions which States highlight as a major 
reason data that they report is not complete and/or reliable? What is 
HHS doing in response to the GAO report to ensure that States receive 
the technical assistance and guidance they need to overcome the 
challenges in collecting and reporting reliable child welfare data?

    Answer: In response to a similar inquiry from Senator Grassley and 
Congressman DeLay, the Administration for Children and Families (ACF) 
prepared an action plan to address the recommendations contained in the 
GAO report. That action plan addresses the questions raised in this 
section of your letter and a copy of that plan has been enclosed.
    [The information is being retained in the Committee files.]

                                 <F-dash>

    [Submissions for the record follow:]
  Statement of the Honorable Anibal Acevedo-Vila, a Representative in 
             Congress from the Commonwealth of Puerto Rico
    I applaud Chairman Wally Herger, Ranking Member Ben Cardin, and all 
the Members of the Sub-Committee for convening this important--and very 
timely--hearing to explore how the monitoring of our nation's 
vulnerable children can be improved. I would also like to thank them 
for this opportunity to share Puerto Rico's situation in this regard, 
and in particular, the formidable challenges the Commonwealth faces in 
the area of accessing the resources it needs to implement the kind of 
information systems that can ensure the level of monitoring and 
reporting that we believe is required, and which the Federal Government 
expects of us.
    I agree one hundred percent with the Chairman's assessment that, 
``it is critical that child welfare agencies are capable of gathering 
and using the necessary information in order to ensure the safety of 
children.'' As he pointed out, the recent heartbreaking events in 
Florida and New Jersey have highlighted the ``gaps'' in what child 
welfare agencies are currently doing in terms of data collection and 
the monitoring of the children in their care.
    While it is truly a shame that those children had to suffer like 
they did before this level of attention was focused on the problem, 
that is all the more reason to make sure that we do everything in our 
power to close these holes in the safety net for our vulnerable 
children so that no child fall through those cracks again. If we don't 
mend these holes, we risk letting the entire safety net unravel. I 
think we can all agree that doing everything we can to ensure that all 
our nation's child welfare agencies have fully functional automated 
child welfare systems to keep track of vulnerable children is 
indispensable in repairing this net.
    Unfortunately, my district, Puerto Rico, is one place where it is 
critical that our capacity to more adequately track these vulnerable 
children needs to be improved dramatically, in order to prevent a 
recurrence of the experiences of the children in New Jersey and Florida 
that were mentioned earlier. In 2002, the Commonwealth received around 
30,000 complaints of abuse and neglect and approximately 10,000 
children went through our foster care system. As I have mentioned on 
other occasions, when Governor Sila Calderon was sworn into office 
nearly three years ago, she encountered a child welfare system that was 
not keeping up with the urgent needs of our abused and neglected 
children. There was a backlog of over 4,000 complaints that were 
waiting to be assigned and investigated, the investigations themselves 
took 2 to 3 months to complete, and social workers where overwhelmed 
with caseloads of over 50 complaints each.
    This was a completely unacceptable situation, in effect, one that 
could very easily result in exactly the kind of regrettable events that 
were the inspiration for this hearing. Improving our child protection 
system became one of our highest priorities, so in just two and a half 
years, with an investment of an additional $12 million in Commonwealth 
dollars, we doubled the number of social workers in this program, 
shrunk the backlog of cases by 88 per cent, and reduced social workers' 
caseloads down to an average of 28. In addition, last year a pilot 
program to reduce the turn around of complaint investigations to 48 
hours was successfully instituted in one of the Family Department 
regions, and it was extended the rest of the Island earlier this year. 
Moreover, last year we inaugurated our first multidisciplinary 
transitional shelter for children, ``Mi Casita Feliz,'' at an annual 
operating cost of $2.4 million. This 108 bed shelter, run in 
cooperation with the Health, Justice, and Police Departments, not only 
provides immediate shelter for children who have just been removed, but 
it also offers integrated medical, psychological, social, and 
educational evaluations and services. Similar shelters are slated to 
open in two other regions of the Island by next summer.
    While the Commonwealth runs a child protection program that has 
more children in its custody than 30 states, we received less federal 
foster care funding than 44 states. States with foster care caseloads 
around the size of ours, which varies between nine and ten thousand 
children, received from $33 to up to $100 million dollars last year in 
federal foster care assistance. Children in Puerto Rico were only able 
to draw down about $13 million. The reason that vulnerable children in 
Puerto Rico cannot count on the same federal support during their time 
of utmost vulnerability is because the law establishes a cap on the 
amount of IV-E assistance the Commonwealth can claim for its eligible 
children. And as you can deduce from the situation I just described, it 
is far below the real needs of our abused and neglected children. There 
is only enough room under the federal cap to provide maintenance 
payments to foster families and institutions that care for these 
children. Everything else that is needed to run an effective foster 
care system, as well as the essential information systems for 
monitoring these children, has to be funded by the Commonwealth alone.
    Not surprisingly, some our greatest challenges are precisely in 
information systems. Puerto Rico does, in fact, report for the NCANDS 
and the AFCARS. We are subject to the same Child and Family Service 
Reviews as every other jurisdiction, despite being provided only a 
fraction of the resources available to the states. But I invite you to 
imagine the incredible challenge it is for the very hard working--I 
would say heroic--people of our Family Department to be able to meet 
all the reporting and monitoring requirements the Federal Government 
expects us to meet when all of the case files are on paper, when 
offices at the local and regional levels have no data connections with 
the central office, when there are intake offices that don't have even 
typewriters or fax machines--let alone computers.
    The Commonwealth is committed to remedying this situation, despite 
the fact that right now there really isn't any way to access any new 
federal funds to do so. We understand the value of having a functioning 
State Automated Child Welfare Information System (SACWIS) and we want 
to do everything we can to implement one, regardless of the obstacles 
before us and the fact that we cannot receive the enhanced matching 
funds that states were able to draw upon. We believe that it is 
imperative to set up this system, not only to ensure the safety of the 
children in our care, but because we want to make certain that the 
system is transparent and accountable, and that the federal investment 
in Puerto Rico's child welfare system is protected.
    While right now the chances that the Commonwealth foster care 
program being able to receive federal matching funds to close these 
significant gaps in our child protection safety net are marginal, we do 
have reason to be hopeful that this may change soon. Thanks to the 
assistance of some of our colleagues in the other body, both Republican 
and Democrat, the Finance Committee's welfare reform bill includes a 
provision that would enable Puerto Rico to draw down additional funds 
for IV-E Foster Care and Adoption Assistance outside of this welfare 
cap. I invite you, Mr. Chairman, the Ranking Member, and the rest of 
the committee to support this measure when the time comes to approve a 
final bill. While the provision does not eliminate the cap on IV-E 
completely, in order to be responsible about the budgetary impact this 
change might cause, we do believe that it will provide a much needed 
increase in federal resources to our program, where right now, federal 
dollars are spread so thinly. I am confident that together, we can work 
in a bipartisan way to help Puerto Rico come up to speed in its data 
systems, close the gaps in our safety net, and ensure that not one 
vulnerable child get left behind.

                                 <F-dash>

  Statement of Larry W. Sarner and Jean Mercer, Ph.D., Advocates for 
                Children in Therapy, Loveland, Colorado
    Advocates for Children in Therapy thank the chairman and members of 
the Human Resources Subcommittee for holding this hearing and offering 
us an opportunity to discuss a major factor in the abuse of the 
Collingswood children and many other foster and adoptive children. Our 
organization, ACT, is a non-profit group dedicated to fighting abuse of 
children in putatively therapeutic care.
    Unlike some other witnesses in the present hearing, we believe that 
the Collingswood case was not primarily a consequence of overburdened 
caseworkers, poor supervision, or inadequate budgets. Although those 
problems need to be addressed, a more important factor in this case was 
a belief system followed by the Jacksons and apparently condoned by 
caseworkers.
    The belief system we refer to is the basis of a form of 
quasiprofessional mental health intervention called Attachment Therapy 
(or AT) by its proponents and sometimes termed Coercive Restraint 
Therapy by its many professional critics. Spreading by means of the 
Internet and the mass media, this form of intervention targets foster 
and adoptive children. AT itself is a physically intrusive and 
potentially dangerous practice. It is often accompanied by a parental 
approach called ``therapeutic foster parenting'' and this appears to 
have occurred in the Jacksons' case, resulting in serious mistreatment 
of the four boys.
    Attachment Therapy is a pseudoscientific and pseudotherapeutic 
approach to childhood behavior problems, especially among foster and 
adopted children. It postulates that the bad behavior of ``difficult'' 
children comes from their failure to attach to their current 
caregivers. Thus, it seeks to ``treat'' these children by quite 
literally trying to force the children to love and obey their 
caregivers unquestioningly. It does this by brutalizing the children 
and trying to break their wills, both in the therapy room and at home. 
The more children try to hold on to their dignity and individuality, 
the more severe treatment they receive.
    At a time when there is a national demand for evidence-based 
medical and psychiatric treatment, AT and its adjunctive treatments 
exist without an evidence basis. Indeed, its practice and the 
assumptions about child development which underlie it run completely 
counter to established facts about children's lives. The AT-therapeutic 
foster parenting approach is mental health quackery at its worst and 
most disturbing. We urge you and your staff to read a recently 
published book for a complete discussion of this complex matter,  
Attachment Therapy on Trial: The Torture and Death of Candace Newmaker.
    Brutality is brutalizing to its practitioners as much as to its 
victims. In the case of AT, parents in particular become desensitized 
to their child's suffering as their brutality continues week after 
week, year upon year, because good outcomes are forever elusive. Many 
cases of parents ``going too far'' using AT parenting techniques have 
been reported, with growing frequency of late.
    As you and your staff investigate this case further, you will see 
telltale signs of Attachment Therapy and its parenting techniques in 
this case:

    <bullet>  The control of food to a child is an important AT 
parenting technique. There have been several instances of starvation or 
near-starvation associated with AT parenting, most recently in highly 
publicized cases in Utah and Texas. AT parenting specialists 
specifically counsel diets of nothing more than peanut butter-and-jelly 
sandwiches and/or cold oatmeal for weeks or months on end.
    <bullet>  Until relatively recently, locking doors of certain rooms 
in the home, such as a child's room, has been a common recommendation 
by AT parenting specialists. Now they recommend putting alarms on them.
    <bullet>  AT parenting directs that parents require children to 
sit, usually on the floor, unmoving, for long periods of time. They 
call it ``strong sitting,'' or sometimes ``power sitting.''
    <bullet>  AT parenting specialists recommend establishing authority 
over children by requiring children to unquestioningly perform long 
hours of useless tasks, or do them in time-wasting ways. Cutting a lawn 
with garden shears, or washing clothes in buckets, would be examples of 
such. In other settings it has been removing fallen leaves by hand or 
shoveling manure.
    <bullet>  AT parenting specialists commonly prescribe keeping 
childrens' rooms bare and devoid of mental stimulation. Children are 
allowed very few, if any, toys, and playing with the ones they may have 
is considered a privilege that must be earned. In Catch-22 fashion, 
such privileges are rarely earned.
    <bullet>  Formal education, too, is considered a privilege and not 
a right. AT tells adoptive parents that these children are budding 
sociopaths not fit to be in the company of others, especially at 
school. Homeschooling is a growing option chosen by parents, which is 
not to say that they actually schooled.
    <bullet>  Denial of medical care is a frequent occurrence. In the 
AT world-view, children's physical complaints are considered false, 
attention-getting, and manipulative. Treating ailments appropriately is 
regarded as allowing the child to ``win'' the all-important control 
battles. Moreover, caregivers following AT fear that medical 
professionals, after seeing a child, might report them for neglect or 
abuse.
    <bullet>  AT demonizes children and dismisses any complaints they 
may express about their caregivers. Thus, it is a common occurrence 
that parents caught abusing their children with AT techniques call the 
children liars when they detail the abusive treatment they have 
received.
    <bullet>  AT universally demonizes birth families of adopted 
children. AT proponents urge a complete break of contact between 
children and their birth parents, regardless of circumstances. During 
``treatment,'' they demand that children agree with an unfavorable 
assessment of the birth parents by requiring the child to discard or 
distort any favorable memories they may still have about their former 
families.

    Unfortunately, the adoption/foster-care agencies of many states and 
counties around the United States, including those in New Jersey, 
actively promote this pseudoscientific and pseudoprofessional nonsense. 
New Jersey, for instance, distributes a 32-page pamphlet to foster and 
adoptive parents that teaches foster and adoptive parents to 
misdiagnose their children with attachment disorder and then tells them 
what supposedly they can do about it. The pamphlet, part of a home-
study course, urges parents to put children into treatment with 
Attachment Therapists, where the children are not only  mal treated 
during their time with the Therapists, but the parents are also taught 
how to continue treatment at home, with abusive techniques such as 
you've seen in this case.
    Caseworkers, meanwhile, are given the message that AT parenting 
techniques are acceptable, no matter how abusive they appear on their 
face. One caseworker in Utah recently investigated a report that a ten-
year-old was being kept home from school in a bare bedroom for days at 
a time and allowed to say only ``Yes, Mom,'' ``No, Mom,'' and ``May I 
go to the bathroom?'' The caseworker, after being told these were AT 
techniques, saw nothing wrong with any of this, and even counseled the 
mother on how to avoid being reported in the future. It is not 
surprising, then, that caseworkers in New Jersey had no alarm bells go 
off about the treatment of the Jackson boys.
    It is essential to address the question of what the Federal 
Government can do about this. We can be sure that there will be calls 
by other witnesses for additional federal aid to child-welfare agencies 
to provide more workers for better oversight. Whatever the merit of 
such calls, there is an even better way for the Federal Government to 
prevent cases like this: root out AT from the child-welfare system in 
every state. That is something that the House of Representatives last 
year endorsed doing with the passage of HCR 435 by a 397-0 vote. And it 
can be accomplished by doing four simple things:
    First, the Federal Government can severely restrict the use of an 
attachment disorder diagnosis for the classification of children as 
``special-needs'' and thereby entitle adoptive parents to an adoption 
subsidy. This will remove the financial incentives to misdiagnose and 
maltreat children, as well as free up scarce federal dollars for the 
truly needy.
    Second, the Federal Government can tighten up its authorizations 
for medicaid payments and other subsidies to mental-health providers, 
to assure that payments aren't made for attachment therapists and 
attachment parenting specialists. For the most part such payments would 
be in violation of PL 106-310, the Children's Health Act of 2000, but 
regulators implementing that act should be alert to the subterfuges and 
non-disclosures that AT practitioners use to prevent detection.
    Third, there should be a tightening of controls on federal grant 
money for the study of therapies and interventions. We have identified 
several grants to ``study'' AT and allied practices. Invariably these 
are not studies to determine safety and efficacy, but rather for 
identifying means of integrating AT seamlessly into the adoption and 
foster-care systems. Controls should assure that federal grants are 
spent wisely, and only on scientifically validated interventions (which 
AT certainly is not).
    Last, but certainly not least, the Federal Government must use its 
aid to state agencies to assure that caseworkers are not either 
surreptitiously or negligently ignoring signs of child-abuse just 
because parents are following the advice and practices of so-called 
therapists or parenting specialists. Abuse is abuse, regardless of the 
source of the advice encouraging it, or whether the title ``therapy'' 
is attached to it.
    It probably does not require additional legislation to achieve 
these four simple things. The bureaucratic mechanisms are already in 
place. Perhaps Congress in its oversight function can persuade the 
executive branch to issue the rules and establish the controls that can 
save a lot of suffering--and ironically a lot of money, too.
    Thank you for your attention.

                                 <F-dash>

                                         Sandata Technologies, Inc.
                                   Port Washington, New York, 11050
                                                   December 3, 2003
Chairman Herger, Ranking Member Cardin and members of the Subcommittee:
    We appreciate the opportunity to offer this statement on behalf of 
Sandata Technologies, Inc. in connection with the Subcommittee's review 
of States' child welfare information systems and the November 19, 2003 
hearing on ``Improved Monitoring of Vulnerable Children.''
    The Subcommittee's hearing is particularly timely in light of 
recent, tragic reports of abuse and neglect suffered by children whose 
well-being was entrusted to the State of New Jersey's child welfare 
agency. The serious failures of the New Jersey Division of Youth and 
Family Services underscore the need for significant improvements in the 
systems designed to track and monitor children and the services 
delivered by child welfare and foster care programs. This tragedy has 
thereby focused renewed attention on the broader problems facing such 
agencies throughout the nation.
    A recent review of States' efforts to develop child welfare 
information systems by the U.S. General Accounting Office (GAO) 
concluded that inaccurate and incomplete data entry by caseworkers 
affected the quality of data reported to the U. S. Department of Health 
and Human Services, which in turn resulted in potentially unreliable 
information on abused and neglected children available in federal data 
systems.<SUP>[1]</SUP> According to GAO, States also reported technical 
challenges reporting data.<SUP>[2]</SUP>
---------------------------------------------------------------------------
    \[1]\ Child Welfare: Most States Are Developing Statewide 
Information Systems, but the Reliability of Child Welfare Data Could Be 
Improved, GAO-03-809 (July 2003).
    \[2]\ Id.
---------------------------------------------------------------------------
    As GAO's analysis has highlighted, State agencies face significant 
management challenges in delivering child welfare and foster care 
social services. However, easy-to-use technology currently exists to 
assist States in addressing these concerns. Telephony for child welfare 
and foster care, with its accurate real time data collection capability 
and management data presentation, can enable improved ``visibility'' 
into field operations and improved government oversight.
    Through the use of telephony, State agencies can automate case note 
capture, reporting and the monitoring of field activities. A telephone-
based, voice-to-text technology will collect all relevant information 
from the assessment site. Telephony eliminates the need for laborious 
paperwork and enables social workers to focus on providing services to 
children in need. Equally important, it enables supervisors to confirm 
visits and to ensure that all children are being assessed. This 
technology delivers all of the collected information from the field and 
delivers it to the supervisor's desk-top computer in real-time.
    In summary, the use of telephony can provide concrete benefits to 
State agencies, including:

    <bullet>  Detailed tracking of caseworker visits, so children do 
not ``fall through the cracks.''
    <bullet>  Real-time management visibility of every case on demand.
    <bullet>  Aggregated data for greater managerial control.
    <bullet>  Significantly decreased administrative costs through 
elimination of manual data entry of time, attendance, and narrative 
notes to create a complete meeting record.
    <bullet>  Increased productivity and dramatic reductions in 
paperwork with voice-to-text functionality.
    <bullet>  Improved retention and recruitment of social workers.
    <bullet>  Quick and easy implementation.

    We look forward to working in partnership with you as the 
Subcommittee considers ways to strengthen States' child welfare and 
foster care programs and to improve the quality of services provided to 
children in need. Thank you for your consideration of our views.
            Sincerely,
                                             Stephen A. Silverstein
                                                          President

                                                       Mark C. Baff
                                                     Vice President

                                 <F-dash>

   Statement of the Honorable Dennis A. Cardoza, a Representative in 
                 Congress from the State of California
    Mr. Chairman, as you well know, despite spending in excess of $7 
billion of federal funds annually on foster care services, our nation's 
foster care system remains a critical failure. As an adoptive parent, I 
understand first hand the challenges our country's foster care children 
face as they attempt to move out of the child welfare system and into 
permanent loving homes.
    It is especially disheartening as a parent to hear about cases like 
the one in New Jersey where it has been alleged that a foster care 
family was severely neglecting their four foster children, even while 
caseworkers visited the home on numerous occasions. This case has not 
only highlighted the problems with the state's ability to properly 
monitor the children under their care, but it brought the nation's 
attention to the unfortunate reality that children in foster care are 
frequently abused by the system not once, but twice. Far too often 
children are taken out of the home because they are in a dangerous 
abusive situation, whether it be physical or emotional, and then they 
are placed in an overburdened system where the abuse persists.
    I am encouraged that the House Ways and Means Committee is holding 
a hearing today to explore the challenges we face as lawmakers to 
rectify some of these glaring deficiencies in our nations child welfare 
system. And those deficiencies are many. Many foster children lack 
access to quality medical care and mental health services. Due to the 
extreme instability of their living situations, many foster children 
lag way behind their peers on basic educational levels. Good foster and 
adoptive parents are extremely difficult to both recruit and retain, 
especially in tight economic times. There is a lack of quality 
preventive programs for birth parents as well as drug treatment 
facilities in order to achieve family reunification. Finally, the 
United States is facing an overburdened judicial system with a chronic 
shortage of social workers and case workers.
    As a response to these glaring problems, I have created an Adoption 
and Foster Care Advisory Committee comprised of members of the 
community who are directly involved with the foster care system. At a 
recent meeting of my Advisory Committee, the stark realities of the 
child welfare system were discussed and it was obviously that the 
Federal Government had much work to do. In fact, one participant stated 
that it would take double the funding that the states and local 
agencies currently get just to comply with the law and regulations on 
the books. As demonstrated by the New Jersey case, the system is 
working only on the surface. Caseworkers visited the New Jersey house 
where these children were living numerous times, but after that the 
system failed them, the data reporting was unclear and the checks and 
balances required to protect them were not being utilized.
    The answer, however, is not to just double the funding we give to 
states to care for our dependent children, but instead we must look for 
innovative ways to maximize and streamline the areas that can be 
improved. I am a cosponsor of a comprehensive child welfare bill 
sponsored by some members of this Committee which I feel would 
accomplish many of those goals. H.R. 1534, the Child Protective 
Services Improvement Act, by Representative Cardin would provide 
additional funding for all facets of the child welfare system from 
improving the working conditions of caseworkers to providing for drug 
and alcohol treatment centers for families while encouraging states to 
implement safeguards and improved data collection aimed at preventing 
further cases of abuse.
    I strongly believe that our entire child welfare system needs to be 
analyzed and quite frankly overhauled. Let's keep what is working and 
fix the rest immediately. Foster children have very few people 
advocating on their behalf and that is unacceptable. These children 
deserve better. As this session of Congress draws to a close I would 
hope that this Committee would make them a priority next year.
    Again, Mr. Chairman I thank you for convening this hearing today. 
As a Member of Congress and an adoptive parent I look forward to 
working with you and your Committee in the future.

                                 <F-dash>

     Statement of the Covenant House New Jersey, Newark, New Jersey
    Mr. Chairman, members of the Subcommittee, thank you for calling 
this important hearing.
    We urge Federal and State officials to implement official oversight 
ensuring that foster children's special education and developmental 
needs are protected. The years of abuse suffered by the Jackson 
children could not have gone unnoticed if DYFS engaged in interagency 
collaboration to safeguard the rights of the youth in their care.

    Current state policies leave foster children with disabilities 
especially vulnerable. There are serious gaps in services for children 
in foster care who have special needs. No child in the DYFS system 
should be cared for without a coordination of efforts between special 
educators, health and mental health care providers, substance abuse 
treatment facilities, children's hospitals, and vocational 
rehabilitation services. Just as any parent reaches out to doctors, 
specialists, teachers, and others in the community to help raise a 
child, so too does the state, in loco parentis, have the responsibility 
to care for children within a framework of coordinated efforts.
    While Bruce Jackson is the impetus for this hearing, Covenant House 
New Jersey (CHNJ) has seen less tragic but certainly equally compelling 
cases of children that have left the DYFS system without a plan of 
service care and coordination. CHNJ experiences firsthand how a 
disproportionate number of youth seeking shelter are former foster care 
clients.
    CHNJ is a nonprofit agency that has been providing services to 
homeless and at-risk youth in New Jersey since 1989. Through broad 
based programs, located in Newark and Atlantic City, CHNJ provides 
youth between the ages of 18 and 21, with shelter, food, clothing and a 
full range of services offered to help stabilize them from life on the 
streets. CHNJ also hosts the Youth Advocacy Center, a legal services 
and advocacy center. Staffed by four attorneys, the Youth Advocacy 
Center provides direct representation to at-risk youth in civil 
matters. Additionally, the Youth Advocacy Center undertakes public 
policy initiatives around issues concerning homeless and at risk youth. 
Currently, the Youth Advocacy Center is studying how the lack of 
transition services for special needs foster children and other at-risk 
youth, leads to chronic homelessness for this particularly vulnerable 
population.
    Currently, there exists no continuum to move foster youth from the 
child welfare system into appropriate care within the adult health 
system. This is true even though transition planning has been part of 
the New Jersey special education regulations since 1988. Transition 
planning involves strategizing a plan for adulthood that identifies 
post school services, programs and supports that will need to be in 
place after the student exits the school system. These areas include 
post-school adult living, and daily living skills.
    The Individuals with Disabilities Education Act (IDEA), 20 U.S.C. 
1400 et seq. (20 C.F.R. 300), and Section 504 of the Rehabilitation 
Act, require states receiving federal funds under the act to provide a 
free appropriate public education (FAPE) for all children with 
disabilities between the ages of 3 and 21. New Jersey has special 
education regulations that implement IDEA and the federal regulations. 
NJAC 6A:14-11, et seq. As such, under Federal and State law, in 
addition to a special education program, a disabled child is entitled 
to related services such as developmental, corrective, and other 
supportive services. These services can include transportation to and 
from the school or around the school building, physical therapy, 
occupational therapy, speech/language therapy, counseling and 
psychological services, parent counseling and training and school 
health services. Significantly, each child has a child study team, 
managed by a case manager who, together with the parent, the child's 
teachers, and other specialists, assumes responsibility for 
coordinating the development, monitoring, and evaluation of the child's 
individualized education plan (IEP), facilities communication between 
the home and school and assumes responsibility for transition planning.
    Despite the Federal and State protections afforded all children, we 
can tell you about Shanicia, a 19 year old former DYFS client, who has 
already had one child, and is about to give birth to her second. She 
has an IQ of 57, and as such, is mentally retarded. After multiple 
moves and school changes, and no consistent parent or adult to monitor 
and advocate for a comprehensive and appropriate IEP, Shanicia found 
herself homeless upon graduating from high school and aging out of the 
DYFS system. Like many foster youth, Shanicia was eligible for services 
provided by the New Jersey Department of Vocational Rehabilition. 
Additionally, like many foster youth, her student IEP should have 
provided for transition services that promoted movement from school to 
post-school activities, including post-secondary education, vocational 
training, integrated employment, adult services, and independent 
living. By failing to engage in mult-agency collaboration, DYFS allowed 
Shanicia to fall through the cracks. Currently, Shanicia's children are 
now involved in the DYFS system.
    We can also tell you about Queena, a special needs child, and a 
former foster client, who came to Covenant House at the age of 18, 
expecting her first child. Having been in DYFS custody since childhood, 
Queena was returned to her mother's custody when she was seventeen. 
When Queena attempted to enroll herself back in school upon returning 
to her mother's care, she was illegally excluded from school. The local 
school district informed her that it could not locate her former school 
records and it offered no other services in the meantime. Under 
existing education regulations, the local school district should have 
conducted an immediate review of evaluation information and Queena's 
IEP. At a minimum, the school should have provided her with a interim 
IEP. She was entitled to immediate educational services. Instead Queena 
stopped school just a few months shy of her senior year of high school. 
Placement in her mother's home did not go well, and Queena came to 
Covenant House as a homeless client. By not reaching out to the school 
department so that Queena's return home could have occurred with a 
seamless plan in place, DYFS failed to safeguard Queena's educational 
federal and state rights.
    When these children come to our door, we ask ourselves: Given that 
Federal and State education regulations provide for special needs youth 
up to age 21, how are disabled youth homeless at the age of 18 or 19? 
So too, we urge the Committee to ask: Given that New Jersey is mandated 
by Federal and State law to safeguard the education needs of disabled 
youth, how can a special needs youth, such as Bruce Jackson, be so 
abused without drawing the attention of a DYFS worker, or a whole range 
of service providers--such as those found in any special education 
child study team, including a psychologist, a social worker, and a 
learning disabilities teacher/consultant?
    We believe special needs youth find themselves at our door because 
of a failure by DYFS to engage in multi-agency collaboration. We 
believe that DYFS must coordinate seamless plans of services, with 
designated areas of responsibility provided by schools, health care 
providers and the state vocational rehabilitation agency. DYFS must 
ensure that a coordinated set of services promote youth's movement into 
adulthood, including supported employment, adult services, and adult 
living.
    Specifically, in the Jackson case, initial reports indicate that 
Bruce and the other Jackson siblings were being home-schooled by their 
adoptive parents. While the Jackson case is an extreme example, it 
illustrates the urgent need for DYFS to assume official oversight to 
ensure that a foster child's special education and developmental needs 
are being met and that their rights are being protected.
    Currently DYFS has no official oversight ensuring that anyone will 
assume responsibility for a foster child's special education needs. 
What steps did DYFS take to ensure that the Jackson home would 
safeguard the educational rights of Bruce Jackson, and their other 
adopted sons? Did the Jackson family demonstrate their capacity to 
educate special needs children prior to being approved for placement by 
DYFS? Did DYFS take advantage of the expertise and experience of the 
Department of Education, and other agencies, such as the Department of 
Vocational Rehabilitation, to verify whether home schooling was the 
appropriate mechanism for maximizing these children's potential?
    If the Jackson youths' alleged eating disorders were being 
addressed by a team approach, through a collaboration of DYFS, the New 
Jersey Department of Education, and other service providers, could such 
abuse have gone unnoticed for so long? If DYFS believed that the 
Jackson children suffered from eating disorders, as is alleged, DYFS 
should have recognized these children as special needs youth, and 
ensured that special education and all related health and psychological 
services were in place for these children. These children should have 
been linked to a full range of service providers.
    Similarly, even if DYFS ensured that youth in their care had a 
continuum of services in place prior to a youth aging out, would these 
children end up homeless at the age of 18? No disabled foster youth 
should ever find themselves homeless at Covenant House's door.
    The years of abuse suffered by the Jackson children, and the 
neglect of the children who arrive at Covenant House, would not go 
unnoticed if DYFS workers received mandatory training in special 
education and developmental needs, and if DYFS engaged in interagency 
collaboration to safeguard the rights of the youth in their care. We 
urge Federal and State officials to implement official oversight 
ensuring that foster children's special education and developmental 
needs are protected.

                                 <F-dash>

 Statement of the Family Alliance to Stop Abuse and Neglect, Teaneck, 
                               New Jersey
    The Family Alliance to Stop Abuse and Neglect was formed over one 
year ago to address the horrific abuse of children with disabilities in 
New Jersey's care systems, including preventable deaths. We are 
gratified that the House Subcommittee on Human Resources of the 
Committee on Ways and Means is now taking up this vital issue and is 
dedicated, in the words of Chairman Herger, to ``making sure other 
children do not suffer similar fates.''
    To this end, we would like to share with Subcommittee members some 
key facts that we have gathered from our work toward regulatory and 
statutory reforms in New Jersey, and from our research into the 
problems experienced in other states. New Jersey's deficiencies in the 
administration and monitoring of care systems for vulnerable children, 
although currently drawing more attention than other states, 
nevertheless reveal many of the same weaknesses that we have identified 
across the country.
    The most devastating weakness is the unpredictable, uncoordinated 
patchwork of protections and expectations covering the various settings 
that provide services to our most vulnerable children. Large numbers of 
children who enter foster care have disabilities, either from birth or 
resulting from circumstances in the child's early environment, which 
precipitated the events leading to foster care or adoption. This is 
also the population likely to become eligible for Federal adoption 
subsidies and related services. Foster care and special needs adoption 
are generally administered by the state agency or division responsible 
for youth and family services--in New Jersey, DYFS. However, foster 
care and adoption are not the only settings in which these children are 
served. They may be placed in privately-run but publicly-funded 
residential facilities for children with disabilities, in state 
institutions or ``developmental centers'' for individuals with mental 
retardation, or in children's mental health facilities.
    For no good reason, protections vary widely among these settings. 
In New Jersey, DYFS would be expected to intervene in a home in which a 
child is being routinely subjected to physical or mechanical restraints 
(immobilizing arms or legs) or to punishments such as slapping, forcing 
a child to spend hours in a blindfold, withholding food, or forcing a 
child to inhale or swallow noxious substances. But DYFS is also 
expected to monitor the well-being of these same children in private 
and public residential settings where such activities are redefined as 
``treatment'' and incorporated into their Individualized Habilitation 
Plans (IHPs). This is a clear double standard that is nevertheless 
sanctioned in the regulations of the state Division of Developmental 
Disabilities (DDD). Thus it would be perfectly possible for DYFS to 
remove a child from a home where, for example, he is being disciplined 
via forced ingestion of noxious substances, and place him in a facility 
where forced ingestion of noxious substances then becomes part of his 
habilitation plan.
    During the past year DYFS has been required to investigate harm to 
children with disabilities, including the death of a 14-year old boy 
left on the floor of a private residential facility in arm restraints 
and a helmet for 16 months, until he developed severe pneumonia and 
sepsis. We believe that DYFS' finding of ``no neglect'' in that case 
and several others was due to the double standard which sanctions 
abusive and neglectful ``treatment'' in select settings. Like the boys 
recently removed from their Collingswood home, this 14-year old child 
was neither attending school nor did his situation prompt any 
intervention from the school district. A precipitous weight loss of 25 
pounds in the last weeks of his life went unreported and untreated. 
While such conditions would create a scandal if discovered in a foster 
or adoptive home, they do not seem to trigger a response when 
discovered in a residential facility. In fact, according to its 2003 
budget DYFS is still paying for at least one other child under its care 
to reside in this same facility (which has lost its accreditation from 
the Commission on Accreditation of Rehabilitation Facilities, or CARF) 
at a cost to taxpayers of nearly $1000 per day. To add a final twist to 
this tale of grossly inequitable protections, had this young boy been 
placed in a children's health care facility covered by the Federal 
Children's Health Act of 2000, the restraints that led to his decline 
and death would not have been permitted.
    Children who are placed in congregate, facility-based care should 
be presumed to be in greater danger than children in foster or adoptive 
care for two critical reasons. First, these children tend to be far 
more segregated from their communities, making it less likely that 
caring friends, relatives, or members of the general public will 
observe and respond to indicators of abuse and neglect. The more a 
facility relies on restraints and aversive punishers as part of its 
clients' ``habilitation'' plans, they less it will be willing or able 
to take those clients into public places where such activities on the 
part of staff offend public sensibilities and have been known to 
trigger calls to the police. A vicious cycle of unobservable 
mistreatment is set in motion. Second, these facilities are run by 
profitable corporations that have the means and motive to engage a 
panoply of lobbyists, public relations staff, attorneys, and others to 
protect them from an unwanted degree of regulation and scrutiny. 
Individual families do not have such resources available to keep 
oversight and accountability at bay (although the recent Collingswood 
case is notable for the family's attempt to confront its problems as 
many corporations do).
    Our organization has repeatedly tried to introduce regulatory and 
statutory protections for New Jersey's children with disabilities, 
hoping to keep them safe wherever they may live. In the name of 
``protecting the industry'' from ``too much regulation,'' a number of 
private service providers have blocked these efforts. The legislature 
and the state agency have now decided that they will not move on 
residential reform until they receive a clear message from the Federal 
Government, in particular through the new regulations due out this 
Spring for Intermediate-Care Facilities for the Mentally Retarded 
(ICFs/MR) which govern many of the state and private facilities in 
which children with special needs are placed. These regulations, 
although significantly improved in their last revision, still contain 
archaic provisions allowing dangerous physical and mechanical 
restraints and ``the application of painful or noxious stimuli'' as 
``approved interventions'' to be applied to facility residents on a 
``systematic'' basis.
    The Family Alliance to Stop Abuse and Neglect respectfully requests 
that the Subcommittee broaden the scope of its investigations beyond 
family placements to the other federally-funded settings in which this 
population of children can be found. Across the range of foster care, 
subsidized adoption, private and state residential facilities for 
individuals with mental retardation and developmental disabilities, and 
mental health facilities, we find the same children. Until we develop 
statutes and regulations that guarantee equal protections to all 
vulnerable children regardless of the setting in which they reside, 
mixed messages, segregated and virtually invisible residential 
populations, and differential tolerances for abuse and neglect will 
continue to permeate State agencies such as DYFS, and to make 
monitoring and enforcement efforts confused and problematic.

                                 <F-dash>

                                       River Edge, New Jersey 07661
                                                   November 9, 2003
Honorable Congressman Wally Herger
And Subcommittee Members
Committee on Ways & Means
Subcommittee on Human Resources
U.S. House of Representatives

Subject: Simple Economics Govern New Jersey's Foster Care/Adoption

    Dear Chairman Herger and members of the Subcommittee,

    Thank you for caring enough about the Jackson and other vulnerable 
children to hold hearings to explore the corrupt child welfare system 
in New Jersey. Exposure, although painful, leads to learning and the 
opportunity to bring true reform. Knowledge, compassion and integrity 
are afforded the chance to triumph over corruption, denial and 
ignorance.
    As I have indicated in my November 1st statement, I can only speak 
from my experience with the New Jersey Child Welfare system, which 
demonstrates horrifying similarities to the societal reign of the 
holocaust. This includes the well-intentioned foster care and adoption 
system, which functions on simplistic laws of supply and demand. The 
basic flaw in the theoretical application of rudimentary economics to 
New Jersey's child welfare system is that children are NOT commodities.
    In New Jersey, presently there are two pools of children ``lucky 
enough'' to attract the attention of the child welfare system. Pool #1 
primarily consists of sibling groups, older, minority and behaviorally, 
psychologically, physically, emotionally and/or mentally challenged 
children: these are the less desirable, ``hard to place'' children: 
High supply, low demand. The financial prognosis of continuing in state 
custody is dismal. Options: 1. Keep child/children in their present 
environment (minimize issues requiring child welfare intervention, for 
to resolve issues will require resources) and if parent is amenable, 2. 
Remove child/children to foster care. While in foster care, these 
children are draining expensive resources. In addition to paying for 
foster care, the state must expend resources for reunification efforts 
or pay the price to secure adoption by those willing to take a less 
marketable ``product.'' This is what adoption subsidies were designed 
for.
    Pool #2 consists of young, infant, white, minimally challenged: for 
the most part, healthy and desirable children: Low supply, high demand. 
Because of high demand, there is little risk of continuing in state 
custody. In this supplier's market, the incentives, financially and 
otherwise, are numerous. Options: #1. Keep child/children in their 
present environment (require resources), #2 Remove child/children to 
foster care; take custody [pending adoption]. Providing services or 
reunification efforts to these children and their families would drain 
resources. Remember, this is a supplier's market: selected adoptive 
families are waiting with open arms for their turn to foster/adopt. It 
circumvents the prohibitive costs of private adoption.
    Children from both groups earn reward monies from the Federal 
Government when they are adopted out. Statistically, all adoptions are 
positive key performance measures for the state: bonus points/bonus 
dollars. On the other hand, reunification of children with their 
families earns no bonus monies. In the case of ``hard to place'' 
children, reunification costs are a limited expense which may be 
financially prudent when subsidies are not sufficient to attract 
minimally qualified adoptive parents. For children from the 
``desirable'' pool, family reunification is often not an option: it is 
an unnecessary expense, drain on resources, costs the state in 
thousands of dollars in bonuses and is statistically 
unfavorable.<SUP>[1]</SUP>
---------------------------------------------------------------------------
    \[1]\ In one county, mothers of young Caucasian children are 
advised/warned that if DYFS successfully moves to take custody, there 
will be little chance of reunification: their children will be adopted 
from a readily-available and eager adoption pool.
---------------------------------------------------------------------------
    Although this makes economic sense for commodities, should 
economics determine the future of a family? Should financial options 
and incentives govern vulnerable children's welfare? Are we treating 
our children as we do pork bellies and other commodities?
    Unfortunately, I can speak from my family's experience within the 
system. The foster parents of my two young sons were receiving 
thousands of dollars in support from my husband and me while also 
collecting compensation from the state. The Commissioner of Human 
Services has identified this as against policy''.<SUP>[2]</SUP> The 
Bergen County Prosecutor characterized it as criminal and referred the 
case to the Burlington County Prosecutor's Office for action, where it 
resides awaiting cooperation from DYFS. Fraudulent? Criminal? Illegal? 
Certainly unethical. DYFS/Human Services cries of insufficient funding 
ring hollow in the wake of their support of those foster and adoptive 
parents who defraud the system and benefit financially from vulnerable 
children. And, these state--sanctioned parents are the people paid for 
and charged with raising children to be responsible, virtuous human 
beings.
---------------------------------------------------------------------------
    \[2]\ Commissioner Harris responses in a September 11, 2002 letter, 
``I want to assure you that we have taken steps to insure that the case 
is handled according to DYFS policy.'' The step that was taken the next 
month was to issue me a Superior Court summons for Child Support--which 
was dismissed. Interesting to note, my children's father did not 
receive a summons--just me. Coincidence or intimidation?
---------------------------------------------------------------------------
    In fact, the foster parents have been receiving and are slated to 
receive support, services, allowances and special subsidies for each 
until my six and seven year olds reach adulthood. The foster mother, my 
biological sister, sought and received the state's assistance in her 
mission to adopt my children after failing in her attempts without the 
DYFS's involvement. My vulnerable family found itself under attack by 
New Jersey's Goliath. The foster mother receives monies and services 
for years and the state receives federal support, bonuses and a few 
pats on the back. A ``win-win situation,'' right? What about my sons? 
What about their best interest? Despite the odds, I will continue to 
raise awareness of what really is happening out here in the trenches, 
hidden behind the numbers. My first priority is to my family, but I 
will do all I can to ensure this does not happen to another child or 
family.
    Are all DYFS foster care placements and adoptions bad? Of course 
not. Are there foster and adoptive parents out there who are truly 
motivated by compassion, benevolence and love? Thank God many are! Is 
New Jersey unique? I doubt it.
    Is there hope? Yes! These hearings are a source of hope. Are there 
solutions? Yes! But, handing out hard-earned taxpayer dollars to states 
without accountability is irresponsible and reprehensible. To use 
federal funds to finance state-sanctioned kidnapping and support fraud 
is iniquitous. Most importantly, to not do right by our children when 
afforded the opportunity to make a difference, individually and/or 
collectively, is to turn your back on humanity.
    Thank you for your time, interest and concern. I look forward to 
hearing from you.
            Sincerely,
                                                   Lisa E. Gladwell

                                 <F-dash>

    Statement of Greg S. Hanson, and Lisa R. Watkins, Hiawatha, Iowa
    Child Protection has become an INDUSTRY. The Contract the states 
entered into for Federal Grant Money was contingent upon states meeting 
many standards. The threat of cutting off funds if states didn't 
fulfill all of the requirements has NOT been followed through by the 
Federal Government however.
    Up until recently these agencies used to fend off any correction or 
any decision unfavorable to them by saying that the politician was 
``Against Child Protection''. A few congressmen have experienced this 
McCarthy era like demogoguery from the Child Protection Industry. Now 
things for their INDUSTRY have gotten bad enough that politicians don't 
have to fear this tactic of demogoguery as in the past.
    I basically don't think ANY government agency should remove kids or 
reimburse states for removing kids unless there is some VERY serious 
reason in that individual case to override CONSTITUTIONAL RIGHTS of a 
family to be intact.
    Much like with Enron, Child Protection has been too much motivated 
by funding streams and ``bean counting'' at the expense of ethics, 
fairness and even responsible handling of money. The main data provided 
to the Federal Government to qualify state Child Protection agencies 
for federal money is in fact generated by ````judgement calls``'' made 
by the agencies themselves, with an urge to grow endlessly. All they 
have to do is call every case ``Imminent Danger'' even where they 
removed a child from their home for ``Clutter'' or ``messy house''. The 
Federal Government feeds them money for this. Caseworkers are immune 
from perjury, so they do it a lot.
    Hasn't Congress ever noticed that Child Abuse and Neglect is used 
as one term, CAN, for funding? What most citizens would consider to be 
real child abuse is about 3% of all child removals. The vast majority 
of child removals are for neglect, not abuse. Neglect is a large catch 
all that can range from drug addiction issues to simply ``messy 
house''. The percentage of cases where state agencies really DON'T KNOW 
why the child was removed is the most revealing, a percentage usually 
higher than the 3%. In other words, statistically, serious child abuse 
is statistically small enough to hide within the margin of error. Keep 
in mind that these numbers might be of considerably less utility to the 
state agencies if the state agencies were not the ones REPORTING these 
numbers.
    Another factor is that if Child Protection were to accuse 1000 
parents wrongly, an amazingly large number would find the overbearing 
corrupt Juvenile Courts just too much to cope with, almost terroristic 
in their approach, and would surrender completely, seeing the struggle 
as futile. I personally watched my fiance' get fall prey to what I have 
dubbed ``the stipulation scam'' where her own lawyer pushed her to 
``stipulate'' without any serious consultation, just 15 minutes of 
pressure before court. 90+ % of all cases are ``stipulated'', a term in 
Juvenile Courts which is comparable to a guilty plea, even thought the 
Judas lawyer said it was not, and all of the effects are exactly like a 
guilty plea. ``Stipulations'' are generally not signed and rarely 
involve a document to consider or time to consider it. My fiance' only 
agreed to CONSIDER one, but her attorney agreed FOR HER. She never saw 
a document to consider nor signed any.
    A Judges Association in one area openly and outright urged local 
Family Law attorneys to talk most families into stipulation to save on 
court time. No reference was made to guilt or innocence, which fits my 
experience.
    Child Protection and Juvenile Court tread on a most precious 
LIBERTY INTEREST, 14th Amendment right to Family Association, yet the 
standard of evidence and the constitutional protections in Juvenile 
Court are INFERIOR to those for a petty theft.
    Bottom line: The overbearing system cons large numbers of families 
into being marked guilty when they are not. Americans are ``cowed'' 
into ``winning through surrender''. Once the ``stipulation scam'' takes 
place, Caseworkers ``own'' the family and are quite used to playing 
god. For the family to asserting Constitutional Rights at that point 
angers caseworkers and makes the situation adversarial because 
caseworkers pretend they don't know they are violating the 
constitution. Even the caseworker with a Bachelors degree in 
criminology claimed ignorance of the US Constitution.
    For the Federal OR State government to invoke PARENS PATRIAE (Child 
of the State) they SHOULD have to:

    1.  Prove at least a reasonable ability to parent. So far 
government has failed MISERABLY, generally doing WORSE than many of the 
supposedly failing parents that get children removed from them. It's 
like the Hog in the wallow calling the Horse dirty.
    2.  Stop calling every little nit-picky thing ``Imminent Danger'' 
in order to justify depriving CONSTITUTIONAL RIGHTS to family 
integrity. Caseworkers act like Chicken Little making big cases out of 
small issues, while the sky really IS falling for some other kid. Kids 
should NOT be removed for clutter or messy house which is a SUBJECTIVE 
call and could probably be used to describe HALF of all homes, 
according to a 'Nam Vet ambulance driver I talked to. Don't they have 
more pressing issues than to be whining that a parents ``lived in'' 
home is ``messy''?
    3.  True Judicial oversight. Stop allowing Juvenile Courts to be 
complete Rubber Stamps for caseworkers. This defeats the entire purpose 
of Juvenile Court. Juvenile Court exists to keep caseworkers from 
violating the rights of families and kids. This one-sided rubber 
stamping and even polarized bias has to stop. They ignore motions from 
parents for reasonable, basic and required fairness and protection of 
rights.
    4.  AVENUES OF REDRESS AND CORRECTION that are broken or twisted to 
be denied in Iowa and other states. These have been required for over 
ten years, yet have never been implemented, have been twisted or dead 
ended. When US DHHS Audited all 50 States I don't think they even 
investigated these three requirements that would assist protection of 
basic citizen rights, because there seems to be no action to repair 
these functions in the works. The only way to force the states to honor 
their ten year old contract regarding these is to stop their money.

    Yes, they are all about money. State Child Protection agencies have 
become all about the money, Kevin W. Concannon is infamous for being in 
charge in Maine when Logan Marr was removed for reasons reminiscent of 
Rube Goldberg devices, only to end up dead in state care. The foster/
adopter was a former Child Protection caseworker who didn't believe in 
spanking, yet duct taped the girl to a high chair in her basement and 
duct taped over her mouth. Later when DHS director Concannon left 
Maine, Iowa hired him to Direct DHS here, actually stating the reason 
was his ability to bring this state more Federal Dollars for DHS 
programs. The Governor must not have noticed the revolving account 
repayment obligations and law suit settlements Maine got saddled with 
thanks to Concannon.
    But several avenues of redress are broken all over?

    A.
         Citizens Review Board, required for over TEN YEARS, each state 
was to have at least one, and in most cases 3 or more, as review boards 
over Child Protective Services case problems. These could have provided 
Hope for families dealing with caseworkers telling BIG LIES as in my 
families' case. Citizens Review Boards are required over CPS case 
problems. Not just over Foster Care, but over Child Protection 
malfunction. Iowa DID have a CRB two years ago which was all loaded 
with Child Protection workers and contractors, which by the way was 
against regulations. Now there is NO CRB except over Foster Care. (CRB 
combined with FC Review Board, now ICFCRB)
    B.
         DHHS ``PIQ'' directive ACYF-CB-PIQ-83-04(10/26/83) directs 
states to proivide Administrative hearing process to Federal 45 CFR 
205.10 standards regarding GRIEVANCES ABOUT SERVICES PROBLEMS Notice 
the DATE on that DHHS ``PIQ'' Directive? Kevin W. Concannon, director 
of Iowa DHS claims that we cannot have access to this process even 
though we meet the criteria. Concannon clung to some State Law that is 
inferior to the Federal law, denying us access to this grievance 
process for reasons which violate the Federal Law. Even though we DID 
claim to have been denied services in our complaint, he said we could 
not have access to this process since we were not denied services. 
Think about this a moment though, This creates a mess where MORE 
services is better, even if the services are needless, baseless, or in 
some way malfunctioning or rigged. As he spelled it out, this process 
could not REMOVE services applied without basis, and of course this 
process could never address qualitative problems with services, like 
bias, twisting or misuse. The process as described by Concannon is, 
effectively, of no use to correct grievous wrongs.
    C.
         The US DHHS holds purse strings and are supposed to require 
that state Child Protection Agencies comply with regulations to provide 
FAIRNESS and quality of service. The problem is that this is done on a 
FISCAL basis and DHHS refuses to investigate complaints from individual 
families about ABUSES BY STATE AGENCIES. DHHS refuses to investigate 
reports of agency abuses even where a state fails to provide a required 
corrective process like the Grievance Process on Services Problems. 
DHHS does not enforce their own PIQ directives to the states, and when 
the states get reviewed, the festering bad cases don't come to DHHS 
attention.
           This last summer, after Iowa DHS Child Protection failed an 
audit (every state failed), the state formed a ``stakeholders panel'' 
that was to be representative of both insiders (financial stakeholders) 
and families with a LIBERTY INTEREST stake in correcting DHS. The 
panel, as I found out, was completely stacked with people who 
financially benefit from the system as broken as it is. The state 
propagandized this as their genius and good intention, not mentioning 
the failed DHHS audit as a reason. The only person on the stakeholders 
panel who appeared to be a concerned parent e-mailed me back that she 
``would have to check with her advisors'' and never got back to me. 
That seemed odd. [sarcastic grin] Open meetings to collect public input 
were held in several places around the state, and a report on these 
comments was to be made public on a date set ahead of time. Large 
crowds of angry parents showed up at most of the open meetings and DHS 
did not make the report on public comments available on the web as 
promised. The DHS press release guy failed to answer my e-mail asking 
where this report is.
    D.
         Administrative Appeal on Child Neglect and Abuse REGISTRY When 
we turned in our appeal, Iowa took 100 days to even acknowledge 
receiving it, gave us 10 days to add more, and told us it was in their 
work stack. Then we heard nothing for over a YEAR. Then when we brought 
it up they held up the process waiting for the Judicial Process, which 
has gone on now with my family for almost 3 years.
           If ANY government fails to provide these required 
protections, they are guilty of emotional and psychological abuse of 
children and parents, and failure to protect citizens rights to due 
process. Parens Patriae is NOT just about kids. Our governments make 
LOUSY parents to citizens in general, why would you trust government 
with kids?
           MY OWN FAMILY has been betrayed for almost 3 years by 
corrupt State officials. The remedy for this bad treatment of citizens 
probably won't come from the State, and citizens have to beg the 
Federal Courts to protect them from bad State Government officials. I 
hear that the Federal Courts are reluctant to protect Citizens 
Constitutional Rights when it involves reversing bad decisions by state 
agencies.

    The Federal Government needs to take a more active role in 
correcting bad actions by the state Child Protection agencies in 
individual cases. Early on in this process, after learning that US DHHS 
regulations for Child Protection agencies were NOT being followed, my 
family was thoroughly disgusted to find that US DHHS turned away our 
inquiries seeking corrective help. The US DHHS does not want to talk to 
individual families about their case, even when DHHS regulations are 
being violated badly by the state Child Protection agency.
    Privacy laws are being perverted to deny families the 
CONSTITUTIONAL RIGHT TO CROSS EXAMINE DOCUMENTS USED AGAINST US IN 
JUVENILE COURT and even into the Iowa Supreme Court. The sophistry used 
is that we are not CRIMINALLY CHARGED, so we don't get our 
CONSTITUTIONAL protections! The state only REMOVED A CHILD! Isn't that 
a LIBERTY INTEREST as serious as a charge of murder?
    My fiance discovered that a transcript of a Juvenile Court hearing 
was ``doctored'' or altered badly. We had wondered why this short one 
took an inordinately long time to get to her and was not signed. The 
Iowa Supreme Court ruled against her request for the original source 
tape for verification. Imagine being told to proceed into the Iowa 
Supreme Court with a bogus and unsigned transcript to write the appeal 
brief from!
    The States and the Federal Government have failed to protect their 
own citizens from bad state state actors, run amok Child Protection 
caseworkers and Rubber Stamp Juvenile Courts who take caseworker lies 
as absolute truth.
    Many Child Protection caseworkers are living out some ``Rescue 
Fantasy'' and carry an anti-spanking political agenda even though it is 
LEGAL in every one of the 50 states. Many of the anti-spankers like to 
think of or represent judiciously used spanking as BEATING. This ruse 
does not generally play well outside of their socialist worker circles. 
If a caseworker doesn't like what they find out about a family that 
spanks their kids, they can't use SPANKING in court since it's legal 
within limits in EVERY state, so they they merely accuse the family of 
clutter or messy house and order Parent Skills classes. Virtually every 
parent skills class is anti-spanking. AND 90 percent of the parent 
skills class itself preaches no-spanking. Caseworkers commonly write 
down clutter or Messy House as catch-all designations, used when 
caseworkers are suspicious or don't like a parent but they don't have 
anything on them to make a case.
    The HYSTERIA about Child Abuse has to stop and RIGHTS need to be 
put back on a pedestal. I charge both Fed and State governments with 
``failure to protect'' Citizens Constitutional Rights in the face of 
the Child Protection INDUSTRY.
    YOU IN CONGRESS have not supervised the US DHHS well enough to 
discover that the states have failed to truly meet the TEN YEAR OLD 
obligations to fairness and self-correction (4 A,B and D above).
    My family has been trampled on for 2 years and 9 months. Yes, we 
had clutter, but we did not have filth. A witch hunt ensued, 
caseworkers got caught at terrible LIES. Juvenile Court refused to 
correct the lies, despite proof. Caseworkers are IMMUNE, so they LIE 
all the time to have their way. We were refused required Active 
Participation in FORMATION of Services Plan. This is the list of 
``services'', mini industries or ``hoops'' that parents are expected to 
jump through to get their kids back. Services were corrupted, tainted 
with gossip, fed with false information and in other words twisted to 
be against us from before we even started. UNFAIR.
    I was to go to a Psychological Evaluation, no apparent basis for 
assigning this service, just a list of ``issues'' made up by 
caseworkers playing at amateur psychology. One issue was my ``need to 
be the victim'' which they eventually removed quietly after the guy who 
assaulted me plead guilty to a simple assault. (charge should have been 
breaking and entering, but he's an ally to the state in this.) Later 
after I went to one session and the psychologist didn't find anything, 
he said he needed more information from Child Protection. I signed a 
release, and a stack of Child Protection documents an inch thick was 
sent to him. I began to ask a LOT of questions about how fair my 
``Psychological Evaluation'' was going to be. Too many parents 
similarly situated have told me that the psychologist reported exactly 
what the caseworkers WANTED him to report, generally in complete 
disagreement with the raw data from the standardized tests that they 
use for this. (Remember Psychology is an ARTS degree.)
    My fiance' went to Domestic Violence victim counseling that she was 
ORDERED into, even though there was never any Domestic Violence between 
us. It made SOME sense to inoculate her because I had Domestic Violence 
convictions many years before (I had a severely bi-polar wife years 
ago). But after Child Protection had their INPUT into this service the 
counselor became like the grand inquisitor trying to force some deep 
dark secrets out of her. When my fiance' denied what was in fact false, 
the counselor though she was ``in denial''. The counselor told a 
twisted story that I had pushed the childs ``head under water'' (was 
actually a shower spray to rinse off shampoo head that looked like an 
ice cream swirly) The counselor was trying to guilt and shame my fiance 
into getting rid of me. Child Protection commonly uses the ``divide and 
conquer'' tactic. My fiance' though, had already seen how Child 
Protection caseworkers LIED, twisted and distorted virtually everything 
innocent to portray it as EVIL.
    So we did not cooperate with ``services'', asking over and over for 
them to be repaired, made fair and not RIGGED. We were told, even 
yelled at to just do the services, and threatened with Termination of 
Parental Rights.
    When we found old documents from the very same Child Protection 
Agency showing that there was never any sexual abuse even HINTED at, we 
showed these documents to a contract Social Worker first.
    Then I showed them to the caseworker who fabricated the lie that I 
had a ``Sex Abuse History''. He verbally acknowledged that they did 
indeed disprove his sworn-to assertions in his affidavit to court.
    But STILL, to this day, nobody has corrected the ``Sex Abuse 
History'' fiction.
    --Juvenile Court here has refused many MOTIONS to correct the ``Sex 
Abuse History'' and refused hearings to correct it The exculpatory old 
documents were attached as exhibits.
    --Iowa Department of Human Services refuses to correct it. (All the 
way up the chain of command, Director and Governor even)
    --You would THINK that Social Workers should have ethical 
requirements to demand that proven falsehoods harming a family should 
be corrected, even if the Social Worker has to ``bite the hand that 
feeds them'' by urgently requesting that Iowa DHS correct the fictional 
``Sex Abuse History''.
    --You would EXPECT contract Social Workers to have a duty to the 
TRUTH, especially when known falsehood harms a family. Apparently 
however, pleasing the state agency caseworkers and getting their state 
contract renewed is more important than demanding that a PROVEN FALSE 
fabricated ``Sex Abuse History'' be corrected. Lutheran Social Services 
is the LARGEST contract provider of Social Workers in the world, yet, 
even after seeing exculpatory documents their Social Workers refused to 
ask Iowa DHS to correct the proven false ``Sex Abuse History''.
    --DHHS doesn't take complaints in individual cases of state agency 
abuses of families. Regardless of circumstances.
    The Jackson family starvation case recently caught the attention of 
Congress, but there have been large numbers of much less sensational 
cases that have done harm to massive numbers of families, partly 
because of the problems with OVERSIGHT and CORRECTION processes that 
are not working properly.
    PAYING states to get kids out of Foster Care only enabled them to 
REMOVE more needlessly and reward their friends who seek to adopt, like 
the woman who killed Logan Marr. Paying states to get kids adopted out 
only revved up a meatgrinder that has destroyed healthy families with 
relatively MINOR problems.
    I personally feel that the vast majority of children removed 
probably should NOT have been removed.
    Child Protection Caseworkers have treated my family as criminals, 
when in fact, no criminal law was broken. The more the caseworkers get 
proven WRONG in some cases, the more irate and vindictive they become. 
We had a caseworker who moved a visit into the Child Protection 
``fishbowl room'' for vindictive reasons. Then she looked for any 
complaints she could make about parenting skills. The complaint she 
wrote up IN COURT was that the mother was asking her daughter to spell 
words that were ``too difficult''. The words the caseworker actually 
complained about were ``exoskeleton'' and ``Hubble Space Telescope''.
    Not only was that caseworkers comments an intrusion into the 
mother's Constitutional right to direct her child's education, but the 
child's first grade teacher had assigned the word exoskeleton about a 
year earlier. The child had previously been tested as reading and 
spelling at a level YEARS ahead of her age group in school, and was in 
an Extended Learning Program in school.
    That would be a better way to reduce clogged and not functional 
Foster care systems. Stop FEEDING so many children to Foster Care 
homes. Stop the STATE's financial incentive to juggle kids in Foster 
Care, AND the incentives for people to BECOME Foster Care providers for 
financial reasons. (As with the Jackson family in New Jersey.)
    Why are there so many incentives to REMOVE kids, Terminate Parental 
Rights, and place kids in Foster/Adoptive situations? Where are the 
financial incentives for Child Protection agencies to REUNITE families?
    Please quickly force states to repair the required avenues of 
redress (4 A, B and D above), and please direct US DHHS to cut the 
money if states fail the ten year old obligations even one day more. 
Iowa is still showing no signs of honoring those OLD requirements, much 
less the new requirements that Congress and the President made law on 
June 25, 2003. What good will the Protecting Families and Children act 
(HR14 S.342 HR3839 Keeping Children and Families Safe Act President 
signed into law June 25, 2003) do when the previous TEN YEAR OLD 
requirements are still not met? Why wasn't the money cut off BEFORE, if 
not for the political demogoguery and political fears of smear tactics?
    A Federal District Judge in Illinois is angry because Child 
Protection changes he ordered 12 years ago have still not been 
implemented. Another one, Federal Judge Rebecca Pallmeyer in the Dupuy 
case declared the Illinois Child Protection system to be 
UNCONSTITUTIONAL. The agencies are so corrupt that they refuse to do 
the right things, drag feet with STUDIES costing millions, and DARE you 
in Congress to cut their precious funding.
    I say stop the flow of ``blood money'' to Child Protection. 
Withhold funding to state Child Protection agencies until they fulfill 
their contractual obligations to provide those safeguards of families, 
4 A, B and D above, agreed to ten years ago, in exchange for the money.

                                 <F-dash>

           Statement of Barbara Harris, Rocky Ridge, Maryland
    It is imperative that we implement mandatory investigative 
guidelines and a national investigation into all agencies and there 
investigators working with our law enforcement. Agencies such as Child 
Protective Services, Child Abuse/ Sexual Assault Units and all other 
civilian investigators that are currently working without guidelines 
are able to side step an individual's constitutional rights, by 
paraphrasing interviews, falsifying documents and writing their reports 
months later solely based on their recall.
    There are an increasing number of false allegations being lodged 
against good and caring fathers, mothers, step parents and 
grandparents, anyone with a grudge, ex-spouses, vindictive neighbors, 
shunned family members can make a false allegation with no fear of 
reprisal under current laws.
    Child Protective Services has a state and federally funded 
incentive to obscure facts, destroying many innocent families, the very 
foundation of our country. They do not need evidence, hearsay is 
sufficient. They are above the law and currently have no solid 
guidelines in which they must abide by.
     According to statistics, Federal taxpayers provided States $3.1 
billion in 2002 to supportchildren in foster care and adoptive 
settings, and $2.8 billion more in administrative fundingfor States and 
localities to use to ensure the safety of vulnerable children. That is 
a total of $5.9 billion dollars, a very high price tag for an 
unsupervised agency. With that kind of funding there is no excuses for 
errors in the system.
    The dramatic increase of children in foster care is alarming. 
Granted it's true, under extreme circumstances removal of a child or 
children from their homes is essential, however, it is also essential 
for there to be compelling evidence to do so. Every federally funded 
effort must be made to reunify these families. I have spoken with 
hundreds of parents whose families have unjustly been torn apart by 
Child Protective Services, these mothers and fathers cries fall on deaf 
ears.
    When I hear the horror stories of children falling victim to foster 
care and adoptive parents, why is it we never hear of how the children 
got there? Where did the mothers, fathers, grandparents, aunts, and 
uncles go? Were the immediate family members so horrible that these 
children end up with total strangers? Who determined the fate of these 
children? At what point do children have a say? What is the extent of 
psychological harm has been done to these children?
    When a claim of abuse arises, the authorities immediately pressure 
the child or children to substantiate that claim. However, when a child 
is asked, where do you want to live, does anyone listen? Where is the 
dividing line for children's rights? Why can we not clearly define the 
laws? These kids are our future, these agencies are destroying their 
future. Is this the kind of America we want to leave behind? Of course 
not, but it wouldn't be our problem then, it would be our children's 
problem. Out of sight, out of mind.
    I know how Child Protective Services works, I know how CASA works, 
my family has been victimized by these agencies. It was a sick feeling 
to learn that a CASA investigator, a civilian, could be allowed to 
verbally abuse my child with profanity in order to illicit a false 
confession of sexual abuse. I was forced to place a protective order 
against my husband. After that false confession, Child Protective 
Services came in with threats to remove my children, literally threats, 
if I didn't sign a release form allowing them access to my daughters 
psychologist and her records. There was no taped evidence and no 
supervision of these interviews. When my daughter recanted her story, 
and criminal charges were dropped, I filed to remove the protective 
order, Child Protective Services intervened at the court proceedings.
    The same CASA investigator was granted permission by the State's 
Attorney's office to bypass consensual monitoring equipment in order to 
obtain an alleged phone confession. This phone confession was only 
heard by the investigator, subsequent interviews were only monitored by 
a Child Protective Services worker. Although throughout the initial 
investigation a law enforcement officer was present, that officer did 
not monitor the civilian investigators interviews or actions.
    In a different case, the same CASA investigator tried to obtain a 
confession of sexual abuse by having the reporter of the crime wear a 
wire tap, when no confession was obtained numerous interviews were 
conducted with the reporters child, at no time during these interviews 
were any audio or videotapes made to accurately verify the victims 
statements or how the victims statement was obtained. In both of these 
cases the investigator was a prior acquaintance of the reporters.
    Children and teenagers are highly influenced by both authoritarian 
figures as well as peer pressure. When a person in a position to uphold 
the law abuses their power it is impossible to prove without the 
monitoring of their actions.
    By mandating audio and/ or videotaping of such interviews in there 
entirety, it would assist investigators in providing accurate reports, 
and hold those accountable for unethical procedures, under current laws 
these reporters are protected by complete immunity. Often times in 
court proceedings guilt or innocence lies on State expert witness 
testimony, without taped interviews erroneous statements are often made 
thus leading to false convictions. With the current technology 
available today, there is no reason why any person should be convicted 
on recall, theory, or opinion.
    These kinds of cases are clogging our courts, these innocent 
convictions are clogging our jails, these cases are costing taxpayers a 
fortune and I believe a huge portion of this could be prevented if 
there were mandated and strictly monitored procedures to follow.
    Thank you.

                                 <F-dash>

              Statement of Kandy Helson, Racine, Wisconsin
    Here is my statement. I am dismayed. I am an American citizen and I 
have voted in every election. The system of Child Welfare is out of 
control. Children are being taken from good families. The states 
receive adoption bonuses, this bonus system had a place but now it is 
no longer necessary. It is being abused. Here is why, a high percentage 
of child abuse cases are some form of neglect. The parents are very 
poorly represented in court. The child welfare workers have a money 
incentive to terminate parents rights. A HIGH percentage of these 
parents are having their rights terminated with no criminal charges. If 
criminal charges are not being filed a hardly see a reason enough to 
terminate parents rights. A serious child abuse crime should of been 
committed for parents to lose all rights. Not only do parents lose 
their rights but the rest of the extended family do as well. I believe 
this violates the civil rights of those relatives to see and continue a 
relationship with their blood relative. Another serious problem is the 
child welfare system receives more money if they can label the child 
with a mental disorder. They classify children who throw tantrums as 
behavior disorders. The children are being mentally abused by the 
separation from their families. Then they are drugged because that 
leads to more funding for the system. What child never throws a 
tantrum? How is there valid enough reason to terminate parents rights 
but not valid enough reason to file charges criminally. The funding 
should provide a way to prevent the neglect that led to the child being 
in the system. As neglect is the largest single reason children are 
removed from their families. A free government should not interfere 
with the family so harshly as what is being done now. A convicted 
murderer behind bars has more rights to visit, phone calls and letters 
from their children. The American public would be outraged if they knew 
exactly what the system that is supposed to protect children has turned 
into. It is a money making industry. It need a complete overhaul with 
an investigation and criminal charges brought against any worker at all 
levels who ripped apart families and abused their power. To continue to 
let it happen should lead to all government officials who were 
contacted and or notified of the abuses perpetrated on American 
families to be investigated who did not take action to investigate and 
correct this horrible tragedy.

                                 <F-dash>

                                       Indiana Civil Rights Council
                                          Whitestown, Indiana 46075
                                                  November 20, 2003
Committee on Ways and Means
U.S. House of Representatives
Subcommittee on Human Resources

    Dear Honorable Representatives:

    The following items are offered as straightforward suggestions to 
strengthen a fiscally-sound policy of responsible prevention of the 
majority of all child abuse and neglect in this country:
I. LIMIT TOTAL NUMBER OF ADOPTED/FOSTER CHILDREN PER HOUSEHOLD
    No new adoptions or foster placements in a particular residential 
household should even be considered when doing so would pass the total 
number of children, 17 years of age or younger, living in said 
household beyond a reasonable limit of (4-6 children: negotiable). 
Total number of children to include all sources, whether biological, 
adopted, foster, and children residing in the same household via any 
form of guardianship or custodial arrangements, temporary and/or 
permanent.
    Immediate moratoriums, regarding the above substance, should be 
placed into effect throughout all states/federal agencies involved with 
placement of children, and maintained until such times as legislatures 
can pass and implement corresponding law(s).
II. NATURAL PARENTS ARE THE FIRST PREFERENCE FOR CARETAKERS
    Instead of the current trends towards increasing the numbers of 
state removals of children from their natural parents (and, therefore, 
redistributed via adoption, fostering, and other programs), government 
must reverse this natural poison to society, and seek to strengthen 
priority of insuring that families remain intact whenever possible, 
feasible, and practical.
    If, due to documented abuse or neglect serious enough to warrant 
removal of a child or children from the home of a natural mother or 
father who does not reside with the other biological parent, then 
temporary and/or permanent custody should be immediately placed with 
that other biological parent, whenever possible, feasible, and 
practical, in mandatory preference to any alternative forms of 
residential placement of said child or children.
    If said abuse/neglect is serious enough to warrant removal from co-
habitating biological parents, then temporary placement elsewhere 
should be only long enough to determine if/when the family can be 
reunited.
III. DISPROPORTIONAL AWARDS OF SOLE CUSTODY IS BAD BUSINESS FOR AMERICA
    To further attack the general national incidence of child abuse/
neglect, laws that presume standard full joint custody of children (in 
separation, divorce, paternity, and similar proceedings) must be 
passed--quickly--in all remaining states which have not done so yet.
    The vast majority of custody awards (90%) rest with single mothers, 
with only about 5% resting with single fathers, and the remaining 5% 
being true joint/shared custody.
    Yet, while state and federal agencies, i.e., National Clearinghouse 
on Child Abuse and Neglect Information (``missing kids on milk 
cartons''), have continually documented the overwhelming consistency 
(60-62% annually) of single mothers perpetrating all murders, abuse, 
and neglect of minor children (typically also involving the absence of 
fathers in the child(rens) lives . . .), and while these same agencies 
have also studied and confirmed the higher liklihoods of children 
raised by single mothers to be involved with drugs, homeless, teenage 
pregnacies, runaways, violent criminals, homosexuals, suicidals, school 
drop-outs, and etc., (i.e., BIG costs of taxpayer dollars . . .), most 
state governments have still failed to pass presumed joint custody laws 
such as were passed in Wisconsin, Louisiana, Kansas, Pennsylvania, and 
most recently, Ohio. These states have found that such laws inhibit 
divorce rates, save families, keep fathers in childrens' lives, and, 
therefore, save children and large amounts of tax dollars.
            Respectfully submitted,
                                                      Torm L. Howse
                                                          President

                                 <F-dash>

Statement of E. Pamela Jones, In the Spirit of the Children, Inc., New 
                             York, New York
    I would like to take this opportunity to respond to a growing issue 
in the child welfare arena in this country. The unconscionable 
circumstances of the Jackson children in New Jersey is just one of many 
cases that have gone undocumented. It is only fair to all concerned to 
look at the whole picture rather than just look at this particular case 
when this and other cases have and will continue to surface on the 
front page of our nation's periodicals. If we as professionals, child 
welfare advocates, and service providers do not begin to speak out 
honestly about the real issues that have placed too many of the nations 
vulnerable children at risk, under the guise of protecting them and 
providing permanency for children in foster care in a effort to reduce 
the Child Welfare rolls.
    First let us examine the Adoption and Safe Families Act enacted in 
1997 (P.L. 105-89). This law when implemented placed an relentless 
emphasis on the States: Departments of Human Services, County 
Departments of Child and Family Services, and City Agencies to Identify 
prospective foster, Pre-adoptive and adoptive homes to its own 
detriment. This law also places a strong push on the states and its 
localities to compete feverishly to reduce their foster care placement 
rolls. The law further attached a monetary incentive of cash bonuses to 
the states for each child adopted.
    The pervasive issue prior to the law is and a remains today is the 
supply and the quality of prospective/identifiable homes for this 
population of vulnerable children. The number of children needing 
permanent loving, and caring homes far out-pace the number of people 
willing to take in these children and youth. The unspoken truth is that 
all too often those available and willing to take in these children are 
not always well-intended individuals, who are educated or otherwise 
positive role models who have qualities that would provide these 
children with greater life experiences than the environments the 
children have originated from. Many see the opportunity of opening 
their home to a child or children in need as a means to secure their 
mortgage, car note, and as prospective hired hands (servants) etc.
    In the case of New York with the implementation of the ASFA law the 
goal of providing Permanency for children in foster care has become a 
horse race. The emphasis is on getting the child off the child welfare 
rolls in the required time line (18mos.) in order to comply with the 
federal and state laws. The goal is not to ensure that those seeking 
permanent custody or adoption of a child will receive the needed 
supportive services upon the finalization of the adoption to ensure 
that there is successful fit for both the child and the adoptive family 
holistically.
    Rather, the goal becomes ascertaining the numbers needed to 
illustrate a reduction in the rolls, close the budget gap, i.e. 
deficit, and obtain the cash bonus. This in it self has created an 
atmosphere of fear of reprisals for those working in the trenches at 
the lower levels of the child welfare system, i.e.; Home finders, Case 
Mangers, Case Workers. The emphasis is finding homes (anyone) will do, 
in some cases the required background checks are waived, the income 
test overlooked; psycho-socials should be included in the background 
checks.
    In light of the fact that there are a number of children who enter 
foster care whom would benefit positively from a permanent home oppose 
to institutional environment. It would appear that monies allocated for 
foster care and adoption opportunities be better spent in aiding in the 
biological families and their children that want assistance and 
direction, such as family prevention and intervention services. In the 
cases where the only alternative is for the child/children to be placed 
in foster care or adoptive homes, provide these families with the 
supportive tools and monitoring needed to ensure that the child and 
families are adjusting appropriately.
    It is also suggested that the screening process for both 
prospective foster and adoptive parents be revised to assess the 
quality of care and nurturing they can actually provide, verses the 
persona that so many case workers are duped into, until the honeymoon 
period is over. The development of a concise evaluative tool for 
identified foster/adoptive homes would be most useful in determining 
the validity of the foster and adoptive parents. This will aid the 
system in weeding out those who have hidden agenda's and will reduce 
the recidivism rate of the number of children who are adopted at early 
ages and then returned to foster care in their adolescence, which is 
the unspoken truth that no one in the profession talks about.
    The other growing concern is a direct result of ASFA and the 
Welfare Reform Act; the numbers of Teen Mothers who have entered the 
foster care system, and are now targets under ASFA while in foster care 
placement. It is no secret that African-American children/youth are 
disportionately represented in the foster care system in the United 
States.
    Thus, the increased presence of teen mothers in foster care has 
created a resource pool and a quagmire. In this instance this 
particular population often enter foster care, as a direct result of 
not be eligible for TANF or public aid as many are under the age of 18. 
And under the Welfare Reform Act these young girls are the 
responsibility of their biological parents. The circumstances are such 
that when the biological parent of the young girl discovers that public 
assistance will not provide aid for the pregnant teen the parent then 
seeks either Voluntary Placement or a PINS of the young girl, and thus 
she enters foster care, for prenatal services and ultimately foster 
care placement. The newborn remains with the teen mother while in care 
the newborn in these cases is considered an emancipated minor.
    There has been a growing trend of this scenario since the inception 
of Welfare Reform, which has forced an explosion of teen moms in foster 
care. Understanding that a vast number of these young girls are in many 
instances discovering foster care and parenting for the first time and 
are unaware of the laws and circumstances that govern the system. This 
population has become prey to ASFA as enforced in child welfare. Thus, 
this circumstance has availed the foster care system use of ASFA to 
terminate the parental rights of these young mothers, and place the 
infants / toddlers in foster care and ultimately up for adoption.
    The problem that arises from the usage of ASFA and this population 
is that the youth that have become pregnant in an attempt to find love, 
nurturing, and the attention, that which was lacking at home from their 
biological parent. Tend to retaliate, by becoming pregnant again, which 
is known as replacement pregnancies and thus raises the pregnancy rate 
amongst this particular community and population. This issues is not 
isolated to the youth that enter care for the first time but is 
universal in the foster care system as a whole there are many issues 
that can and should be addressed, as there are many solutions that can 
help ameliorate these concerns if we just take the time to have real 
and honest dialogue about them.
    I am a former foster child of this horrendous system and have been 
a longstanding advocate for the children and youth represented in 
foster care. I am also an Independent consultant and trainer to child 
welfare and have been for the last 13 years. Presently, I am the 
Founder and Executive Director of ``In The Spirit Of The Children, 
Inc'' Which provides youth who have exited foster care with a continuum 
of services to avert homelessness of this population upon discharge.
    Thank you, for the opportunity to express my concerns on the 
current state of child welfare today.

                                 <F-dash>

 Statement of Joe Kroll, North American Council on Adoptable Children, 
                         Saint Paul, Minnesota
    The North American Council on Adoptable Children welcomes this 
opportunity to submit testimony on behalf of the tens of thousands of 
children adopted from the child welfare system every year, and the 
families who adopt them.
    Horrific cases like that of New Jersey's Jackson family engrave 
themselves in the public memory and focus attention on needed child 
welfare reform. At the same time, however, they may inadvertently 
exclude from public consciousness the crucial--and laudable--role 
played by hundreds of thousands of adoptive and other families who 
successfully care for this country's most needy and vulnerable 
children. We believe that at-risk children do best in well-supported, 
forever families--with birth families, relatives, or adoptive parents. 
Families who parent special needs children need increased support.
    NACAC knows that much work remains to help adoptive families after 
the adoption is finalized, to reduce the number of children entering 
child welfare systems in the first place, to increase recognition of 
relatives as permanency resources for their abused and neglected young 
kin, and to provide more support and supervision for foster parents.
Who Are the Children?
    Because of their early history of serious abuse and neglect, foster 
children who need permanent families often have debilitating special 
needs. More than 85 percent have a physical, mental, or emotional 
disability.<SUP>[1]</SUP> A child may rage so often that she cannot be 
in regular child care, be brain damaged from prenatal exposure to 
alcohol so that she cannot process more than one request at a time, or 
face life-altering depression that requires professional treatment. 
These problems do not end when the child returns home or is placed with 
a new, permanent family; some problems even intensify with 
age.<SUP>[2]</SUP> In spite of these disabilities--and the very real 
shortage of supportive services--foster, kinship, and adoptive parents 
are succeeding in caring for children who might otherwise be 
institutionalized.
---------------------------------------------------------------------------
    \[1]\ Child Welfare League of America. (2003). Testimony submitted 
to the House Subcommittee on Human Resources of the Committee on Ways 
and Means for the hearing on the implementation of the Adoption and 
Safe Families Act. Washington, DC, April 8, 2003.
    \[2]\ Rosenthal, J. & Groze, V. (1994). A longitudinal study of 
special-needs adoptive families. Child Welfare, 73 (6), 689-706.
---------------------------------------------------------------------------
How Prevalent is Maltreatment in Out-of-Home Care?
    Foster and adopted children are sometimes, tragically, victims of 
abuse and neglect while they are in out-of-home care. One study of more 
than 300,000 children in out-of-home care in Illinois in the 1990's 
found an average substantiated maltreatment rate of two per 
100.<SUP>[3]</SUP> But a follow-up study reported that one-third of 
that rate could have been  mistakenly attributed to out-of-home care 
providers.<SUP>[4]</SUP> By comparison, child maltreatment occurs in 
the general population at about 1.2 per 100.<SUP>[5]</SUP> Though more 
research is needed, it is evident that foster and adoptive parents need 
additional help in caring for special needs children and assuring their 
safety.
---------------------------------------------------------------------------
    \[3]\ Poertner, J., Bussey, M., & Flude, J. (1999). How safe are 
out-of-home placements? Children and Youth Services Review, 21(7), 549-
563.
    \[4]\ Tittle, G., Poertner, J., & Garnier, P. (2001). Child 
maltreatment in out of home care: What do we know now? Urbana, IL: 
Children & Family Research Center, School of Social Work, University of 
IL at Urbana-Champaign. Available on-line at: carehttp://
cfrcwww.social.uiuc.edu/pubs/ListResults2.asp.
    \[5]\ U.S. Department of Health & Human Services. (2003). News 
release. HHS releases 2001 national statistics on child abuse and 
neglect. Washington, DC: U.S. D.H.H.S. Available on line at: http://
www.hhs.gov/news/press/2003pres/20030401.html.
---------------------------------------------------------------------------
How Does Congress View Adoption?
    Twice Congress has acknowledged that families who adopt children 
from foster care face a difficult job and need extra assistance. The 
Adoption Assistance and Child Welfare Act, Public Law 96-272, passed by 
Congress in 1980, sought to remove the disincentives to special needs 
adoption and granted adoptive parents monthly stipends, matched with 
state dollars, that could not exceed the monthly foster care rate. 
Since the passage of 96-272, adopted children have fared better than 
children who remained in long-term foster care. Evidence-based research 
tells us that adopted children have higher levels of emotional 
security, a greater sense of belonging, and higher levels of well-being 
compared to children in long-term foster care.<SUP>[6]</SUP>
---------------------------------------------------------------------------
    \[6]\ Triseliotis, J. (2002). Long-term foster care or adoption? 
The evidence examined. Child & Family Social Work, 7(1), 23-33.
---------------------------------------------------------------------------
    As children's stays in foster care lengthened and foster care rolls 
grew in the early 90's, Congress again acknowledged the overall success 
of adoption and passed the Adoption and Safe Families Act of 1997. ASFA 
provides states with incentives to find adoptive or other homes for 
foster children and prioritizes safety in all decisions concerning 
family preservation and reunification. The Act amended critical 
sections of the Adoption Assistance and Child Welfare Act of 1980 by 
identifying cases in which reunification services are not required; 
instructed states to file a petition to terminate parental rights when 
a child has been in foster care for 15 of the most recent 22 months; 
and entitled children to ``reasonable efforts'' to an adoptive home if 
they cannot return to their birth family, among other provisions. ASFA 
had the intended effect of reducing the backlog of children in foster 
care who were waiting to be adopted.<SUP>[7]</SUP> However, not enough 
time has passed to ascertain the effects of ASFA on the children who 
entered the child welfare system in 1997 and after.<SUP>[8]</SUP>
---------------------------------------------------------------------------
    \[7]\ Wulczyn, F. (2002). Adoption Dynamics: The Impact of the 
Adoption and Safe Families Act. Available online at http://
aspe.hhs.gov/hsp/fostercare-issues02/ASFA/index.ht. Washington, DC: 
U.S. Department of Health and Human Services.
    \[8]\ Ibid.
---------------------------------------------------------------------------
Where Do We Go From Here?
    The Collingswood, New Jersey case has riveted the public's 
attention on the alleged neglectful behavior of an adoptive family, the 
short-comings of the child welfare system, and the need for change. One 
suggested change is to require a yearly child physical as a part of an 
adoptive families' adoption subsidy re-certification process, which 
could be positive if warranted services were also required and funded 
after the physical. But if the physical serves only as a child 
protection monitoring devise, adoptive families would be unfairly 
singled out for observation. No other class of parents would have a 
similar health monitoring requirement. Perhaps a more constructive 
change would be the enhancement of the widely successful federal 
adoption assistance program to include support and services for all 
families after adoption.
Recommendation: NACAC advocates that services follow children when they 
        move from foster care to adoption. NACAC recommends that the 
        federal adoption incentive funds be targeted for post-adoption 
        services.
           There is proof of a strong relationship between providing 
        routine support and services to adoptive families and positive 
        outcomes in terms of child health, well-being, and family 
        stability, especially when mental health services are 
        provided.<SUP>[9]</SUP> Post-adoption services should be 
        tailored to meet the child's and families' needs, and may 
        include: information and referral, case management, respite 
        care, education, therapeutic interventions, advocacy, and birth 
        family mediation when needed.
---------------------------------------------------------------------------
    \[9]\ Casey Family Services. (2000). Strengthening families and 
communities: An approach to post-adoption services, A white paper. 
Shelton, CT: Casey Family Services.
---------------------------------------------------------------------------
           Initial findings from the Maine Adoption Guide Intervention 
        Project, a post-adoption support program, notes differences 
        between adoptive families that received Guide services, and 
        adoptive families who did not. Guide families report higher 
        levels of attachment to their adopted children, increased 
        levels of family trust, and better ``quality of life'' 
        scores.<SUP>[10]</SUP> The primary focus of the Maine Adoption 
        Guide program is to allow the adoptive family to determine what 
        they need to be healthy and safe. A clinical case manager asks 
        the family, ``How can I help?'' For example, families ask for 
        and receive child mental health counseling, support from other 
        adoptive parents, and social work assistance when attending 
        their child's special education meetings.
---------------------------------------------------------------------------
    \[10]\ Michael Lahti. (October 8, 2003). Personal communication. 
Portland, ME: University of Southern Maine, Edmund Muskie School of 
Public Service.
---------------------------------------------------------------------------
What Else Would Help Keep Vulnerable Children Safe?
    NACAC believes that wider system improvement must occur so that 
fewer children enter the foster care system, and so that those who do 
will find increased levels of safety and sustenance. At-risk families 
should receive proven preventive services to avert their entry into the 
child protection system in the first place. Relatives of abused and 
neglected children should be more systematically sought and supported 
when they step forward to care for their young kin. More foster 
families who care for very troubled children should receive extra 
attention and supervision.
Recommendation: create well-designed, universal, nurse home visiting 
        programs for at-risk families in order to halve the number of 
        children entering the U.S. child welfare system<SUP>[11]</SUP>
           Home visits by nurses in the first two years of a child's 
        life improves the functioning of at-risk parents & reduces the 
        incidence of child maltreatment. Evidence-based interventions 
        such as well-designed nurse home-visiting programs have been 
        proven to reduce subsequent pregnancies, cut welfare use, and 
        decrease criminal behavior in at-risk parents, and lessen the 
        chance of child abuse and neglect <SUP>[12]</SUP>
---------------------------------------------------------------------------
    \[11]\ Wulczyn, F. (June, 2001). Age as a risk factor in the 
placement of children in foster care. Paper delivered at the Annie E. 
Casey Foundation's child welfare financing briefing.
    \[12]\ Olds, D., et al., (1997). Long-term effects of home 
visitation on maternal life course and child abuse and neglect. JAMA, 
278(8), 637-643.
---------------------------------------------------------------------------
Recommendation: Acknowledge kinship care for the stability and well-
        being it brings to vulnerable children. Make subsidized 
        guardianship eligible for federal financial support without 
        requiring a waiver.
           NACAC supports the Kinship Guardianship Assistance Program 
        (K-GAP) provision contained within the Dodd-Miller Act to Leave 
        No Child Behind--children's legislation that is pending before 
        Congress. The K-GAP provision would allow all states to use 
        federal Title IV-E foster care funding to establish or expand a 
        subsidized guardianship program for children who can safely 
        exit the foster care system into legal guardianship of 
        qualified relatives.<SUP>[13]</SUP>
---------------------------------------------------------------------------
    \[13]\ Allen, M.L., Bisell, M., Miller, J. (2003). Expanding 
permanency options for children: A guide to subsidized guardianship 
programs. Washington, DC: Children's Defense Fund & Cormerstone 
Consulting Group.
---------------------------------------------------------------------------
           Relatives have emerged as a major source of well-being and 
        permanence for children entering and leaving foster care, and 
        should be uniformly recognized and supported as such. In 1986, 
        18 percent of foster children lived with relatives who were not 
        their parents; by 2000, 25 percent of foster children lived 
        with kin.<SUP>[14]</SUP> Children in quality kinship care 
        programs are safer, more stable, and have greater continuity 
        than children in non-relative foster care.<SUP>[15]</SUP>
---------------------------------------------------------------------------
    \[14]\ Office of the Inspector General. (1992). Using relatives for 
foster care. (OEI-06-09-02390). Washington, DC: U.S. DHHS; U.S. 
Department of Health and Human Services. (2001). AFCARS report #5 
(Preliminary estimates published April, 2001). Available on line at: 
http://www.acf.dhhs.gov/programs/cb/publications/afcars/apr2001.html.
    \[15]\ Benedict, M., Zuravin, S., & Stallings, R. (1996). Adult 
functioning of children who lived in kin versus non-relative family 
foster homes. Child Welfare, 75(5), 529-549; Berrick, J., Barth, R., 
Needell, B. (1994). A comparison of kinship foster homes and foster 
family homes: Implications for kinship foster care as family 
preservation. Child and Youth Services Review, 16(1-2), 33-64; 
Inglehart, A. (1994). Kinship foster care: Placement, service, and 
outcome issues. Children and Youth Services Review, 16(1-2), 7-32.
---------------------------------------------------------------------------
           Today 34 states and the District of Columbia have 
        implemented subsidized guardianship programs as a permanent 
        alternative to adoption for certain foster children leaving the 
        child welfare system.<SUP>[16]</SUP> Guardians are usually 
        relatives or close family friends who receive a monthly stipend 
        that is often between the TANF rate and the foster care rate.
---------------------------------------------------------------------------
    \[16]\ Allen, M.L. et al. (2003). Op. Cit.
---------------------------------------------------------------------------
           Relatives are also choosing to adopt their young, dependent 
        kin in larger numbers than previously. The Multistate Foster 
        Care Data Archive has recorded a significant increase in the 
        probability of adoption over the last 12 years for African 
        American children residing with relatives in urban areas, 
        though these adoptions take a long time to 
        complete.<SUP>[17]</SUP>
---------------------------------------------------------------------------
    \[17]\ Wulczyn, F. (2002). Adoption Dynamics: The Impact of 
Adoption and Safe Families Act. Available online at http://
aspe.hhs.gov/hsp/fostercare-issues02/ASFA/index.htm. Washington DC: 
U.S. Department of Health and Human Services.)
---------------------------------------------------------------------------
           More than 50 percent of children in relative care families 
        live with a grandparent who is poor and has health 
        problems.<SUP>[18]</SUP> A Native-American, disabled 
        grandmother in Minneapolis caring for her abandoned, 
        hyperactive, four-year-old grandson failed to qualify for 
        foster care payments and received only a TANF payment for his 
        care. She also lacked transportation to get him to and from 
        numerous medical appointments. She desperately wanted more 
        social work help than she got. Yet this grandparent regularly 
        sent her grandson to pre-school and stabilized his chaotic 
        life. Despite relatives' greater needs, they are offered fewer 
        services than non-kin foster parents, ask for fewer services, 
        and face barriers to receiving <SUP>[19]</SUP> And cash-
        strapped state and county child welfare systems don't have the 
        dollars it takes to staff positions to check in frequently on 
        the grandmother in the example above. Yet the well-being of 
        vulnerable children clearly requires more investment than we 
        are currently providing for relative caregivers.
---------------------------------------------------------------------------
    \[18]\ Andrews Scarcella, C., Ehrle, J., & Geen, R. (2003). 
Identifying and addressing the needs of children in grandparent care. 
Washington, DC: The Urban Institute. Assessing the New Federalism, 
Series B, No. B-55.
    \[19]\ Ibid.
---------------------------------------------------------------------------
Recommendation: NACAC calls for additional federal and state investment 
        in foster parent training, support, and supervision to increase 
        child safety and quality permanency planning.
          More foster families should receive the attention and 
        supervision that treatment foster families traditionally 
        receive. Treatment foster care has generally been reserved for 
        older, highly troubled foster children as an alternative to 
        group or institutional care. Treatment foster care is one of 
        the most widely used forms of out-of-home placement for 
        children and adolescents with severe emotional and behavioral 
        disorders.<SUP>[20]</SUP> Treatment foster parents are trained, 
        supported, and closely supervised to participate as a member of 
        the case planning and treatment team.
---------------------------------------------------------------------------
    \[20]\ Chamberlain, P. (2000). What works in treatment foster care, 
pp. 157-162. In M. Kluger, G. Alexander, & P. Curtis, eds., What works 
in child welfare. Washington, DC:CWLA Press.
---------------------------------------------------------------------------
          Yet over time an increasing number of children have entered 
        foster care with more severe mental health, developmental, and 
        physical health problems <SUP>[21]</SUP> meriting a call for 
        more foster parents to receive the level of support and 
        supervision that treatment foster parents receive. Levels of 
        safety appear to be higher for children in treatment, or 
        specialized, foster care.<SUP>[22]</SUP> Certainly this is 
        another approach that is worth our investment.
---------------------------------------------------------------------------
    \[21]\ U.S. General Accounting Office. (1998). Foster care agencies 
face challenges securing stable homes for children of substance 
abusers. Report to the Chairman, Committee on Finance, U.S. Senate. 
GAO/HEHS-98-182. Washington, DC: Government Printing Office.
    \[22]\ Poertner, J., Bussey, M., & Flude, J. (1999). How safe are 
out-of-home placements? Children and Youth Services Review, 21(7), 549-
563.
---------------------------------------------------------------------------
Conclusion
    Whenever a child is abused it is a tragedy that leads to the 
question: What could have been done to prevent it? Cases like the 
Jackson's raise serious questions about child welfare. We believe the 
solutions can be found in the hundreds of thousands of families who 
successfully care for special needs children each day. What can we 
learn from the grandmother living on social security who cares for her 
two grandchildren? What can we learn from the empty-nester couple who 
opened their home to four teenage boys? If we are serious about 
supporting children in families we will look to the mainly competent, 
real people caring for our most needy children to find the solutions. 
The real issue is the level of support the state provides to adoptive 
and other families who step forward to care for the nation's abused and 
neglected children.

                                 <F-dash>

            Statement of Darlene G. Sowles, Pueblo, Colorado
    Although the New Jersey case was horrible, this more is an 
indication of lack of funding available to train and retain good 
workers, and should NOT be used to scapegoat adoptive families. The 
purpose of subsidies is to get special needs children out of the foster 
care system and into permanent, loving homes, and there is no question 
that this is occurring. Although there may be problems with the system, 
and with selecting some families who are not appropriate, don't 
penalize the majority of families nationwide who are parenting children 
who otherwise would remain in long-term foster care (at a much much 
greater cost to society). I have two adopted children who were 
prenatally exposed to drugs and alcohol. We have additional therapies 
each month as well as additional medical needs due to this exposure; 
such as asthma and intestinal problems due to sensory integration 
dysfunction as a result of drugs in their system. We could not have 
adopted had we not had a subsidy for these children. As a former 
adoptive family advocate I have worked with many families who have the 
same issues. Please, please do not allow the foster and adoptive 
families to suffer because of one case that truly is not determined who 
is to blame (caseworkers or the family, or even the neighbors and 
community who knew something was wrong.) Also keep in mind that many 
times children who never got their hunger needs met now suffer from 
illness and eating disorders that cause problems in the child's health 
not because they weren't being offered food but because they either 
aren't eating enough or they can't keep it in. So. . .please do the 
research before making a decision. Thank you for hearing our prayers.

                                 <F-dash>

                 Statement of Jody Wardell, Enon, Ohio
    My name is Jody Wardell. I have had extensive dealings with the 
Department of Public Health and Human Services (DPHHS) as a foster and 
adoptive parent in Ohio and as a military family stationed in Montana. 
I have had positive and negative experiences with social workers but 
the negative experiences left indelible impressions upon me insomuch 
that I have gone back to school to obtain a social psychology degree.
    As you read through my testimony, here are a few things I would 
like you to remember: 1) I am not testifying to commiserate or complain 
but to ask that this committee simply begin by asking the right 
questions about our most vulnerable children; 2) Clearly understand 
that my views do not represent any group or religious affiliation. 3) 
What I say and what I do is purely out of love for this country, love 
for freedom, and love of the legislative process. I alone am 
responsible for my opinions in my effort to exercise freedom of speech; 
and 4) my opinions are to express deep concern over possible 
constitutionally incorrect policies and procedures that are often 
promoted in legislative efforts under the guise of saving children.
    My goal is to re-establish a standard regarding family as the 
fundamental and essential unit of society. It is my desire to encourage 
you to search for universal truth, not merely believe ``experts'' 
touted by the department; experts who often line their pockets with 
taxpayer dollars only to conclude that ``more studies'' are needed.
    At my own expense I have been working to expose fraud, waste, and 
abuse within the Montana DPHHS Child and Family Service Division (CFSD) 
for 3 years. I wrote and produced my own newsletter to keep Montana 
legislators informed and continue to work out of Ohio to help keep 
information circulating. I also took more than 10 telephone calls 
during a 2 and a half hour talk radio show in Kalispell, Montana 
dealing with issues of abusive social work power.
    Current social work abuse and neglect in Montana is undermining 
family as the fundamental unit of society, not only in terms of the 
trauma caused to the maltreated parents and children through false 
allegations, but also in gross abuse of taxpayer dollars. The cost 
economically includes 1) the funds spent on child welfare services 
based upon false allegations and 2) the increasingly large sums of 
money dedicated to addressing issues based upon ``precautionary 
principles'' of ``possible'' consequences of abuse and neglect which in 
reality, simply do not exist.
    Critics of the Montana DPPHS CFSD have begun to turn public 
attention toward what appears to be a DPPHS systemic problem. A 
cultural problem that apparently has been ignored by Montana DPHHS 
bureaucrats for years: Social workers can and do lie due to personal 
issues of dysfunction which cause maladjusted perceptions of abuse, 
compassion fatigue and burnout.
    To date, there are no in-depth or rigorous financial analyses being 
conducted to give taxpayers a solid understanding of excessive costs of 
social workers maltreatingthe falsely accused, (i.e., the costs of not 
preventing social worker abuse and neglect) let alone a comparative 
study to the economic savings associated with preventing social worker 
abuse and neglect.
    It is a fact that most social workers would have Anne Sullivan 
arrested for child abuse by today's standards for what could be, might 
be, or possibly be abuse. Many would charge her with psychological, 
emotional, and physical abuse or the potential for abuse regarding the 
pioneering work she did with Helen Keller. It is a fact that under 
current state and federal laws parents are often accused of abuse for 
using a variety of healthy, normal, traditional teaching techniques. 
Doctors, School Teachers, Therapists, and even Psychologists feel 
threatened that they could be charged with a Felony for failure to 
report this same kind of ``abuse'' if they do not subscribe to a DPHHS 
social worker theory.
    Anyone can be accused anonymously and never face the accuser, even 
if it was a therapist who heard the information from a second hand 
source. Whether or not it was true, a child could be removed from 
school or a home, and then be listed in all ``data'' as ``vulnerable'' 
for years.
    What follows are but a few publicly documented problems. I believe 
this shows just how skewed Montana DPHHS social work data is on 
``vulnerable'' cases. These types of problems are truly the tip of the 
iceberg when it comes to alleged corruption in current trend of what I 
believe is a new emergence of a civil religion, one in which there is 
no separation of church and state because of the combinations of power 
granted to the executive branch of government:

November 6, 2003

Policeman fired over sex charges http://www.greatfallstribune.com/news/
stories/20031106/localnews/589954.html Great Falls police officer 
Jeffrey Cathel was fired Wednesday amid charges that he had sex with 
two girls for several years. Court documents describe on-going 
relationships with both victims, one of whom was 10 years old when 
Cathel first had sex with her and the other who gave birth to his son. 
Both victims are now adults.
http://www.gftribune.com/news/stories/20030803/localnews/1367.html

Woman battles to regain babies confiscated by Alaska, Montana  Montana 
took her newborn son, Joseph, from the Benefis East nursery Monday, 
just 14 hours after he was born. He is 6 days old. Brown may have a 
chance to regain custody of the boy in a court hearing Thursday at 11 
a.m. before state District Judge Julie Macek. ``By that time, my milk's 
going to be dried up,'' she said. ``They really don't care.''

April 9, 2003--Social worker pleads guilty to buying cocaine from 
client A former social worker admitted Wednesday that she bought 
cocaine from one of her clients. Rita Watson Bennet, 49, pleaded guilty 
to possession of dangerous drugs and official misconduct. The Bozeman 
woman gave curt answers to the questions put to her by District Court 
Judge Nels Swandal at a change . . .
bozemandailychronicle.com/articles/2003/04/09/news/drugsbzbigs.txt

July 17, 2002--Social worker pleas innocent to buying drugs from client 
A Bozeman social worker pleaded innocent in district court Monday to 
charges that she coerced one of her clients to supply her with cocaine. 
Rita Watson Bennet, 48, faces three drug-related felony charges as well 
as a misdemeanor charge of official misconduct, for allegedly 
committing a crime in her . . .
bozemandailychronicle.com/articles/2002/07/17/news828.txt

May 31, 2002--Social worker charged with extorting cocaine from client 
A case worker employed by a state welfare agency paid a Gallatin County 
man $300 for a bag of cocaine after telling him she would let him 
return home to his family if he supplied her with drugs, according to 
documents filed Thursday in a Bozeman court. Rita Bennet, a 48-year-old 
Bozeman woman, was a . . .
bozemandailychronicle.com/articles/2002/05/31/news49701.txt

http://www.missoulanews.com/Archives/News.asp?no=942
Who Guards the Guardians?

by RUTH THORNING, Photos by CHAD HARDER
Originally Published: 5/4/2000 In the Feature-News section

       . . . This teenager knows what she is talking about. A few years 
ago, the state's Child Protective Services (CPS, then known as the 
Department of Family Services) came to her school and swept her and her 
sisters away from her family. They were apart for three and a half 
months. She remembers it vividly. The scars run deep. They will always 
hurt.

Montana State Supreme Court reverses lower court decision
    The absence of an adjudication prior to approval of a treatment 
plan renders the statutory requirements of  41-3-609(1)(f), MCA, 
unsatisfied. The District Court failed to comply with statute and 
provide fundamentally fair procedures at each stage of the termination 
proceedings, as required by due process, thus erring in terminating 
R.W.'s parental rights.
    How does one expose the level of corruption that appears to exist 
in the Department of Health and Human Services Division of Child and 
Family Services?

    <bullet>  Montana DPHHS seems to be a closed, society of opinion 
and gossip, which has power to self-exempt and justify abuses of power 
in the name of ``saving children.''
    <bullet>  The social workers who control the power also control the 
way information is presented and interpreted, whether or not it is true 
or correct.
    <bullet>  There seems to be no way to get anyone up the DPHHS chain 
of command to listen because social workers appear to operate in a 
closed society of friends so no one really reads all of the 
documentation in the credible files because they rely on ``nutshell'' 
history dictated by groupthink phraseology.
    <bullet>  Therefore data that has been collected for Montana to 
receive the federal funding it depends upon is and has been skewed and 
incorrect for years.

    Allow me to show you how easily it is to be deceived by 
``credible'' record and file keeping, let alone data collected based 
upon false reality worlds: (See: The Social Animal by Elliot Aronson 
and The Color Code, by Dr. Taylor Hartman)

    SOCIAL COGNITION: The ability to select, interpret, remember, and 
use social information to make judgments and decisions and very often 
done using subjective opinion based on personal experiences of: ``what 
is bad and what is good?''

    The right questions then become:

    What is the social workers personal history of ``abuse'' and what 
type of personality are they? Addictive? Emotional? Immature? Psycho-
sociopath?

    If a rape victim or physical abuse victim goes into counseling to 
``help others,'' how much baggage is brought to social cognition based 
upon the trauma? How recovered is the social workers ability to reason 
and not misinterpret normal behavior as ``possible'' abuse?

    COGNITIVE MISERS: Burned out social workers simplify and reduce 
information overload. They must be watched for ``social cognition 
patterns'' in language as ``experts'' interact with one another. 
Because social work lends itself to civil religious belief that ``we 
all are capable of abuse,'' it becomes important to look at nods, 
gestures, lack of eye contact or a glance away, and repetitive phrases 
that are used as information decoys since they are key rituals used in 
social work communication.

    The right questions are:

    What happens then in the narrative of the case file? Once a lie is 
told, like the game of gossip, how does it get repealed from the 
``credible'' files? How does the social worker interpret body language 
in relationship to herself? What types of manipulations do social 
workers interject into their writings while editing out their social 
cognition patterns from the equation?

    SOCIAL CONTEXT: Files are colorfully painted with social worker 
opinion, evident in redundant psycho-freak terminology, steeped in 
psycho cultural and social babble.

    The right questions become: Could it be that too many social work 
teams are stacked with group-thinkers or like-minded individuals or are 
teams of ``experts'' being formed, not rotated frequently enough to 
challenge opinions or facts?

    One of the first things that I teach victims of DPHHS abuse is to 
learn the psycho-phraseology of the social work community with whom 
they are forced to work. Social workers have a language all their own, 
and one must truly pinpoint social worker definitions of what ``is'' 
is.

COMPARISON OF ALTERNATIVES: Is the information/data framed or posed to 
help you compare possibilities by reaching out to you through emotional 
stimulation or factual evidence? What is the social worker ``hook'' and 
is it the only thing that keeps drawing your attention? If the ``hook'' 
was a lie or incorrect perception, does that affect the comparison?

CONTEXT ACCESSIBILITY: Does the situation appear to be better or worse 
than it is, depending upon to what it is compared? What is the decoy? 
How and when is information placed? What is the first and last thing 
you remember?

PRIMING: The order of the information to preface and enhance the punch 
line the social worker wants you to hear. Note the order of information 
as it graduates to frenzy, and then note the accessible information 
based on the social workers experience. Are you traumatized by the 
emotional might be's or is there clear evidence present?

    Example: Your Honor, Mother was on time for the visit but, there 
was no warmth in the visit, and remember the house was dirty and she 
might be suffering from Munchausen by Proxy therefore, well, draw your 
own conclusions, because the sky is falling, the sky is falling, and it 
will hit you on the head if you do not grant me power to save this one 
child--because I am the only one who cares about this child . . .
    If a parent is falsely accused of abuse do you understand the 
stress in the lives of the family members?
                      Asking the right questions:
    Asking the right questions of DPHHS is paramount to getting the 
right data if you are to serve the truly vulnerable. Here are few that 
might be of some value:

    <bullet>  What law or rules state what child abuse is not?
    <bullet>  Are social workers required to advise the accused of 
their Miranda Rights like the police must do?
    <bullet>  If children are to been ``seen, heard, and believed'' 
then what are the administrative rules that define what one is to do 
with a child who is a pathological liar?
    <bullet>  Do social workers have a personal history of dysfunction 
that might cloud their judgment? I.e. how many are married, divorced 
and how many marriages, shack ups, with or without children?
    <bullet>   How many social workers uphold the traditional family, 
father, mother, and children, as the fundamental unit of society?
    <bullet>  Are they qualified to meet the needs of families with 
different values from their own life styles and moral standards?
    <bullet>  Is there a break down on the length of time a social 
worker remains in DFS, from interns to administrators?
    <bullet>  Are they given regular psychological evaluations to rule 
out compassion fatigue, compassion burnout, or victim-over 
identification problems?
    <bullet>  What kind of personal mental health training is given to 
social workers and who qualifies, teaches, and determines adequate 
training?
    <bullet>  Is there a pattern of personalities and frequented teams 
of individuals that appear to be a combination not friendly to 
families? I.e., outside agencies frequented, therapists frequented or 
does the agency not prefer certain therapists because they are too 
family oriented?
    <bullet>  Does DPHHS admit or confirm human error in their agency 
or do they justify wrong doing with ``doing the very best'' they can 
do?
    <bullet>  How many quit the department because no one up the chain 
has done anything to stop rogue social work in the last ten years?
    <bullet>  How often are parents told, ``Good luck, cut your losses 
and run'' once the agency is involved?
    <bullet>  Can confidentiality really be maintained by teams of 
volunteers or treatment teams yet parents are not given the same 
information as these strangers due to confidentiality or ``need'' for 
the child's privacy?
    <bullet>  Why is forcibly removing a child not considered arrest?
    <bullet>  What internal disciplinary procedures are codified or do 
social workers have more compassion for their own?
    <bullet>  How thick is the wall of silence within the agency?
Anger or Righteous Indignation?
    Several years ago a dear friend of mine told me that she never knew 
she could annoy someone, until she met me. She could tell when I was 
finished listening to her or tired of her. To say I was surprised at 
her comment would be an understatement. I know I annoy people. How was 
it she, after 40+ years of living on this earth, just figured out she 
could annoy someone?
    How is it abusive social workers think they are not annoying? Well, 
simply put, like true abusers do, they sit in this state called 
``denial.''
    Because social workers deal daily with ``garbage in,'' because they 
are steeped in looking for, searching for, and in justifying abuse 
allegations they very often fail to recognize their own emotional 
dysfunction or mental instability in producing ``garbage out'' 
accusations, suppositions, and rhetoric. True social work abusers fail 
to or are incapable of sincerely recognizing their own irritating 
faults, which can and do drive normal people into sore frustrations, 
and genuinely concerned individuals over the edge. Abusive social 
worker provocations are then misinterpreted as anger in the falsely 
accused.
    What I'm suggesting is: we each can, have, or will annoy someone in 
our life span. Social Workers, many who all too often come with excess 
dysfunctional baggage, might be prone to picking at normal, healthy 
individuals thereby creating a dysfunctional situation when none 
initially existed prior to social work ``intervention.''
    It is easy then to see how a DPHHS CFSD superior might ignore, 
deny, excuse, and belittle legitimate concerns regarding true abuse of 
social work practices in the CFSD. Dealing with a ``team'' of social 
workers might very well be the reason a falsely accused individual is 
``emotional'' or ``anxiety ridden'' or even ``sorely frustrated.''
    Social Workers do escalate problems with arrogance, rudeness, and 
lack of compassion toward those they are to be preserving in families. 
Social Workers do commit abuse or omit meeting the needs of the very 
souls who come to them for help. Social workers often become the 
abusers, falsely bearing witness to things as they appear from narrow 
minded, biased opinions because they think they ``know it all.'' They 
too often believe their ``training'' makes them invulnerable. As team 
members, they can become subject to groupthink hysteria.
    The victim of false allegations has nothing to do but worry about 
clearing his or her name in order to get a child back. It can be 
emotionally draining. It is absolutely demoralizing. It is physically 
consuming. The victim of social worker abuse might be broke, broken 
hearted, and broken somewhat in spirit, especially when no longer 
knowing in whom to trust.
    Who do you trust when the lies and deceits are unveiled? Your 
therapist? Your neighbor?
    When you read your ``credible file'' with ambiguous language or 
subjective opinion, no facts, how do you feel? What do you feel when 
your words are twisted, grossly misrepresented, and even falsely 
attributed it to you?
    Therefore what? Stop ignoring what you hear from the victims of 
social work abuse! Stop telling victims of multiple character 
assassinations and emotional rape to calm down. Think about their 
trauma of having to, for years, retell the horrific story to everyone 
they meet, hoping that one person will have the guts to take them at 
face value.
    Remember: Too many social workers believe that they are above 
reproach, without guile, somewhat filled with arrogant superiority for 
having ``overcome'' their sick, personal and family dysfunctions (all 
too often worn as a ``Red Badge of Courage'').
    Most victims of DPHHS did not need anger management until they 
stared into the faces of the dysfunctional social worker with her/his 
``team'' of closed consensus puppets.
    Perhaps now, when looked upon in this prudential light, the anger 
of the victims might be then classified more in the line of righteous 
indignation. If so, ought not the greater part of compassion be 
exercised unto the wounded and weary victims of social work abuses, 
valiantly sacrificing all to save a beloved child from the clutches of 
such wretched practices?
    To summarize information:

    1.  Current social work abuse and neglect is undermining family as 
the fundamental unit of society, not only in terms of the trauma caused 
to the maltreated parents and children through false allegations, but 
also in gross abuse of taxpayer dollars.
    2.  The cost economically includes a) the funds spent on child 
welfare services based upon false allegations and b) the increasingly 
large sums of money dedicated to addressing issues based upon 
``precautionary principles'' of ``possible'' consequences of abuse and 
neglect which in reality, simply do not exist.
    3.  The problem with launching another study to collect data from 
an organization comprised of DPHHS maintained and controlled 
``confidential'' files is that data can be manipulated without ever 
being adequately reviewed or challenged within the social context of 
DPHHS social work culture.
    4.  Excessive damage is being done to families and children through 
false allegations. Children are languishing in the government 
warehousing process while others are being killed and maimed because 
too many social workers suffer from misplaced loyalties or cognitive 
misers suffering from emotional instability.

    Therefore asking the right questions becomes imperative to seeking 
solutions lest the new civil religion of social work become the 
cultural downfall of society. After all, social worker job security is 
not the fundamental unit of society. Family is.
    Please feel free to call upon me to be of service at any time. I 
welcome the opportunity to be of help in this process of protecting the 
most vulnerable citizens in our society.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
